<html>
<title> - SUDAN: PEACE BUT AT WHAT PRICE?</title>
<body><pre>[Senate Hearing 108-666]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-666
 
                     SUDAN: PEACE BUT AT WHAT PRICE?

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             SECOND SESSION

                               __________

                              JUNE 15, 2004

                               __________

       Printed for the use of the Committee on Foreign Relations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate





                 U.S. GOVERNMENT PRINTING OFFICE

96-569                 WASHINGTON : 2004
_________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866)512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001




                     COMMITTEE ON FOREIGN RELATIONS

                  RICHARD G. LUGAR, Indiana, Chairman
CHUCK HAGEL, Nebraska                JOSEPH R. BIDEN, Jr., Delaware
LINCOLN CHAFEE, Rhode Island         PAUL S. SARBANES, Maryland
GEORGE ALLEN, Virginia               CHRISTOPHER J. DODD, Connecticut
SAM BROWNBACK, Kansas                JOHN F. KERRY, Massachusetts
MICHAEL B. ENZI, Wyoming             RUSSELL D. FEINGOLD, Wisconsin
GEORGE V. VOINOVICH, Ohio            BARBARA BOXER, California
LAMAR ALEXANDER, Tennessee           BILL NELSON, Florida
NORM COLEMAN, Minnesota              JOHN D. ROCKEFELLER IV, West 
JOHN E. SUNUNU, New Hampshire            Virginia
                                     JON S. CORZINE, New Jersey

                 Kenneth A. Myers, Jr., Staff Director
              Antony J. Blinken, Democratic Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Alexander, Hon. Lamar, U.S. Senator from Tennessee, opening 
  statement......................................................     1
Biden, Hon. Joseph R., Jr., U.S. Senator from Delaware, opening 
  statement......................................................     4
Corzine, Hon. Jon S., U.S. Senator from New Jersey, statement 
  submitted for the record.......................................    63
Feingold, Hon. Russell D., U.S. Senator from Wisconsin, opening 
  statement......................................................     3
Flint, Ms. Julie, Darfur field researcher, Human Rights Watch, 
  London, United Kingdom.........................................    52
    Prepared statement...........................................    55
Prendergast, Mr. John, Special Advisor to the President, 
  International Crisis Group, Washington, DC.....................    46
    Prepared statement...........................................    48
Snyder, Mr. Charles R., Acting Assistant Secretary of State, 
  Bureau for African Affairs, U.S. Department of State, 
  Washington, DC.................................................     6
    Prepared statement...........................................    10
    Responses to additional questions for the record from Senator 
      Biden......................................................    70
Winter, Hon. Roger P., Assistant Administrator, Bureau for 
  Democracy, Conflict, and Humanitarian Assistance, U.S. Agency 
  for International Development, Washington, DC..................    13
    Prepared statement...........................................    17
    Responses to additional questions for the record from Senator 
      Biden......................................................    72

                                 (iii)




                    SUDAN: PEACE BUT AT WHAT PRICE?

                              ----------                              


                         TUESDAY, JUNE 15, 2004

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 2:29 p.m. in room 
SD-419, Dirksen Senate Office Building, Hon. Lamar Alexander 
presiding.
    Present: Senators Alexander, Brownback, Biden, and 
Feingold.


              opening statement of senator lamar alexander


    Senator Alexander. Good afternoon. The hearing of the 
Senate Foreign Relations Committee will come to order. I want 
to welcome all of you here, especially to welcome our 
witnesses. We have two panels of witnesses today, plus we have 
three Presidential nominees who have been nominated for 
Ambassador. We want at least to get through the hearing on our 
main subject today by 4 o'clock or shortly before because we 
have a series of votes that begin at 4 o'clock which will 
interrupt the proceeding.
    So what I will ask our witnesses to do is to summarize 
their testimony, if they will, for their opening statement to 
no more than 7 minutes and that will give committee members a 
chance to ask questions and to have a fuller discussion of the 
very important issues.
    We are here to examine the complex and difficult choices 
that are facing the United States in Sudan. We see a struggle 
there to solidify a fragile peace in the south of Sudan and we 
want to mitigate the impact of what is the worst humanitarian 
crisis in the world today in the western part of that country. 
Civil war has consumed the southern part of Sudan for more than 
two decades. The heart of the conflict is a clash between the 
Muslim government in Khartoum, which identifies more with the 
Arab world, and the Christian rebels in the south, which 
identify more with sub-Saharan Africa.
    President Bush and Congress have responded to this ongoing 
conflict. Prior to my joining the U.S. Senate, in 2002 our 
majority leader, Senator Bill Frist, led the charge to pass the 
Sudan Peace Act. He was then the ranking member of the 
Subcommittee on African Affairs and was joined in the effort by 
Senator Feingold, who then was chairman of the subcommittee, as 
well as a former chairman, Senator Helms, Senators Lugar, 
Biden, Brownback, and others expressed a great interest in the 
Sudan Peace Act. That legislation provided a framework for the 
peace negotiations in Sudan.
    Since that time, progress on the peace talks moderated by 
the United States, by Great Britain, Norway, and Kenya has been 
slow. But the talks have finally yielded results. Senator John 
Danforth has served as President Bush's special envoy in this 
effort. Just a few weeks ago on May 26, the Government of Sudan 
[GOS] and the Sudan People's Liberation Movement signed three 
protocols to finally end that conflict. The difficulties of 
implementation of those protocols are still ahead, but I am 
hopeful that conflict is finally at an end.
    This is a tremendous success story, but it has been 
obscured by a growing tragedy in another part of Sudan. At the 
same time peace was being negotiated between the north and the 
south, a new campaign of terror erupted in the western region 
of Darfur. The prospect of a just peace with the south 
apparently provoked rebel bands in the west to try to get their 
piece of the pie. The Government of Sudan responded to rebel 
raids swiftly and brutally, beginning a campaign designed not 
just to root out the rebels among the population, but to 
systematically uproot and destroy the people of Darfur.
    It is worth noting that this western conflict has nothing 
to do with religion. Both sides are Muslim. The conflict is 
about ethnic rivalry and control of territory.
    The scope and results of this rampage are only now becoming 
clear. Somewhere between 25,000 and 50,000 natives to Darfur 
have been killed. Some 200,000 refugees have fled across the 
border into neighboring Chad. Over 1 million are estimated to 
be displaced in Darfur and 1.2 million are at risk of 
starvation if sufficient food assistance is not provided.
    Many now believe the Government of Sudan, through its 
Janjaweed militias in Darfur has been engaged in an active 
campaign of ethnic cleansing. Some have called it genocide. I 
expect our witnesses will have more to say on that point.
    The international community has failed to respond to the 
crisis. The United Nations Human Rights Commission, which is 
supposed to confront flagrant abuses of human rights, 
especially when they occur on such a mass scale, has failed to 
adopt a United States resolution condemning the actions of the 
Government of Sudan. That body, the U.N. Human Rights 
Commission, has become a travesty, condoning the very activity 
it was intended to prevent, largely because human rights-
abusing member governments outnumber those who are eager to 
prevent such abuse and they vote accordingly.
    President Bush and his administration have stated clearly 
and repeatedly that what has been happening in Darfur is wholly 
unacceptable and must be dealt with quickly. At the same time, 
it is not clear how ready we are to push that principle with 
the Sudanese Government.
    Some of our friends are reportedly concerned that 
confronting Khartoum too directly about atrocities in Darfur 
will jeopardize any prospect for lasting peace in southern 
Sudan. They may be right, but if hundreds of thousands of lives 
are the price of peace in southern Sudan the price is too high.
    Today we are fortunate to have two distinguished panels to 
testify before the committee on this topic. The first panel, 
from the administration, will share the actions taken by our 
government, the U.S. Government, in Sudan and what we hope to 
accomplish as we move forward. The second panel will provide 
expert advice on U.S. strategy as well as an in-depth look at 
the atrocities in Darfur.
    Before the first panel begins, let me turn to my colleague 
Senator Feingold and ask for his opening statement. Senator 
Feingold.


            opening statement of senator russell d. feingold


    Senator Feingold. I thank Chairman Alexander for calling 
this important hearing and I thank all the witnesses for being 
here today.
    I wish that I had been in a position to celebrate when the 
government in Khartoum and the Sudanese People's Liberation 
Movement reached a set of historic agreements in late May that 
hold great promise for a final comprehensive peace accord. I do 
commend the administration for working tirelessly in this 
effort and of course I welcome the prospect of an end to the 
north-south civil war that has claimed the lives of millions 
and caused such intense suffering to those who have survived.
    But the relentless stream of appalling reports coming out 
of Darfur makes it terribly difficult to celebrate. A brutal 
campaign conducted by Sudanese military forces and government-
backed militia forces has left tens of thousands of dead, over 
a million displaced, and hundreds of thousands at immediate 
urgent risk. The massacres and widespread rapes, the 
destruction of villages, mosques, and farms, all of this 
violence and horror has given rise to a second, even more 
costly wave of suffering as civilians are left with no capacity 
to sustain themselves as the rainy season approaches.
    There seems to be some disagreement about whether what is 
happening in Darfur is or is not genocide. Frankly, I believe 
that to argue over the semantics is to miss the point. What is 
happening is appalling. It is an affront to all humanity, to 
all faiths, and we cannot stand by and simply watch this unfold 
if we are to be the people and the country we wish to be.
    We are a party to the Convention on the Prevention and 
Punishment of the Crime of Genocide for a reason. We did not 
ratify the convention so that we could confront a situation 
such as the one unfolding in Sudan today and take our time 
reflecting on whether or not the massacres and rapes in Darfur 
fit the bill. We ratified the convention because doing so was 
an act that affirmed our commitment to basic human decency and 
affirmed our understanding of our own obligations to act to 
prevent genocide from occurring.
    I look forward to hearing the concrete proposals of the 
witnesses before us today and to working with my colleagues and 
with the administration to move forward on policies that 
address the humanitarian crisis, but also address the 
underlying political issues that first ignited this conflict. I 
hope to work toward ways to address the fact that some made a 
deliberate decision to unleash this horror on the Sudanese 
people. These individuals should be held accountable for their 
crimes.
    Finally, Mr. Chairman, I want to take this opportunity to 
make one point perfectly clear to the Government of Sudan. 
There can be no normalization of relations between the United 
States and Sudan while this crisis continues. That government 
should expect no support, financial, political, or otherwise, 
from the U.S. Government and the U.S. taxpayers until 
meaningful action has been taken to stop the violence, to 
protect civilians, and to cooperate with relief efforts rather 
than bogging them down with shakedowns and obstructions 
disguised as petty administrative requests.
    I do not understand what the Government of Sudan hopes to 
gain by its actions right now, but I certainly do understand 
what that government stands to lose.
    Mr. Chairman, I look forward to the testimony and I also 
believe that the ranking member of the full committee, Senator 
Biden, would possibly like an opportunity to make an opening 
statement later on. Thank you, Mr. Chairman.
    Senator Alexander. We thank you, Senator Feingold. Earlier 
I mentioned that the Sudan Peace Act had been enacted with your 
leadership as chairman of the African Affairs Subcommittee, and 
we will welcome Senator Biden when he is able to come and 
interrupt at that time and he will have a chance to make his 
statement.
    We will now proceed to the first two witnesses. Charlie 
Snyder is the first. He is currently the Acting Assistant 
Secretary of State for African Affairs. Connie Newman will soon 
fill that post. Mr. Snyder has been extremely active in our 
efforts in Sudan. He has personally traveled there multiple 
times to help move the peace process forward and to address the 
crisis in Darfur.
    After that, Roger Winter, Assistant Administrator for 
Democracy, Conflict, and Humanitarian Assistance at the U.S. 
Agency for International Development. Roger has been 
instrumental in our plans for southern Sudan as well as our 
efforts to mitigate a humanitarian catastrophe in Darfur.
    I would ask each of you to summarize your remarks in 7 
minutes so we will have a chance to come back to you. But first 
I would like to welcome the ranking member of the Senate 
Foreign Relations Committee, Senator Biden, and ask him if he 
has an opening statement.


           opening statement of senator joseph r. biden, jr.,
                             ranking member


    Senator Biden. Thank you, Mr. Chairman, and thank you for 
your indulgence. I do, if it please the committee.
    Let me say I want to thank you for holding this hearing on 
an extremely important issue and at a very timely moment. The 
administration has worked very hard over the past several years 
to support the peace process in Sudan between the government in 
Khartoum and the Sudanese People's Liberation Movement. With 
the signing of the last three protocols on May 26, that peace 
process is on the verge of success and that is a truly 
significant achievement.
    Mr. Chairman, the impact of that agreement has has been 
severely diminished and we have all been diminished by the 
horrific attacks on civilians that are being perpetrated by the 
Government of Sudan and its allied militias in Darfur. These 
attacks have precipitated what U.N. officials have called the 
worst humanitarian crisis in the world today.
    We have already witnessed ethnic cleansing on a massive 
scale. Nearly two million people have been displaced. Already 
as many as 30,000 people have been killed, and our USAID 
Administrator stated 2 weeks ago that, ``Under optimal 
conditions, we could see as many as 320,000 people die by the 
end of this year as a result of the violence, disease, and 
famine.''
    A U.N. factfinding team, quote, ``identified massive human 
rights violations perpetrated by the Government of Sudan and 
its proxy militia which may constitute war crimes and-or crimes 
against humanity.'' The violations reported by the U.N. include 
targeting of civilians during military strikes, the widespread 
rape of women and girls, the intentional destruction of homes, 
foodstores, livestock, and crops, the razing of villages, 
forced displacements, and thousands of disappearances.
    This in itself demands that we seek to save the lives still 
in jeopardy, safeguard and feed refugees and displaced people, 
and help establish security so that people can return home, and 
hold those responsible accountable.
    The administration has responded with humanitarian aid and 
raised the issue repeatedly with officials in Khartoum. The 
U.N. has sent teams out to investigate. These are very 
important steps, but I suspect we would all agree they are not 
enough. The international community must condemn Khartoum's 
actions unequivocally and must insist that Khartoum stop 
attacks on civilians by government troops and militias and 
provide unfettered access for humanitarian workers in Darfur. 
We must hasten the arrival of international cease-fire 
monitors.
    The U.S. should bring real money to the table to respond to 
the crisis rather than the empty promise of money it does not 
have. To that end, I call on the administration to request a 
budget supplemental that will provide the funds needed to 
address the humanitarian crisis now, not next year. I will soon 
introduce legislation to authorize such funds and to make the 
provisions of money to support the north-south peace agreement 
contingent on Khartoum's stopping the killing.
    We must also determine the true nature of what is 
happening. The question for our administration witnesses is 
this: Is the Sudanese Government engaged in or has it been 
engaged in genocide? The press reports that the question is 
finally under active consideration in the executive branch. 
Kofi Annan first raised alarm bells about genocide in April, 
but the administration has appeared reluctant to ask the 
question.
    Let me be clear. We already know more than we need to know 
to take urgent action to stop violence and provide humanitarian 
aid. But we also must confront the question of whether or not 
what is going on is genocide. If we do not, then we will fail 
ourselves as well as the people of the Sudan. If we do not 
confront the genocide question, we will renege on the promises 
we made after World War II and in the wake of Rwanda to not 
stand by and let genocide unfold again.
    Genocide is a crime so shocking to our collective 
conscience that the world agreed on a treaty dedicated solely 
to prevent its reoccurrence and to punish perpetrators. If we 
do not confront the genocide question, we will fail on moral 
and legal grounds to live up to that obligation and we will rob 
ourselves of the opportunity to enlist the help of others. The 
genocide convention states very clearly in article 1 that 
``Parties to the convention undertake to prevent the 
destruction of a people,'' not just act after it has happened.
    Finally, each and every time we fail to identify genocide 
and stop it we numb our collective conscience to the crime and 
embolden potential perpetrators to continue.
    I hope that our administration witnesses are prepared to 
explain whether this is genocide, what the U.S. course of 
action should be to stop it, and how we plan to meet the 
humanitarian needs with $188 million that is yet to be 
appropriated. I think I speak for everyone in this room when I 
say that I do not want to see the United States stand by while 
genocide unfolds. If we do not ask the tough questions and give 
honest answers and if we do not act, that is precisely what 
might happen. The truth of the matter is there are a lot of 
other considerations, but none in my view rise to a level that 
should prevent us from meeting our responsibility in making 
that tough determination.
    I thank you, Mr. Chairman, and I look forward to hearing 
our witnesses.
    Senator Alexander. Thank you, Senator Biden.
    Now, Mr. Snyder first and then Mr. Winter. Thank you for 
coming.

 STATEMENT OF CHARLES R. SNYDER, ACTING ASSISTANT SECRETARY OF 
   STATE, BUREAU FOR AFRICAN AFFAIRS, U.S DEPARTMENT OF STATE

    Mr. Snyder. Thank you, Senator. I will sum up my statement 
in respect to your wishes.
    Let me talk first about where we are in the peace process 
north-south. I think you pretty well brought the hearing up to 
date on where we are in terms of a significant breakthrough. We 
now have the essence of the peace agreement in terms of the 
north-south process. What we need to do next and what we will 
do next is attach to that two annexes. One of the annexes will 
be the detailed cease-fire process agreement, which will 
include things like demobilization, positioning of people, and 
so forth. We expect the talks on that subject to begin on June 
22 and continue for at least 4 weeks.
    The second missing part is an implementation date for the 
political agreement that they have made, what is the date that 
the interim agreement begins, et cetera, et cetera. We believe 
that as soon as the cease-fire talks end, probably in the 
middle of July, we will be able to move on to that. The Kenyan 
mediator actually hopes to wrap these talks up in about 8 weeks 
from June 22. I think he is optimistic, but I think, given the 
breakthrough and the partnership that seems to have developed 
between Vice President Taha and John Garang, it is not 
unreasonable to press for a quick settlement.
    One of the tragedies of this process--now let me turn to 
Darfur--is that this agreement that they have just signed 
actually has the kernel of settlement in it. The 
decentralization features, the power-sharing features, et 
cetera, can solve the underlying political problem in Darfur. 
We have urged and will continue to urge that these partners in 
peace, Vice President Taha and John Garang, turn their peace 
friendship in the direction of Darfur and act as national 
leaders to help to begin to end this process. They have assured 
us that they will do that and we are waiting for them to begin 
that process. I think that is one of the necessary pieces that 
is missing from this so far.
    Let me turn to what we have done about the tragedy in 
Darfur. We have already used the term ``ethnic cleansing.'' I 
think the Secretary said it best and let me quote him: ``All I 
know is that there are at least one million people who are 
desperately in need and many of them will die if I cannot get 
the international community mobilized and if I cannot get the 
Sudanese to cooperate with the international community, and it 
will not make a whole lot of difference after the fact what we 
call it.''
    So we are already as mobilized on this subject as we could 
be, whether we call it genocide or not, although I agree we 
need to answer that question, certainly for the record and 
certainly for holding those that are responsible for it guilty. 
But as always, we are faced with a tough dilemma: Do we pursue 
adequate relief immediately and set aside our justice concerns 
in order to press for that?
    We will not do that in the long run. We are in the process 
of trying to come up with a list of people who are responsible, 
people among the Janjaweed who are hoping to actually name, to 
begin this process so that the impunity that several of the 
members have referred to will begin to end here. And we will go 
further than that if we do not get the kind of response we are 
hoping to get.
    We are on this and we are pressing all parties. You quoted 
Mr. Natsios. The reason Mr. Natsios and I were in Geneva was to 
rally the assistance and the support, financial and otherwise, 
from the European Community, to begin to turn their attention 
to this as a serious process and not a case where the Americans 
are carrying this out of proportion. I think we have begun that 
education process and the Europeans are beginning to pledge 
money.
    For instance, most tangibly, they pledged $15 million, and 
it is the first money other than our million to hit the till, 
to get the African Union [AU] cease-fire team on the ground and 
in place to begin to have eyes and ears on the ground in an 
official sense, to begin to force the government and the rebels 
to honor the cease-fire agreement they have made.
    I am somewhat optimistic that we can push this out the door 
and we can actually have some success in this. When we began 
the process in the Nuba Mountains we faced the same dilemma, 
getting two parties who are fighting each other by no civilized 
rules to stop. It took us 30 days, but it took us getting the 
monitors on the ground to begin that process. So I have some 
reason to hope if we can get the African Union moving--and it 
is moving--the first elements are in Al Fashir and several 
other elements are moving out to subordinate areas--that they 
may begin to reverse this process.
    Again, the $15 million that the European Union put on the 
ground says that this is quite a serious process and that they 
intend to respect it. More significantly than that, they have 
put men on the ground, as we have. We have got our own men in 
this African Union peacekeeping force----
    Senator Alexander. We have an evacuation, so we will 
evacuate now and resume following the evacuation.
    [Recess from 2:51 p.m. to 3:33 p.m.]
    Senator Alexander. The Committee on Foreign Relations will 
come back to order. I want to thank the witnesses for an 
orderly evacuation. This is getting to be more frequent.
    Now, Mr. Snyder, you were testifying when we evacuated. Let 
me say in a preliminary way, we still have votes scheduled 
beginning at 4, and what we will do is go until shortly after 
4, which will give us time to get through this first panel for 
sure, and then I will need to go vote. Hopefully, Senator 
Feingold and I can work something out where we go back and 
forth and we can continue the hearing while we vote. We may 
have to take a short recess for that purpose.
    But this is a very important hearing and we are anxious to 
develop a full record and make a full statement. We have had a 
chance to hear from Senator Feingold and Senator Biden.
    Mr. Snyder, why do you not continue, and you are welcome to 
summarize again where you were or to recapture anything that 
you said, and then we can go to Mr. Winter. Then we will go to 
questions.
    Mr. Snyder. Thank you, Senator. I think I will pick up by 
detailing the actions we have taken in a more specific way than 
I was doing. The President, the Secretary, the National 
Security Adviser, Mr. Natsios, as I mentioned earlier, have all 
raised Darfur several times with President Bashir, Vice 
President Taha, and of course the Foreign Minister. The 
President issued a strong public statement on April 7 in which 
he condemned the atrocities being committed and insisted that 
the Government of Sudan stop the Janjaweed violence.
    Senior U.S. officials have visited Darfur several times 
since last fall to call attention to the situation and to press 
the GOS to stop the violence. In fact, we are now hoping to 
send out Pierre-Richard Prosper, the Ambassador at Large for 
War Crimes, as well as the Assistant Secretary Lorne Craner, to 
take a look at the human rights situation before the end of the 
month.
    In this same regard, we have pressed the United Nations to 
be as active as possible and we have some assurances from 
Secretary General Annan that he will attempt to visit Darfur as 
early as he can, possibly later this month, but certainly 
before the African Union summit begins in early July.
    We played a decisive role in brokering the cease-fire 
between the government and the Darfur armed opposition that was 
signed in Chad on April 8. We followed up the last week of May 
in Addis to help broker the agreement to actually deploy the 
monitors led by the African Union to Darfur. The United States 
has pushed for a special briefing on Darfur in the Security 
Council on April 7. This in part put the pressure on Sudan to 
sign the cease-fire agreement that they did on April 8.
    The World Food Program Director and Acting High 
Commissioner for Rights Berti Ramcharan briefed the Security 
Council again May 7. The council has also heard from NGOs in an 
informal session and has been briefed a third time.
    We took the lead in drafting a strong Presidential 
statement that the council adopted, after some negotiation May 
25. That statement, and I quote, ``expressed its grave concern 
over the deteriorating humanitarian and human rights situation 
and strongly condemned the indiscriminate attacks on civilians, 
sexual violence, forced displacement, and acts of violence, 
especially those of an ethnic dimension.''
    A U.S.-UK sponsored U.N. resolution was passed June 11 to 
welcome the protocols at Naivasha. But at our insistence, the 
resolution also refers to the situation in Darfur and ensures 
that the United Nations Security Council will remain seized of 
this issue.
    At our initiative, the U.N. chaired a June 4 Geneva meeting 
on Darfur with donors to send a concerted message to the GOS 
and to stimulate additional pledges to meet the urgent 
humanitarian assistance needs. As you know, the United States 
has pledged $188 million, bringing our total planned 
contribution to nearly $300 million.
    At the U.N. Human Rights Commission [UNHCR] meeting in 
April this year, we co-sponsored a resolution calling for the 
appointment of a Special Rapporteur for Sudan under item 9. The 
head of our delegation made a strong statement in which he 
condemned the atrocities taking place in Darfur and held the 
international community accountable for a lack of action. 
Ultimately, the CHR adopted a weaker decision, appointing only 
an independent expert.
    Finally, as I mentioned earlier in my statement, I want to 
underscore that we have made it clear to the Government of 
Sudan we will not normalize relations, even if there is a 
north-south peace agreement, unless and until the GOS takes the 
steps necessary to address the situation in Darfur.
    These steps have resulted in some improvement in the 
situation, but not nearly enough in the face of the enormity of 
this crisis, and we continue to remain active on that front. I 
have given you what we have done to date and I have begun to 
outline what we hope to do. We will attempt to find those 
responsible and name them, if we can, by name so that the idea 
of impunity does not become attached to this crisis. And we 
will look at more and more extraordinary steps as time goes by 
to force the Government of Sudan to honor its pledges.
    The simple fact of the matter, as Senator Feingold I 
believe pointed out, is that despite the high level 
reassurances we have had, we have been thwarted at many turns 
by the bureaucracy, and we have made it very clear that this is 
not acceptable in the face of the enormity of this crisis. In 
fact, I am hoping for the Secretary to press this point again 
in the next day or so with the Foreign Minister, who has become 
somewhat of an intermediary in this process and begun to get 
some satisfaction for our demands on the ground, but again not 
nearly enough.
    Just to reiterate one last time, the administration 
considers resolving the situation in Darfur to be one of its 
highest priorities. We said so in our memorandum of 
justification that accompanied the President's certification 
under the Sudan Peace Act and we have been faithful to that 
pledge. We have not stinted, certainly in diplomatic channels, 
but our USAID colleagues have not stinted on the practical 
side, from pushing this as far and as fast as we can.
    I will close with that and let my colleague Roger Winter 
have his say.
    [The prepared statement of Mr. Snyder follows:]

                Prepared Statement of Charles R. Snyder

    Mr. Chairman and Members of the Committee: I am honored to have the 
opportunity to appear before you to discuss our government's efforts to 
achieve a just and comprehensive north-south peace accord, and to 
address the grave humanitarian and human rights problems in Darfur. We 
are exerting strong leadership on both issues and have made tremendous 
progress toward ending the north-south conflict over the past three and 
a half years. We intend to use some tools that have proven most 
effective to address the humanitarian and human rights crises in 
Darfur. The situation in Darfur requires urgent attention, and will, if 
not resolved, negatively affect prospects to conclude and implement a 
comprehensive peace accord between the Government of Sudan (GOS) and 
the Sudan People's Liberation Movement (SPLM). Given the right 
resources, I am confident that we can end the tragedy in Darfur.
    The signing of the three protocols on power sharing, the two 
disputed areas of the Nuba Mountains and Blue Nile, and Abyei were a 
major breakthrough in efforts to achieve a north-south peace accord. 
Both sides agree that all the substantive issues have now been 
resolved. What remains is to work out the details of a formal ceasefire 
and related security arrangements, and implementation modalities. In 
their signing a declaration on June 5 in Nairobi, Vice President Taha 
and Chairman Garang committed themselves to do this quickly. We are, 
therefore, hopeful that a final comprehensive peace accord will be 
signed within the next 8-12 weeks. The situation in Darfur complicates 
this process, however, and clouds prospects for implementation of a 
peace accord. We are pushing the parties to sign a final peace accord 
as soon as possible while simultaneously working to end the violence in 
Darfur.
    The GOS and SPLM will meet on June 22, again under the auspices of 
the Intergovernmental Agency on Development (IGAD), to work out a 
formal north-south ceasefire agreement including details relating to 
disengagement and redeployment of forces, and disarmament, 
demobilization, and reintegration. We are sending a strong team of 
experts to those talks to assist IGAD mediator Sumbeiywo. The security 
talks will be followed by a session on modalities to implement the 
accords that have been signed. Once these details have been worked out 
the GOS and SPLM will sign a comprehensive peace accord encapsulating 
all the agreements that have been reached.
    Immediately following that, the six-month pre-interim period will 
begin, followed by the six-year implementation period. We are working 
now to identify the resources that will be needed to support 
implementation, as well as reconstruction and development. A strong 
commitment of support will reinforce U.S. leadership in the peace 
process and will enable us to push other donors to ensure equitable 
burden sharing among the international community.
    The title for this hearing, Mr. Chairman, asks the question ``what 
price peace?'' The price of war has been enormous. We estimate that 
over two million people have died in the course of the north-south 
conflict, approximately 700,000 refugees have fled the country, close 
to four million are displaced within Sudan, and development has been 
severely retarded throughout the entire country. We cannot and will not 
lessen pressure on the Government of Sudan and allow what is happening 
in Darfur to continue in order to achieve a north-south peace accord. 
We have made clear to both the Government of Sudan and the Sudan 
People's Liberation Movement that peace throughout Sudan, including 
Darfur is essential to the implementation of a north-south accord. 
Continued instability in western Sudan would fatally complicate efforts 
to implement a north-south accord.
    Even if this were not the case, the situation in Darfur would still 
merit the most vigorous possible effort by the United States. The 
violence and atrocities being perpetrated in Darfur simply must not be 
allowed to continue.
    A humanitarian crisis of major proportions exists in Darfur. I want 
to review how this situation developed and inform you about the steps 
we are taking to address it. Darfur is an area where traditional 
conflicts between nomadic herders, who are largely Arab, and sedentary 
agriculturalists, who are largely African Muslims, have long existed. 
The government's perceived marginalization of the region and favoritism 
towards Arab tribes have contributed to growing popular dissatisfaction 
among the three primary African groups: the Fur, Zaghawa, and Messalit. 
This dissatisfaction crystallized as the people of the region looked at 
the progress being made in the north-south peace talks and became 
increasingly focused on the need to address their grievances. There two 
armed opposition groups in Darfur: the Sudan Liberation Movement (SLM) 
and the Justice and Equality Movement (JEM). Both groups draw some 
support as a result of western grievances, but neither group has a 
clear political agenda. Although it is clear that the Government of 
Sudan is responsible for the humanitarian and human rights crises, we 
should not assume that the armed opposition groups are entirely without 
blame.
    The emergence of armed opposition in Darfur has profoundly shaken 
the GOS because it poses, in many respects, a greater threat than the 
activities of the SPLM in the south. The SPLM has never threatened the 
north militarily; it is a southern movement. Support for the JEM and 
SLM, however, comes from within the predominantly Muslim population of 
Darfur; radical Muslim cleric Turabi has links to the JEM. Moreover, 
over 50 percent of the Sudanese military is from the Darfur, and that 
region is not far from Khartoum. A successful insurgency in Darfur 
would fuel potential insurgencies in other parts of the north. This, I 
believe, explains why the Government of Sudan has adopted such brutal 
tactics in Darfur. The GOS is determined to defeat the JEM and SLM at 
any cost to the civilian population.
    The effective military operations carried out by the SLM and the 
JEM, particularly the attack on the regional capital of Al Fashir last 
year, raised grave concerns within the GOS. As a result, the government 
launched an all-out effort to defeat the armed opposition. As a major 
part of that effort, the government armed and supported Arab-based 
``jingaweit'' militias have attacked and displaced civilians. These 
attacks are coordinated and supported by government security forces. 
African villages have been systematically attacked in a scorched-earth 
type approach. Villages are burned to the ground, water points 
destroyed, crops burned, and the people are forced from their land. The 
African population has been brutalized by the jingaweit through 
widespread atrocities including mass rape, branding of raped women, 
summary killings, amputations, and other atrocities. Estimates of 
civilians killed range between 15,000-30,000. As many as one million 
people have been displaced, and tens of thousands have sought refuge 
across the border in Chad. All of this amounts to ``ethnic cleansing'' 
on a large scale.
    The United States has exerted strong leadership to stop the 
violence. We have consistently told the Government of Sudan--at the 
highest levels--that it must take the following steps on Darfur: end 
the jingaweit violence; agree to a ceasefire with the armed opposition 
and allow international monitoring of the ceasefire; and allow 
unrestricted humanitarian access.
    I want to detail actions we have taken:

  <bullet> The President, Secretary of State, National Security 
        Adviser, USAID Administrator have raised Darfur with President 
        Bashir, Vice President Taha, and Foreign Minister Ismael.

  <bullet> The President issued a strong public statement on April 7 in 
        which he condemned the atrocities being committed and insisted 
        that the GOS stop jingaweit violence.

  <bullet> Senior U.S. officials have visited Darfur several times 
        since last fall to call attention to the situation and to press 
        the GOS to stop the violence.

  <bullet> The United States played a decisive role in brokering a 
        ceasefire between the government and the Darfur armed 
        opposition that was signed in Chad on April 8.

  <bullet> We then followed up the last week of May in Addis Ababa to 
        help broker an agreement to deploy international monitors, led 
        by the African Union, to Darfur.

  <bullet> The United States pushed for a special briefing on Darfur in 
        the United Nations Security Council (UNSC) on April 7; this 
        helped pressure the GOS to sign the ceasefire on April 8.

  <bullet> World Food Program Director and Acting High Commissioner for 
        Human Rights Berti Ramcharan briefed the Security Council again 
        May 7. The Council has also heard from NGOs in an informal 
        session and has been briefed a third time.

  <bullet> The U.S. took the lead by drafting a strong Presidential 
        Statement that the Council adopted, after some negotiation, May 
        25. That statement ``expressed its grave concern over the 
        deteriorating humanitarian and human rights situation'' and 
        ``strongly condemn[ed]'' the ``indiscriminate attacks on 
        civilians, sexual violence, forced displacement, and acts of 
        violence, especially those with an ethnic dimension.''

  <bullet> A U.S./UK sponsored UNSC resolution was passed June 11 to 
        welcome the three protocols at Naivasha. At our insistence, the 
        resolution also refers to the situation in Darfur and ensures 
        that the UNSC will remain seized of this issue.

  <bullet> At our initiative the UN chaired a June 4 Geneva meeting on 
        Darfur with donors to send a concerted message to the GOS and 
        to stimulate additional pledges to meet the urgent humanitarian 
        assistance needs. The United States pledged $188.5 million 
        bringing our total U.S. planned contribution to nearly $300 
        million.

  <bullet> At the UN Human Rights Commission (CHR) meeting in Geneva in 
        April of this year, we co-sponsored a resolution calling for 
        appointment of a special rapporteur for Sudan under Item 9. The 
        head of our delegation made a strong statement in which he 
        condemned the atrocities taking place in Darfur and held the 
        international community accountable for lack of action. 
        Ultimately, the CHR adopted a weaker decision, appointing an 
        independent expert.

  <bullet> And finally, as I mentioned earlier in my statement, I want 
        to underscore that we have made clear to the GOS that we will 
        not normalize relations--if there is a north-south peace 
        agreement--unless the GOS takes the necessary steps to address 
        the situation in Darfur.

    The steps that we have taken have already yielded some results, 
though not enough given the enormity of the crisis in Darfur. The 
ceasefire signed between the GOS and the Darfur armed opposition 
provides a basis to end the violence. The agreement specifically holds 
the GOS responsible to stop the activities of the jingaweit militia. 
The ceasefire agreement provides for international monitoring, and this 
is to be under the auspices of the African Union. With our logistical 
support, the first team of monitors has just deployed to Darfur. In 
addition to representatives from African countries, U.S. and European 
Union (EU) personnel are members of the team. We are working with the 
AU to ramp up this team and to begin investigations on an urgent basis. 
Getting these monitors on the ground and helping them work effectively 
is of critical importance. You will recall the pivotal role that 
getting monitors into Sudan has played in maintaining the ceasefire in 
the north-south conflict and helping move political resolution to the 
conflict forward.
    While there has been some diminution in violence and some 
improvement in humanitarian access, the situation in Darfur remains 
grave. USAID estimates that as many as 350,000 people could die over 
the coming months if humanitarian assistance is not put in place 
urgently. However, most of the violence is being perpetrated by the 
jingaweit. In addition, there have been several unconfirmed reports of 
aerial bombardment and/or use of helicopter gun ships. Getting 
international monitoring in place and stopping the jingaweit violence 
is crucial to facilitating unrestricted humanitarian access. 
International humanitarian workers simply cannot gain access to many 
areas while the violence is continuing. Moreover, those displaced fear 
receiving humanitarian assistance, because that provokes further 
jingaweit attacks to loot supplies.
    The perpetrators of the violence and atrocities in Darfur must be 
held accountable. The Government of Sudan has a responsibility to end 
the impunity in Darfur. The perpetrators of the violence and atrocities 
in Darfur must be held accountable. We described in detail in our Sudan 
Peace Act report the atrocities that are taking place in Darfur. While 
the information available to us is far less precise than we would like, 
we are working hard to identify those responsible. We are exploring 
actions that we can take against these people, specifically by freezing 
assets they may have in the United States and prohibiting the issuance 
of visas to them. We are working hard with the UN and other partners to 
ensure that concerns about Darfur received appropriate mention in any 
Security Council statements on the situation in Sudan. It is also 
essential that the results of ethnic cleansing not be allowed to stand. 
The African ethnic groups forced from the land must be allowed to 
return voluntarily and their protection must be ensured.
    The Administration considers resolving the situation in Darfur to 
be one of its highest priorities. The Memorandum of Justification 
accompanying the President's certification to the Congress consistent 
with the Sudan Peace Act highlighted the need for urgent action both to 
reach a north-south peace deal and to end the violence in Darfur. The 
Memorandum made clear that the situation in Darfur was taken into 
account in the determination. It specifically noted ``Government-
supported atrocities in Darfur and hostilities in other areas have 
caused a major humanitarian crisis and stimulated renewed skepticism 
about Government intentions.'' It pointed out that the government's 
actions in Darfur weaken our confidence that it is committed to achieve 
peace throughout the country.
    The progress in the north-south negotiations provides an important 
opportunity to intensify efforts on Darfur and to test the Government's 
commitment to peace. Both Vice President Taha and Chairman Garang have 
told us they understand that a north-south peace accord cannot be 
effectively implemented without peace in Darfur and that they have 
pledged to work together to resolve the Darfur problem. We intend to 
hold them to this commitment.
    A political process will be essential as part of the solution for 
the problem in Darfur. We are encouraging the Government and the armed 
opposition in Darfur to have serious political discussions aimed at 
achieving a negotiated solution. The agreements signed between the 
Government and the SPLM establish a national framework for resolution 
of local grievances by providing strong provisions for a federal 
structure and local autonomy.
    The limited improvement in humanitarian access that has taken place 
and the fact that there is at least less violence than there was before 
provides some basis for hope. That said, it is by no means possible to 
say that we have turned the corner on Darfur, and we must maintain 
relentless pressure on both the Government and the rebels to take the 
necessary steps. The recent deployment of international monitors will 
help establish a new reality on the ground and, therefore, to help end 
the violence.
    We have surprised the Government of Sudan by our tough actions on 
Darfur. Clearly, the GOS had calculated that our desire to see a north-
south accord might lead us to adopt a softer approach on Darfur. That 
was a major miscalculation, and the GOS now understands that. Our 
linkage of normalization of bilateral relations with the GOS to GOS 
behavior in Darfur as well as to a north-south accord highlights our 
seriousness. I take this opportunity once again to reiterate our 
message to the GOS. Bipartisan congressional interest in this issue, as 
manifested by the helpful congressional resolution on Darfur and this 
briefing helps send a clear message that we do not intend to stand by 
while violence and atrocities continue in Darfur. Our message to the 
Government of Sudan is clear: do what is necessary now, and we will 
work with you. If you do not, there will be consequences. Time is of 
the essence. Do not doubt our determination.

    Senator Alexander. Thank you, Mr. Snyder.
    Mr. Winter.

  STATEMENT OF HON. ROGER P. WINTER, ASSISTANT ADMINISTRATOR, 
 BUREAU FOR DEMOCRACY, CONFLICT, AND HUMANITARIAN ASSISTANCE, 
           U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

    Mr. Winter. I will collapse a lot of stuff in the interest 
of time.
    Senator Alexander. No, we want to hear from you.
    Mr. Winter. I cannot prove that the key government leaders 
of Sudan----
    Senator Alexander. Is your mike on?
    Mr. Winter. It is not.
    Senator Alexander. Thank you.
    Mr. Winter. I was going to say, I cannot prove what the key 
government leaders of Sudan were thinking about 8 or 9 months 
ago, but I believe they made a conscious strategic decision to 
massively attack the civilian populations from which the armed 
rebel groups, the SLM and the JEM----
    Senator Alexander. Would you please move that microphone 
just a little closer so we can hear you better. Thank you.
    Mr. Winter. To implement this massive attack, they used not 
just their own militaries, but they used this militia group 
called the Janjaweed. The Janjaweed, it is important to keep in 
mind, are not just some loose band of fellows on horses. They 
are an instrument of the Government of Sudan.
    What I would like to do is talk very briefly about the 
humanitarian situation and then try to get a little bit at the 
issue of accountability. First of all, the situation in Darfur 
overall continues to deteriorate. Because the situation of the 
civilians is deteriorating does not mean there have not been 
some improvements. The Government of Sudan gradually has 
allowed additional access to us. It is the case that the number 
of attacks against civilians have decreased. That does not mean 
they have ended.
    We have a packet about this thick [indicating], an incident 
log in which we record attacks against civilians. We are 
keeping a record of them as they are reported to us, and they 
continue up through now, and some aerial attacks periodically 
also continue.
    New displacement occurs on a daily basis, and sometimes it 
is very large displacement. We had 1,500 families evicted from 
a single location about 10 days ago. So the numbers of affected 
continue to increase. Restrictions and obstructions by the 
government to the humanitarian program continue. There has been 
improvement in some areas, but those areas that have improved, 
have mostly seen improvement specifically for the American 
participants. We have made so much noise that we get our visas 
processed. But NGOs do not have the leverage we do and other 
governments do not necessarily get treated as quickly as we do 
now with respect to visas and permits.
    New problems, new restrictions, keep materializing. I will 
not run through them all. Let me just mention a couple. The 
government has indicated it will want UNICEF to submit any 
drugs and pharmaceuticals that it uses in its programs to be 
tested in Sudanese laboratories. We have a big problem in 
customs. We have, for example, one NGO that is conducting what 
we call therapeutic and supplemental feeding programs in 
Darfur. They have 2,400 kids. These are what we might call 
``stick children.'' These are the kids that are in bad shape 
already. But this NGOs vehicles and the specialized commodities 
they use to benefit these children have been tied up in customs 
clearance for months and months and months, and they run out of 
those specialized commodities this week.
    USAID itself has had eight vehicles impounded for a long 
period of months. They are necessary for us to do our work. 
They are tied up in customs and we have now been provided a 
bill, an invoice from the Sudan Government, because they want 
us to pay the fees for having our vehicles stored there. They 
billed us for $4,000.
    There is lots of this kind of stuff that continues to go 
on. I should point out that they do not allow us to photograph 
very often. They do not allow us to ask questions of a human 
rights nature. If a minder is around, we cannot do that kind of 
thing. So there are lots of problems that continue to hamper 
the relief operation.
    Let me tell you about anticipated mortality real quick. In 
the testimony I submitted, we include a chart. It is a chart 
that is done by our epidemiologists that lays out what we think 
will be the trajectory of what we call the crude mortality rate 
and the rate of global acute malnutrition. These are figures 
that are prepared by our professionals on the basis of prior 
experience in Sudan and prior experience in the region.
    The large number of people that it reflects as anticipated 
mortality--this is as of April 1--gets up to the 300,000 or 
350,000 range. But the way this is calculated, our guys develop 
a coefficient that is applied against the total number of 
people at risk. The U.N. less than 2 weeks ago more than 
doubled the total number of people at risk, which means that 
the body count could dramatically balloon. The U.N. expects 
that the number of people at risk will rise to 2.2 million by 
October.
    So you might wonder, as many people do who do not work in 
our business, well, if you get some access and you can get some 
planes over there and some people out there, why can not most 
of these lives be saved? The truth of the matter is some of 
them can and that is what we are trying to do. But the way it 
works is something like this in reality. I want you to try to 
understand how it is on the ground there.
    The people whose lives we and the others in the 
humanitarian community are trying to save have been displaced. 
What that means is they have basically lost everything. They 
have fled from their homes. In many cases they have been 
displaced for 6 or 9 months. What that means, because we did 
not have any access to those populations, is they have not been 
eating right or they have not been doing anything normal, 
because aid has simply not been able to be provided to them and 
they are entirely dependent on other people to help them out.
    Their crops were burned, their foodstocks were destroyed. 
They did not get a planting in this year, so this emergency is 
going to last for a while. Their livestock are dead or stolen. 
Their water sources have been destroyed. There is no shelter 
for them. This is an arid area. Their real houses are gone and 
basically what they would normally do is put up grass huts, but 
because it is an arid area there is not a lot of grass. So they 
are not really under shelter in any way.
    So their bodies have been weakening for all this period of 
time. Less than 10 percent of them have access to latrines. 
They are crowded together in these IDP camps and the rains have 
started. Because there are no roofs, the rains wet them. 
Between the combination of the overcrowding, the weakness of 
their bodies, the diseases that are out there, the lack of 
sanitation, the latrines, and all of that kind of stuff, this 
is what kills them.
    So it is not as easy as getting some food there. There is a 
whole complex approach that needs to be taken to save the lives 
of the people. And the obstructions that the government has put 
in the way of these programs guarantees that the body count 
rises. This monstrous pile of liabilities cannot simply be 
overcome, and it guarantees that even if we do the best job we 
possibly can there will be a significant body count.
    Let me turn a little bit to the issue of accountability 
within the limits that I can with the responsibilities I have. 
First of all, I think it is quite appropriate that we have, all 
of us, been using for some long period of time the words 
``ethnic cleansing.'' This has been a real campaign.
    But I think it is also appropriate that the administration, 
the Secretary has indicated, are now looking at other 
possibilities. And I cannot second-guess what they are going to 
come up with, but looking at it from the ground level, as USAID 
does because our people and our NGO partners, our U.N. 
partners, are on the ground with the population, this is not an 
accident. You can ask the question of intent and I cannot 
really prove intent, but have these attacks been targeted? They 
certainly have. You can have two villages right next to each 
other, one with an African Sudanese population, one with an 
Arab Sudanese population; the one is destroyed, the other one 
is functioning perfectly. That is a pattern that we see across 
the board.
    Is it widespread? Yes, it has gone on all over the three 
states of Darfur. Is it systematic? Has it been carried out in 
very sort of logical ways, where people were attacked, they 
were displaced, they were herded into camps in particular 
areas? It seems to be very systematic.
    Was it conscious? I believe in my own heart it was a 
conscious strategic decision in what I have seen out there. I 
think it is conscious because it is even today a continuing 
strategy. There has been a lot of noise made by us, by the 
United Nations, increasingly by the media, by the Congress, and 
many, many others. What has happened to the Janjaweed, the ones 
who have been doing most of the pillaging against civilians? 
What has happened is nothing. There has not been a single 
enforcement action that we are aware of that has been taken 
against the perpetrators of this thing.
    This has been going on for months. If the government wanted 
to rein them in, there are steps it could take to rein them in. 
As a matter of fact, there was a few weeks back a parade for 
President Bashir, President of Sudan, in south Darfur in which 
the Janjaweed marched in the parade. So actions have not been 
taken against them.
    Was there clear coordination between the Janjaweed and the 
military of the Government of Sudan? From our point of view, 
from my point of view I should say, clearly. The internally 
displaced persons [IDPs] report to us regularly that before 
their villages were attacked they were bombed. It shows a level 
of coordination between the various displacing entities.
    Is there a series of persistent actions on the part of the 
government that will hype the body count? Yes. I mentioned a 
lot of them already: the destruction of assets, food, water 
stocks, livestock. This kind of destruction of assets is going 
to have a consequence in the lives of the population.
    Do they deny that there is a disaster going on in Darfur? 
Yes, they do.
    Have they been denying access to those who could go there 
to help the civil population or to see and report on what was 
going on? Yes, they do deny access. There has been very 
restricted access.
    The obstructions of our humanitarian operations, I have 
mentioned a few examples before. Do they limit photos? Do they 
limit our asking questions on how people were displaced and who 
did it? Yes, they do.
    This large-scale rape and branding of women who have been 
raped, presumably to prevent their reconciliation with their 
husbands, and that kind of thing, does that continue to go on? 
Yes, it does even now.
    It seems to me there is also obstruction of accountability. 
The denial and delaying of access by the U.N. human rights 
monitors I think was part of an approach to doing that. Yes, 
they have agreed to let six U.N. monitors come in to see this 
devastated area the size of the State of Texas. Six does not 
cut it.
    Have there been restrictions on press access? Yes, that is 
clear. Are visitors who go there manipulated in what they see 
and hear? Yes.
    What I would say is in summary, and I will stop, that while 
saving as many lives as possible in Darfur must remain ours and 
the international community's highest priority, the impact of 
the actions of the Government of Sudan that undermined the 
effectiveness of our humanitarian efforts will ultimately 
determine what the body count is going to be, and we certainly 
would encourage strong accountability efforts now because that 
can help save a lot of lives.
    [The prepared statement of Mr. Winter follows:]

               Prepared Statement of Hon. Roger P. Winter

    I thank the Chairman and Members of this Committee for holding this 
hearing. Your interest in Sudan is helpful and can have useful 
repercussions on the ground in Sudan at a time when the situation there 
is more fragile and more complicated than ever. Several Members of this 
Committee have been involved in Sudanese issues for many years, and I 
can assure you that that fact is known and respected in the region. 
Your veteran wisdom, fresh ideas, and steady engagement on Sudan are 
welcome and appreciated by me, by my USAID colleagues, and by many 
Sudanese I have met in my regular travels to the region. Thank you for 
the opportunity to testify today.
    It is tempting to describe this as two hearings in one: one hearing 
about the crisis in western Sudan, and one hearing about the progress 
toward peace in southern Sudan. Such a description would be dangerously 
wrong, however. The same Government of Sudan (Go) that signed a long-
awaited framework peace agreement on May 26 to end a 20-year civil war 
in the South that killed or uprooted more than 6 million people is the 
same GoS that still pursues a campaign of deadly destruction and relief 
deprivation against the people of Darfur in the West. The sense of 
injustice, discrimination, and marginalization among black African 
Sudanese that partly contributed to the insurgency that began in Darfur 
in February 2003 is not unlike the deep sense of grievance among black 
African Sudanese that triggered the newest round of war in the South 20 
years ago.
    An important link exists between the events in southern Sudan and 
Darfur, and therefore a link exists in U.S. Government policy. The new 
peace agreement in southern Sudan is an important achievement that the 
long-suffering peoples of the south deserve to celebrate, and the 
international community welcomes it. But it is a diminished achievement 
because of events in Darfur. We cannot allow the GoS to believe that 
agreement on a peace framework in the South purchases international 
tolerance for ethnic cleansing in the West. As testimony by the 
Department of State today makes clear, the U.S. Government will not 
normalize relations with Khartoum until the devastating GoS policies in 
Darfur cease.
    USAID is committed to an aggressive humanitarian response to 
emergency needs in Darfur, and we are committed to supporting the 
difficult process of reintegration, rebuilding, healing and 
reconciliation in southern Sudan. But I must warn that our obligation 
to respond to the immense human needs in Darfur could undermine the 
necessary and justified surge of effort USAID needs to pursue in 
helping establish adequate governance and reintegration in southern 
Sudan.
                               i. darfur
Overview
    The situation in Darfur is the worst humanitarian crisis in the 
world today. It is already too late to save the lives of many people 
who will perish in coming weeks because emergency humanitarian 
assistance has not arrived in time due to GoS obstruction of 
international relief programs. USAID analysis of potential mortality 
rates in Darfur suggests that 300,000 or more Darfurians are likely to 
perish by the end of this year if restrictions on humanitarian access 
persist. By comparison, an estimated 30,000 to 100,000 died in the 1998 
famine in southern Sudan's Bahr el-Ghazal Province that some members of 
this Committee will remember.
    As the GoS and its Jingaweit proxy forces continue a campaign of 
ethnic cleansing in Darfur that has forced an estimated 1.1 million 
people from their homes while inflicting widespread atrocities, serious 
food shortages, deliberate blockages of humanitarian aid, and 
destruction of shelter and medical care, it is possible to conceive of 
chilling scenarios that could push the death toll far higher than even 
the astounding level of 300,000. Some 2.2 million Darfurians are 
directly affected by the crisis. An estimated 1 million people are 
displaced and in great danger inside Darfur, while approximately 
160,000 Darfurians have become refugees in neighboring Chad.
    USAID as well as international and private humanitarian agencies 
have warned for months about the urgent necessity of delivering large 
quantities of relief supplies and expertise into Darfur before the 
onset of the annual rainy season in mid-June begins to make entire 
areas logistically inaccessible. It is now mid-June; the precipitation 
has arrived on schedule, and in a matter of weeks the rain will have 
rendered some roads impassable to delivery vehicles and transformed 
crowded and unsanitary displacement sites into breeding grounds for 
cholera, measles, dysentery, meningitis, malaria, and other diseases 
that will claim huge numbers of lives. This is a disaster in the making 
in part because prior to the rainy season the GoS consistently imposes 
restrictions that delay deliveries of life-saving services. As 
discussed later in this testimony, a few administrative restrictions 
have been eased in recent weeks but have not disappeared and have in 
fact been augmented by new restrictions, ensuring that timely 
humanitarian access to Darfur remains a serious problem.
    That men, women, and children uprooted by the war and ethnic 
cleansing will die in enormous numbers is no longer in doubt due to 
advanced stages of malnutrition and disease that cannot be reversed in 
time. What remains in doubt is how high the body count will climb, and 
whether or not the Sudanese government will finally make saving lives 
in Darfur the priority rather than a chit for negotiation.
    The U.S. Government has repeatedly pressed the GoS to stop the 
violence in Darfur and allow full humanitarian access since the 
conflict's impact on the civilian population became apparent last year. 
The President, the State Department and USAID have issued strong 
statements on the matter. The President, Secretary of State and the 
National Security Advisor have all raised Darfur directly and 
forcefully to President Bashir and Vice President Taha. Senator 
Danforth, Administrator Natsios, then Acting Assistant Secretary 
Snyder, myself, and other senior U.S. Government officials have 
repeatedly stressed the United States' concern over the situation in 
Darfur when meeting with senior Sudanese government officials in 
Khartoum or Naivasha. Unfortunately, the GoS has chosen instead to 
pursue a policy of violence and ethnic cleansing against the civilian 
population.
    USAID staff conducted a mission to the region as early as April 
2003, just two months after the violence began. I accompanied the first 
humanitarian delivery able to reach Darfur in August 2003. 
Administrator Natsios led a delegation to Darfur last October, and I 
led yet another delegation to Darfur in February 2004. I returned to 
Khartoum with a USAID colleague in March to help press for a 
humanitarian cease-fire, and the U.S. Government played a significant 
role in the Darfur cease-fire negotiations held in N'Djamena, Chad in 
early April. When the cease-fire took effect on April 11, USAID 
mobilized a Disaster Assistance Response Team (DART) that same day in 
anticipation of improved humanitarian access to Darfur.
    The U.S. Government has already committed or pledged to commit 
nearly $300 million since February 2003 to fund the difficult challenge 
of providing emergency humanitarian assistance in Darfur and eastern 
Chad.
Violence and Ethnic Cleansing in Darfur
    Insurgent activity began in the Darfur region of western Sudan in 
early 2003 in response to local political and economic grievances 
against the government in Khartoum. The GoS has responded by unleashing 
a campaign of ethnic cleansing targeting Darfur's predominantly black 
African population. The local population has not been spared by the 
fact that their Muslim religion is rooted in the same basic tenets as 
that of the government in Khartoum. Sudanese government air and ground 
forces, allied with Jingaweit militias, have systematically attacked 
hundreds of villages--including aerial bombardments and helicopter 
gunships--in a vast pattern of destruction readily familiar to anyone 
who has witnessed or analyzed similar attacks perpetrated by GoS troops 
and Murajaleen militia in southern Sudan during the past 20 years.
    Various international human rights groups estimate that 15,000 to 
30,000 civilians have died in Darfur during the past 16 months. A 
cease-fire signed by the Sudanese government and the two Darfurian 
rebel groups on April 8 reduced but failed to eliminate the violence 
and did not reverse the underlying GoS policy of depredation against 
the population. In North Darfur, an aerial bombardment on May 28 
reportedly killed 12 or more persons, and civilians report continued 
attacks and harassment in that region. In parts of South Darfur, 
Jingaweit attacks reportedly killed at least 56 persons in late May, 
and local populations report that Jingaweit have continued to 
perpetrate rapes and assaults in the area. In West Darfur, insecurity 
persists along the Sudan-Chad border and large numbers fled new 
violence in late May, creating a new refugee outflow into Chad in early 
June. Some villagers in West Darfur report that fear of Jingaweit 
attacks along the roads have made them virtual prisoners in their own 
homes. Victims throughout Darfur consistently have reported since the 
onset of violence that government troops participate in attacks with 
Jingaweit militia and oversee militia activity.
    Deliberate wholesale destruction is evident on the ground. Our 
surveillance of villages spanning much but not all of Darfur has 
confirmed that 301 villages have been destroyed and 76 have been 
damaged. We continue to collect data such as this on a regular basis, 
finding more destruction each time. One international human rights 
agency has reported that in West Darfur alone, Jingaweit attacked and 
burned 14 villages in a single day. The long list of destroyed villages 
manages to convey a sobering sense of the enormous scope of the 
violence and the crippling long-term nature of the devastation: in one 
village we know about, all 1,300 structures are destroyed; in another 
village, all 466 structures are destroyed; in yet another settlement, 
628 of 720 structures are destroyed; and the list goes on. In some 
cases we know the names of the destroyed villages, while in some other 
cases the village name is unknown to us even though the destruction 
left behind is evident. In village after village, the attacks by 
Jingaweit and GoS troops have burned crops, killed or stolen cattle, 
and destroyed irrigation systems, thereby devastating much of Darfur's 
economic base and potentially discouraging eventual population return 
and reconstruction.
    Victims of the attacks by Jingaweit and GoS military regularly 
describe massacres, executions, and rapes committed in plain view. GoS 
planes have bombed villages and attacked them with helicopters. We have 
received reports that some victims were buried alive and others were 
mutilated after death. At one isolated location visited by USAID staff 
in Darfur last month, local leaders reported that more than 400 local 
women and girls have been raped by attackers in recent months; some 
women reportedly were raped in front of their husbands, compounding the 
shame and humiliation inflicted by the attackers. We continue to 
receive reports of Jingaweit branding their rape victims, presumably to 
make the act of rape permanently visible and discourage husbands from 
taking their wives back. A health survey in parts of West Darfur in 
April found that 60 percent of the deaths there of children older than 
age 5 were caused by wounds inflicted in the violence. These acts raise 
questions about the community's long-term ability to survive and 
reestablish itself.
    Many of the estimated 1 million residents of Darfur who are now 
internally displaced have been denied safety even in displacement camps 
where they have gone to seek refuge. Pro-government security personnel 
have blocked some uprooted families from entering particular towns. 
Armed Jingaweit apparently under GoS instructions claim to be 
``protecting'' camps of displaced persons who fled Jingaweit attacks 
days earlier. Camp occupants continue to suffer killings, rapes, and 
theft of relief items. Displaced persons say that that they cannot 
venture outside their camps or villages for fear of being assaulted by 
Jingaweit. Because many men fear death if they leave, many families 
rely on women to perform journeys because women need fear ``only'' 
rape, according to interviews with displaced families. Some communities 
have refused to accept sorely needed humanitarian assistance because 
they fear that distributions of relief items might attract Jingaweit 
atrocities. A United Nations (UN) official recently reported that he 
has never encountered displaced populations as frightened as the people 
he met in Darfur last month.
    A troubling new development is the GoS effort to force frightened, 
displaced families to return prematurely to their unsafe villages, 
where they are at the mercy of the same Jingaweit militia that attacked 
them originally. We have received other reports of families returning 
to their homes under duress after receiving GoS assurances of 
reintegration assistance that in fact does not exist. Involuntary 
returns to locations that are unsafe, utterly destroyed, and currently 
beyond the reach of international aid would constitute yet another 
violation against the people of Darfur and would compound the current 
humanitarian emergency.
Humanitarian Situation in Darfur
    The lack of humanitarian access to desperate populations in Darfur 
remains a matter of highest priority to USAID, the U.S. Government 
broadly, and, we hope, to others in the international community. While 
the GoS belatedly has eased or removed some restrictions on relief 
programs in the past month, many GoS administrative obstacles remain in 
place that translate directly into less aid and greater probability of 
suffering and death for populations desperately in need.
    The GoS promised in late May to accelerate visas for relief workers 
seeking to enter Sudan and has lately fulfilled that promise for USAID 
personnel; some other humanitarian agencies report, however, that their 
relief workers continue to endure extended waits for visas. While the 
GoS says it has waived requirement that relief workers traveling from 
Khartoum to Darfur must apply for travel permits, some agencies 
continue to encounter travel permit delays as well as registration 
problems authorizing them to establish operations in Darfur. Sudanese 
authorities have eased their requirement of 72-hour advance clearance 
on all air passengers into Darfur by reducing it to 48-hour advance 
notice, but travel on the ground within Darfur remains subject to tight 
government controls.
    Although the GoS has backed away from restrictions it planned to 
impose on aircraft used in humanitarian flights, GoS customs delays on 
vehicles, radios, food, medicines and other supplies imported by relief 
agencies have seriously hindered humanitarian operations. One 
international humanitarian organization reported on June 7 that it has 
had 31 tons of medical supplies and medicines awaiting GoS clearance to 
enter the country since March 2, nine tons of emergency health kits 
awaiting import clearance since May 1, and 13 vehicles needed for 
emergency health programs bottled up by authorities at Port Sudan for 
durations ranging from weeks to months. The relief agency in this 
particular case has made explicitly clear that these delays will cost 
lives in Darfur by depriving the population of basic medicines and 
depriving health workers of the mobility they need to assess conditions 
at isolated locations. In another report, an international relief 
agency stated that 200 metric tons of food and medical supplies that 
arrived in Port Sudan in mid-April had not been released because the 
GoS claims it is not an emergency shipment since it arrived by sea 
rather than by air.
    Sudanese officials have informed the United Nations Children's Fund 
(UNICEF) that the government might insist on conducting its own time-
consuming tests on imported medicines that are urgently needed to save 
lives in Darfur. The GoS requires international relief agencies to use 
Sudanese truckers to haul relief commodities even though domestic 
trucking capacity is insufficient and domestic trucking prices are 
three to four times higher than a year ago. Relief efforts have also 
been hampered by GoS policies requiring international humanitarian 
agencies to partner with local organizations possessing limited 
capacities and questionable neutrality to do the work that needs to be 
done.
    These GoS-imposed delays and restrictions have conspired to limit 
the number of international relief agencies able to operate in Darfur 
and have curtailed the reach of those agencies that are present there. 
Although the USAID Disaster Assistance Response Team (DART) mobilized 
on April 11 in response to the Darfur crisis, it was prevented from 
establishing a regular presence on the ground in Darfur until late May 
because of GoS policies that delayed each step of the process. Local 
GoS officials have interfered with USAID's DART information collection 
by restricting the questions our team could ask displaced populations 
about why they fled and who attacked them, at times banning our staff 
from taking pictures of relief operations, confiscating a satellite 
telephone, and abruptly cutting short a visit to a displacement camp. 
Last week GoS officials in Darfur implicitly threatened the security of 
the USAID DART during a food distribution.
    As a result of GoS policies restricting relief activities, combined 
with other logistical and security constraints such as banditry, poor 
roads and rains, the bottom line is that humanitarian access remains a 
grave problem, and a humanitarian disaster is occurring as we speak. 
USAID Administrator Andrew Natsios described the Darfur situation in 
stark terms during a Donors Conference on June 3: ``The grave situation 
that has unfolded in Darfur in western Sudan in recent months is the 
worst humanitarian crisis in the world today. . . . Even in a best-case 
scenario, under optimal conditions, we could see as many as 320,000 
people die. Without optimal conditions, the numbers will be far 
greater.''
    USAID released a chart last month projecting potential mortality 
rates in Darfur. An updated version of the chart is attached. The 
projection indicates that, based on initial health surveys and our 
experience with previous famines in southern Sudan and Ethiopia, the 
death rate in Darfur might be in the process of increasing to four 
deaths per day per 10,000 people at risk by the end of this month--a 
rate considered to be four times higher than the emergency threshold. 
Absent adequate humanitarian response, the mortality rate could be 
expected to more than double yet again during July and climb 
relentlessly during the final half of the year to as high as 20 deaths 
per day per every 10,000 people. Under this scenario, as many as 30 
percent of the affected population could die by year's end. Adding to 
our alarm is the fact that a more recent nutrition survey conducted in 
part of Darfur suggests that the mortality rate projected in the 
attached USAID chart might be too conservative. A health survey at 
locations in West Darfur concluded in late May that nearly 5 percent of 
all children under age 5 had died within the past three months at the 
surveyed locations--a mortality rate more than double emergency 
thresholds.
    It is important to emphasize the awful truth that humanitarian 
conditions in Darfur are almost certain to get worse before they get 
better. The annual rainy season has arrived. Rains have begun to fall 
on hundreds of thousands of persons already physically depleted by 
months of displacement, fear, food shortages, and abysmal sanitation 
conditions in overcrowded displacement camps. USAID personnel on the 
ground continue to report large numbers of uprooted families living in 
the open air, without shelter or blankets for protection from the rain 
and temperature extremes. Camp sanitation problems from rotting animal 
carcasses and months of open defecation threaten to deteriorate further 
as the rains intensify. Internally displaced person (IDP) sites in 
Darfur require more than a ten-fold increase in latrines to meet 
minimum sanitation standards agreed to by relief specialists. 
Conditions are ripe for the spread of fatal illnesses such as measles, 
cholera, diarrhea, dysentery, meningitis, and malaria.
    Even if security prevails and bureaucratic impediments imposed by 
the GoS suddenly vanish, relief officials already know that 54 of 80 
IDP camps will become fully or partially inaccessible during the rainy 
season. We have seen clear evidence that at least one hastily 
established IDP site is located in a flood plain that is almost sure to 
be inundated in coming months. During the past two weeks, up to four 
inches of rain fell in parts of South Darfur, and up to three inches in 
sections of West Darfur. Meteorological data indicate that the rains 
are advancing northward deeper into Darfur a bit ahead of schedule so 
far this year. The illustrated charts attached to this testimony 
provide additional information about the number of days remaining 
before seasonal rains begin to cut off sites in Darfur and eastern 
Chad.
    The approximately 1 million persons estimated to be internally 
displaced in Darfur are scattered among about 80 known camps as well as 
in homes and villages not yet identified, according to UN humanitarian 
assessments. Some 420,000 displaced persons can be found in West 
Darfur, nearly 300,000 in North Darfur, and some 230,000 in South 
Darfur, the UN estimates. The natural mixing of displaced populations 
with local residents has created difficulties for relief workers trying 
to target the distribution of food and relief commodities to the most 
vulnerable people.
    UN surveys indicate that relief programs to date, lacking necessary 
access to many populations, are addressing only a small fraction of the 
immense need on the ground. Approximately 90 percent of displaced 
Darfurians in need of shelter and latrines have received neither, 
according to analysis by UN agencies. Two-thirds of the uprooted 
population have no access to potable water; more than half have no 
primary health care; about half of those in need are still cut off from 
emergency food deliveries. Overall, according to UN relief officials, 
assistance--perhaps merely a single food distribution in some cases--
has reached only about half of all displaced persons in Darfur because 
of security constraints and GoS obstructions. The aid that manages to 
reach them does not fulfill their needs because those same obstructions 
have left relief organizations understaffed and under-equipped. Some 
humanitarian officials have advised placing a priority on relief 
distributions in West Darfur, where rains will likely cause the 
earliest flooding and road closures, followed by South Darfur and North 
Darfur in priority order based on normal rain patterns.
    The GoS has taken no concrete steps to tap Sudan's million-ton 
domestic surplus of sorghum to feed hungry people in Darfur, unless 
donors purchase the surplus for that purpose. The World Food Program 
(WFP) projects that Darfur will require more than 21,000 metric tons of 
food aid per month this summer for 1.2 million beneficiaries, 
increasing to a monthly need of 35,000 metric tons for 2.2 million 
people by October. Due largely to USAID's Office of Food for Peace and 
its commitment of more than 86,000 tons of food assistance to Darfur, 
the WFP food pipeline is sufficient to meet needs through September, 
but only if we have humanitarian access and sufficient transport to 
deliver the food to those who need it. Deliveries currently are 
dependent on three cargo planes, a limited fleet of trucks, and a road 
network vulnerable to washouts. Humanitarian airlift capacity--
currently about 7,000 metric tons per month--will have to double in 
coming weeks to mount airlift and airdrop operations capable of 
reaching 65 scattered locations where at-risk populations will soon be 
cut off by the rains. Even a doubling of airlift capacity may be 
insufficient. Protecting the increased food deliveries from theft will 
also be a concern.
    USAID is supporting UN agencies examining the possibility of 
mounting a cross-border relief operation from neighboring countries to 
reach Darfur's people--an operation that would require the formal 
agreement of those governments. The cross-border options are 
problematic because of serious logistical, security, and local 
political constraints.
    USAID has deployed a 16-person DART team of relief specialists to 
the region to oversee the work of USAID-funded partners, help set 
priorities, identify specific projects and partners for additional 
funding, conduct assessments, and monitor the delivery and distribution 
of relief supplies. Twelve other USAID staff are on stand-by to join 
the DART in Darfur. The DART is acutely aware of the need to closely 
consider the safety of beneficiaries in all our humanitarian planning, 
programming, and information collection.
    The DART has completed 14 commodity relief flights that have 
delivered nearly 100,000 blankets, relief items to ease water 
shortages, and enough plastic sheeting to shelter more than 360,000 
people once we are finally able to overcome GoS and logistical 
constraints on its distribution. Additional DART relief flights are 
planned. USAID's Food for Peace Office has provided more than half of 
all international food commitments to this emergency, while USAID/
Office of U.S. Foreign Disaster Assistance has provided emergency 
assistance for health, nutrition, water, sanitation, shelter and other 
relief commodities.
    Of special note is an ambitious measles vaccination campaign 
currently underway throughout Darfur with USAID support that is 
targeting 2.2 million residents for vaccination by the end of June in 
hopes of curtailing the worst effects of an inevitable measles outbreak 
during the rainy season. The stakes are high.
    In eastern Chad, about 90,000 of the 160,000 refugees from Darfur 
are living in eight official camps established by the UN High 
Commissioner for Refugees (UNHCR) and the Chadian government. Two 
additional camp sites are under consideration. UNHCR continues to 
transport refugees from insecure border areas to the official camps. 
Several hundred new Sudanese refugees continue to flee into Chad each 
week, indicating that the refugee flow has not ceased as violence 
continues in Darfur.
    The U.S. Government's financial commitment to the Darfur crisis is 
considerable. USAID Administrator Andrew Natsios pledged an additional 
$188.5 million for Darfur at an international donors conference on June 
3. This raises the U.S. Government's total planned contribution to 
nearly $300 million for Darfur and eastern Chad since February 2003, of 
which about $116 million has already been committed to specific 
projects or partners as of early June. The U.S. Government total 
includes funds from the Department of State's Bureau for Population, 
Refugees, and Migration for Darfurian refugees in eastern Chad.
    Mr. Chairman, I should conclude my discussion of Darfur by 
emphasizing that providing emergency assistance in this crisis is much 
more than a matter of giving financial support to projects that address 
identified needs--as important as that is. Achieving security and 
access on the ground are absolutely essential prerequisites that are 
missing up to this point for mounting an effective relief campaign, no 
matter how well-funded the campaign might be. At USAID, we are vitally 
aware that if thousands of lives and an entire society and way of life 
are to be saved in Darfur, greater international pressure must be 
brought to bear upon the Government of Sudan to halt the killing and 
rapes, reverse the ethnic cleansing and forced displacement, and 
eliminate GoS policies that obstruct relief efforts. We should avoid 
the trap of negotiating with the GoS for token, incremental concessions 
on the humanitarian front that leave overarching GoS policies of 
devastation in Darfur unchanged and undisturbed.
                           ii. southern sudan
Overview
    On May 26, the GoS and the Sudan People's Liberation Movement/Army 
(SPLM/A) signed a framework for a comprehensive peace agreement. It was 
an historic moment greeted by jubilation and dancing in many southern 
Sudanese villages where violence, death, destruction, family 
separation, and extreme isolation have been the depressing norm for 
much of the past 20 years. The people of southern Sudan deserve this 
moment of hope. Each new agreement brings the cessation of hostilities 
closer to a permanent cease-fire and a normal, peaceful existence in 
the South. While there were many partners in this effort, the role of 
the U.S. Government and the personal activism of the President, his 
Special Envoy Senator Danforth, and other senior U.S. Government 
officials have been critical to achieving this progress.
    The framework peace agreement, however, is not the final stage and 
does not mean that permanent peace is assured. Much work needs to be 
done. The parties must now turn their full attention to reaching 
agreement on implementation modalities, signing a final comprehensive 
peace agreement, followed by faithful implementation of the entire 
peace process. The militaries must fully disengage. Local armed 
militias must disband or reconcile with their neighbors. Significant 
returns of refugees and displaced persons have already begun and will 
accelerate, requiring proper international support to minimize the 
inevitable problems and tensions associated with large population 
movements. Ambitious development programs are needed in an area that by 
virtually any measurement is one of the most destitute places on earth. 
And the need for effective governance and civil administration 
throughout southern Sudan--an area as vast as Texas but with terribly 
depleted human resources--is probably the supreme challenge if peace is 
to become permanent and a force for improved conditions among the 
people of the South.
    The international community and southern Sudanese themselves are 
looking to the U.S. Government to play a lead role in supporting and 
nurturing the economic, social, and political construction of the new 
South Sudan. Having provided more than $1.7 billion of humanitarian 
assistance during the past 21 years to help save Sudanese lives during 
a time of war, the challenge now is to sustain humanitarian assistance 
where needed while investing more heavily in southern Sudan's peace and 
long-term development. The goal should be nothing less than to bring 
the benefits of peace to every village and community in South Sudan.
Humanitarian Assistance and Development of Infrastructure in the South
    Mr. Chairman, for many years I have come before this Committee to 
recite the grim statistics about life and death in southern Sudan. 
There is now an opportunity for southern Sudanese to establish a new 
and more positive database of peacetime statistics: the numbers of 
people returning to their homes, the numbers of schools opening, the 
numbers of health clinics established, the quantity of wells dug, the 
tons of crops produced, and the miles of roads improved. Tens of 
thousands of refugees and internally displaced persons have returned in 
recent months to their home areas of southern Sudan, and returns are 
expected to accelerate with the signing of the peace framework on May 
26. USAID plans expanded programs to help the government of South Sudan 
transform people's lives with improvements in education, health and 
water systems, economic recovery programs including food and 
agricultural projects, infrastructure repairs, reintegration assistance 
for ex-combatants, and other sectors vital for reintegration and 
recovery.
    One of the primary development priorities must be road 
improvements. South Sudan has virtually no paved roads except for a few 
kilometers of pavement in GoS-controlled garrison towns such as Juba, 
and many dirt roads are impassable during the rainy season and 
extremely difficult to traverse the rest of the year. The primitive 
state of southern Sudan's road network illustrates the daunting task of 
nurturing basic development in an impoverished, isolated and far-flung 
area the size of Texas after 21 years of war and generations of 
governmental neglect.
    USAID has already committed $7.5 million to an emergency road 
program and dike program that is attempting to open up major 
transportation corridors. The priorities at this time are de-mining of 
main roads and making modest repairs to render key roads passable in 
the rainy season. Better roads will foster economic activity by linking 
the major southern towns such as Juba--sealed off by the GoS military 
during the war--with the surrounding rural areas and with the economies 
of neighboring Kenya and Uganda. Road improvements are an important 
step in strengthening economic and social links between North and South 
Sudan--links that could bolster political stability. Improvements to 
the road network and construction of dikes will also facilitate the 
return home and reintegration of Sudan's estimated 5 million uprooted 
people and make the delivery of humanitarian and development assistance 
easier and less expensive. USAID projects that the emergency road 
program can result in a 70 percent reduction in the cost of freight 
deliveries, and would enable more food aid to arrive by road at a cost 
savings of 60 percent compared to air deliveries. Since 90 percent of 
all food aid provided to South Sudan comes from the United States, this 
translates into a more cost-effective assistance program. However, it 
is important to emphasize that landmines remain a major impediment to 
opening up roads; de-mining must proceed concurrently with road repair 
activities.
    In addition to continued support for the emergency road and dike 
program, USAID is planning a three-year, $60 million infrastructure 
program for South Sudan that will, among other things, support longer-
term road improvements and maintenance as well as water and power 
generation. Further support is also needed for dredging and barge 
traffic on the mighty Nile River that bisects southern Sudan and 
connects South with North--an important artery for promoting trade and 
North-South links.
Commitment to Transitional Zones
    While support for reintegration, development, and stability is 
important throughout the South, there are three areas of the so-called 
transitional zone between North and South that are particularly 
strategic and where the U.S. Government is particularly committed in 
the aftermath of the recent peace negotiations. Discussions about the 
Nuba Mountains, Southern Blue Nile Province, and Abyei in South 
Kordofan Province were particularly delicate during the peace talks, 
and these three regions are now particularly crucial for post-war 
stability. USAID was deeply involved in negotiations over access to the 
Nuba Mountains in 2001 that provided an impetus for a Nuba cease-fire 
and larger peace negotiations. When the framework peace talks stalled 
last year over the future of Abyei, it was a U.S. Government proposal 
that helped break the deadlock and move the peace process forward.
    Health and agricultural programs are planned or already underway 
with USAID support in all three regions. Infrastructure programs will 
improve roads, drill new boreholes, and help establish schools and 
clinics. Necessary de-mining activities in Southern Blue Nile need U.S. 
Government, as does the nascent civil administration in the three 
transitional areas.
Government Administration and Reconciliation in the South
    For those seeking evidence that true peace can take root in 
southern Sudan after so much violence, a remarkable event occurred in 
the town of Akobo in Eastern Upper Nile a week after the peace 
framework was signed last month. Eastern Upper Nile has been one of the 
most volatile regions of southern Sudan in recent years, and Akobo has 
changed hands several times during the conflict. On June 2, pro-
government forces approached Akobo and yet another battle appeared 
imminent with the SPLM/A troops controlling the town. Akobo community 
leaders intervened by separating the opposing forces and engaged in 
discussions with both sides to resolve tensions and persuade the 
combatants to adhere to the new peace agreement. Local Akobo chiefs 
continue to lead discussions to reconcile members of the pro-government 
militia with the SPLM/A and the local community. Similarly, in the 
village of Mading near Nasir in Eastern Upper Nile, community leaders 
after the signing of the peace framework peacefully switched their 
allegiance from the GoS to SPLM, and SPLM authorities assumed control 
of the town from GoS soldiers and militia with no shooting. These are 
but two hopeful indications of the changing mood toward peace and the 
impact that the signed agreement can have in villages where the war has 
been waged.
    However, I do not want to give the impression that events on the 
ground in southern Sudan have been uniformly positive. Forces allied 
with the GoS attacked in the area of Malakal, in Upper Nile Province's 
Shilluk Kingdom, in March and April. Between 50,000 and 120,000 people 
have been newly displaced and many villages were destroyed. Some 25,000 
ethnic Shilluk have fled to Malakal town, and thousands more to the 
Nuba Mountains, Kosti in White Nile Province, and elsewhere. Displaced 
families have reported burning of villages, killings and rapes by 
militias, looting, and destruction of schools and clinics. Compounds of 
international relief organizations in the town of Nyilwak were burned 
as well, according to UN sources.
    USAID remains concerned about continuing reports of localized 
conflict and persistent obstacles to the delivery of humanitarian 
relief to Southern Blue Nile and to the Eastern Front area near the 
Eritrea border. We are also acutely aware that the Lord's Resistance 
Army, a Ugandan insurgent group infamous for its brutality and 
abductions of children, continues to operate from bases in southern 
Sudan and must be brought under control to achieve security and 
stability along southern Sudan's border with Uganda.
    Despite these obstacles, the signing of the peace protocols on May 
26 means that the work of building the capacity of the new Government 
of South Sudan (GOSS) must start now. This is the most formidable task 
facing southern Sudan and is the top priority for USAID now that a 
peace agreement is signed. The peace protocols specify that the SPLM 
shall form the government in the South for a period of six-and-a-half 
years, followed by a referendum on unity with or separation from the 
North. The SPLM leadership has acknowledged the need to transform 
itself from a rebel group into a functioning government.
    The SPLM has made progress transitioning into a civil authority, 
but it will continue to be a long and difficult process. The war might 
be over, but its repercussions are long-lasting. The legacy of more 
than 2 million dead from the war, 5 million displaced, and at least two 
generations without formal education has left a huge hole in southern 
Sudanese society. The pool of educated southern Sudanese prepared to 
assume the responsibilities of government and civil administration is 
numerically extremely limited. USAID is working to connect the new 
South Sudan with the Sudanese diaspora who have resettled abroad and 
have managed to obtain education and skills that are desperately needed 
to help rebuild the South.
    Many analysts have fretted over the years that after Sudan's civil 
war ends, internal divisions in the South will take center stage and 
spark new cycles of conflict. The GOSS will immediately be faced with 
the need to establish democratic governance at the highest levels to 
encourage broad-based popular support and a sense of common cause among 
the South's political and ethnic groups. Policies will have to be 
developed regarding public finance and human resources, including 
revenue, taxation, budgeting, accounting, anti-corruption, civil 
service development, political appointments and elected officials. 
Design of a southern parliament will be yet another priority. All of 
these challenges will require negotiation among southern Sudan's 
various political groups and competent public officials able to draft 
legal frameworks based on southern consensus. For USAID this means that 
our support for southern Sudan must be wrapped in persistence and 
patience, because an entire system is being constructed largely from 
scratch.
    Southern Sudan must create a constitution and move rapidly to 
ratify new laws. The current civil administration in the South has done 
significant work to fashion and implement 26 new laws, but these are 
still subject to ratification and do not cover all the issues requiring 
new legislation. There will also be many issues surrounding the 
implementation and codification of customary law.
    In the United States, we take for granted that our judges have 
extensive legal training and are sufficiently numerous to fill every 
seat at the bench. In contrast, there are only 22 southern Sudanese 
lawyers for a judiciary system that will need to fill more than 100 
judgeships along with the need for prosecutors and defense advocates. 
The demands on the justice system will likely be heavy as millions of 
southern Sudanese return to their homes and, in some cases, become 
embroiled in disputes over land and property. Weapons prevalent in the 
post-war environment may be, for some individuals, the main method for 
resolving those disputes. Because the GOSS judiciary will possess few 
human resources to cope with the large number of people seeking justice 
after decades of grievances and neglect, USAID will support development 
of a para-legal system and an interim dispute resolution system.
    Trafficking and abduction of women and children is a particularly 
egregious practice that has reflected the contours of the conflict in 
Sudan. Since 2002, abductions have significantly diminished with the 
cessation of hostilities. Former abductees are now returning home to 
join the families they had lost. Sudan, however, remains in the worst 
tier of the State Department Trafficking in Persons report. New 
allegations of trafficking and abductions are surfacing in Darfur, and 
much work remains to be done to reverse the effects of abductions and 
trafficking suffered in the South. USAID is deeply troubled by findings 
from staff interviews with numerous women and children, originally from 
the South, who have been returned from the North to the South. Many of 
these women and children stated that they in fact were not abducted 
from the South but were nonetheless taken by force to the South because 
they were southerners living in the North. USAID and our implementing 
partners will continue to expose and work to prevent these corrupt 
practices and fund programs that legitimately assist those who have 
been abducted to return to their homes and families.
    Southern Sudanese need and deserve honest government officials. 
Leading American anti-corruption expert Robert Klitgaard recently 
completed, with USAID support, a series of meetings and workshops on 
honest and transparent government for SPLM leadership and county 
executives. The workshops generated a great deal of interest in 
instituting systems to prevent and reduce corruption. SPLM leaders have 
regularly stressed a theme of anti-corruption in their public 
presentations of late.
    Part of a strong, democratic system is a vibrant civil society of 
professional associations, unions, human rights groups, faith-based 
organizations, community-based groups, and independent media. USAID 
will work to help grass-roots groups grow into strong organizations 
with the capacity to serve their members' interests, thereby laying a 
foundation for civil society to be an active voice in governance. USAID 
will support public opinion research and nonpartisan civic education on 
peace and governance. A Sudan Radio Service and the Sudan Mirror 
newspaper with an ever-widening circulation in the South already 
receive strong support from USAID. We have long backed projects 
encouraging South-South dialogue and reconciliation and are providing 
support fora conference later this month bringing together 350 
traditional chiefs from throughout the South to meet with SPLM 
leadership to review the framework peace agreement and advance the 
notion of reconciliation among southerners.
    The U.S. Government is the primary donor for these types of 
democracy and governance and transitional programs in the South. Many 
international donors may focus on northern areas where U.S. development 
assistance currently is difficult to implement because of our 
legislative restrictions. The U.S. Government is one of the few donors 
that has taken proactive steps to fund development assistance in 
southern Sudan during the past ten years. We have already begun to 
create a network of trust, experience and lessons learned that other 
donors do not yet have in the South.
    With humanitarian needs still quite large and with many militia 
groups still under arms and weighing the advantages of violence versus 
peace, it will be important that southern Sudanese see and experience a 
visible peace dividend, particularly in areas of particularly acute 
ethnic or political divisions.
    In conclusion, Mr. Chairman, it seems almost incomprehensible that 
so many people in Sudan have suffered--and continue to suffer--so much. 
I believe that marginalized populations throughout Sudan, including the 
people of Darfur, have a vested interest in the successful 
implementation of the agreement to end the long civil war between the 
GoS and the SPLM. The provisions of that framework agreement, if 
faithfully implemented by the parties and seriously supported by the 
international community, could be an important step toward engendering 
the fundamental democratic transformation that is the best hope for the 
permanent improvements needed and deserved by the long-suffering 
Sudanese people.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

               U.S. AGENCY FOR INTERNATIONAL DEVELOPMENT

   bureau for democracy, conflict, and humanitarian assistance (dcha)
           office of u.s. foreign disaster assistance (ofda)

                     DARFUR--Humanitarian Emergency

          Fact Sheet #9, Fiscal Year (FY) 2004--June 10, 2004

    Note: This report updates the last fact sheet dated June 4, 2004

                               background
  <bullet> The humanitarian emergency in Darfur is a direct result of 
        violence and harassment directed toward the Fur, Zaghawa, and 
        Masaalit civilian groups by Government of Sudan (GOS) forces 
        and GOS-supported militia groups collectively known as 
        Jingaweil. In early 2003, the Sudanese Liberation Movement/Army 
        (SLM/A) stated that they would engage in armed struggle to 
        achieve full respect for human rights and an end to political 
        and economic marginalization in Darfur. On April 24 and 25, 
        2003 the SLM/A attacked GOS military forces at Al Fashir in 
        North Darfur.

  <bullet> Following this attack, GOS military forces and Jingaweit 
        militia initiated a more coordinated campaign of violence 
        against civilian populations, including aerial bombardments to 
        kill, maim, and terrorize civilians who the GOS claimed were 
        harboring opposition forces. Conflict-affected populations have 
        described recurrent and systematic assaults against towns and 
        villages, looting, burning of buildings and crops, destruction 
        of water sources and irrigation systems, gang rape, and 
        murders. Throughout late 2003, armed conflict intensified, as 
        GOS military and Jingaweit clashed with the two main opposition 
        groups--the SLM/A and the Justice and Equality Movement (JEM)--
        in Darfur.

  <bullet> Following U.S. Government (USG) and European Union (EU) 
        facilitated negotiations in N'Djamena, Chad, the two main 
        opposition groups and the GOS signed a renewable 45-day 
        humanitarian ceasefire on April 8 that took effect on April 11. 
        This agreement included a GOS commitment to disarm Jingaweit 
        militia groups and a protocol on providing humanitarian 
        assistance in Darfur. The ceasefire agreement was renewed on 
        May 22.

  <bullet> Despite the ceasefire, Jingaweit violence against civilians 
        continues in all three states of Darfur resulting in increasing 
        displacement. Because the victims are displaced and vulnerable, 
        they become targets of further violence. Even in villages where 
        there is nothing left to burn, the fear of further violence 
        continues to paralyze displaced populations, preventing 
        voluntary returns. This cycle prevents many internally 
        displaced persons (IDPs) from safely returning home, trapping 
        them in camps or informal settlements for the foreseeable 
        future. Out of an estimated population of 6.5 million in 
        Darfur, approximately 2.2 million people are affected by the 
        crisis, including more than 1 million IDPs and approximately 
        158,000 refugees who have fled into neighboring Chad.

  <bullet> Humanitarian access to conflict-affected populations outside 
        of the state capitals of Geneina, Al Fashir, and Nyala was 
        extremely limited until late May due to GOS impediments that 
        blocked humanitarian access and relief operations in Darfur. As 
        a result of intense international pressure, the GOS lifted some 
        of the restrictive travel permit regulations and announced a 
        series of measures, effective May 24, to facilitate 
        humanitarian access to Darfur. USAID's Disaster Assistance 
        Response Team (USAID/DART) and other humanitarian agencies have 
        deployed additional staff to Darfur to increase emergency 
        response capacity. However, several obstacles remain, including 
        continued delays in obtaining visas for relief personnel, 
        travel restrictions within Darfur, difficulties in clearing 
        essential relief supplies and equipment though customs, and GOS 
        interference in relief activities that address protection of 
        civilians and human rights abuses.
                           current situation
Continued Insecurity and Disruption of Relief Activities
  <bullet> On June 7 and 8, according to international media sources, 
        an official from the JEM reported that Jingaweit and GOS 
        forces, including military aircraft, attacked JEM forces in the 
        area around Kiro, approximately 30 km north of Geneina in West 
        Darfur.

  <bullet> According to the U.N. Office of Humanitarian Affairs (UN 
        OCHA), an assessment team that visited Mallam, South Darfur 
        observed a large number of Jingaweit in the area. Villages 
        surrounding Mallam reportedly suffer an average of two attacks 
        per week, and 19 people were killed last month as a result of 
        these raids. Several agencies report a general decrease of IDPs 
        in areas such as Kubum, Um Labbasa, and Badegusa, and an 
        increase of IDP numbers in Kass town and Kalma Camp. Attacks on 
        villages southeast of Kass this week led to the displacement of 
        over 1,500 families.

  <bullet> According to the USAID/DART, SLM/A elements are conducting 
        mobile checkpoints near Shurom/Tordaan, approximately 50-60 km 
        southeast of Nyala, and on the road that connects Nyala, 
        Yassin, and Ed Da'ein route. A commercial vehicle transporting 
        U.N. World Food Program (WFP) goods was briefly detained by 
        SLM/A troops in Yassin, 60 km northwest of Ed Da'ein.

  <bullet> The USAID/DART stated that Jingaweit militias reportedly 
        stopped trucks carrying relief supplies for distribution in Fur 
        Buranga and Habilah, West Darfur. The trucks were allowed to 
        pass after a two-hour delay. Due to fighting near the Chad 
        border, the town of Kulbus is inaccessible and relief agencies 
        are concerned about travel north of Geneina. Reports of 
        banditry on the main road to Kass and insecurity on the road 
        north to Mershing are being investigated.
Humanitarian Access
  <bullet> USAID/DART team members in West and South Darfur reported 
        the onset of heavy rains this week, accompanied by thunder and 
        in some cases by lightning and strong winds. In Geneina, rain 
        fell heavily June 8 for two hours. In Nyala, inclement weather 
        on June 9 disrupted the power supply to the town. During the 
        rainy season, many roads become impassable, thereby severely 
        restricting humanitarian access to vulnerable populations 
        throughout Darfur.

  <bullet> The response capacity of relief agencies in Darfur continues 
        to be limited due to the delay in clearing supplies into Sudan 
        through GOS customs. On June 7, Medecins sans Frontieres-
        Holland (MSF-H) reported that food and vehicles critical to the 
        organization's emergency response remain in customs in Port 
        Sudan. In Darfur, MSF-H has enrolled more than 800 children in 
        therapeutic feeding programs and more than 1,600 children in 
        supplementary feeding programs. These programs provide life-
        saving treatment for children in moderate and advanced stages 
        of malnutrition, and without this treatment many of the 
        patients will die of starvation. With critical food stocks 
        delayed in customs, MSF-H predicted that their feeding programs 
        would run out of food during the week of June 14.

  <bullet> On June 3, members of the SLM/A detained 16 humanitarian 
        workers near Mellit, 55 km north of Al Fashir in North Darfur. 
        The detained workers, a multi-agency assessment team comprised 
        of representatives from the various U.N. agencies, several 
        international NGOs, and the European Commission, were released 
        unharmed on June 6 and returned to Al Fashir. According to the 
        USAID/DART, the U.N. is reviewing security procedures following 
        this incident.
Lack of Human Rights Monitors in Darfur
  <bullet> At present, the Office of the U.N. High Commissioner for 
        Human Rights (OHCHR) has no mandate for human rights 
        investigations in Sudan. Apart from the OHCHR delegation's trip 
        to the region from April 21 to May 2, there are no mandated 
        human rights officers in place. At the donors conference in 
        Geneva on June 3, the U.N. request for approximately eight 
        monitors for Darfur received enormous donor endorsement. 
        However, it is unclear if the GOS would accept human rights 
        monitors in Darfur.
Food Assistance
  <bullet> During the first week of June, the USAID/DART Food Officer 
        monitored food activities in West Darfur, where WFP plans to 
        target up to 300,000 beneficiaries in June. Before the heavy 
        rains in mid-July, WFP expects to have already completed July 
        distributions. However, WFP's main implementing partner, Save 
        the Children-US (SC-US), reports a need to pre-position and/or 
        distribute food for August as well. Approximately 70,000 
        beneficiaries in areas southwest of Geneina could be completely 
        inaccessible by road from mid-July to mid-September, and the 
        Nyala-Geneina road could be impassable for days at a time 
        during that period.

  <bullet> According to the USAID/DART, WFP does not appear to have 
        sufficient capacity at present to pre-position three months'-
        worth of rations in West Darfur. Monthly food requirements in 
        West Darfur are approximately 4,500 metric tons (MT). To date, 
        WFP has only 500 MT of food stockpiled in Geneina, and while 
        WFP continues to urge truckers to move quickly, security 
        incidents on the key roads between Ed Da'ien and Nyala will 
        likely affect truckers' willingness to travel unescorted, or 
        without security guarantees from the U.N.

  <bullet> Transporting sufficient quantities of food to Nyala, and 
        then on to West Darfur, has been a significant challenge for 
        WFP. Food monitors for SC-US waited in Foro Burunga, West 
        Darfur for two weeks for WFP to deliver the May rations, which 
        were to be distributed on June 4 and 5, but the quantities were 
        not sufficient and some commodities were missing. WFP told the 
        USAID/DART that about 36 trucks carrying approximately 880 MT 
        were in transit and would arrive in Geneina around June 10.

  <bullet> According to the USAID/DART, 50 long-bed trucks arrived from 
        Chad to Geneina this week. This will bring WFP's dedicated 
        trucking fleet from 90 to 140 trucks. The monthly distribution 
        capacity of this dedicated fleet is 8,000 MT, enough food for 
        approximately 500,000 beneficiaries.
Health
  <bullet> According to the USAID/DART, major constraints in the health 
        and nutrition response in Darfur include the shortage of 
        international staff available for deployment; the continued 
        demand for cost recovery at health centers and hospitals 
        despite a GOS directive that IDPs should receive treatment free 
        of charge; poor health infrastructure and access; the limited 
        number of NGOs able to implement health and nutrition programs; 
        and the Ministry of Health (MOH)'s lack of capacity to 
        undertake large-scale therapeutic feeding interventions.

  <bullet> According to a World Health Organization (WHO) assessment of 
        state hospitals in Darfur, 9 of the 11 facilities surveyed are 
        in need of trained health staff including general physicians, 
        surgeons, pediatricians, medical officers, hospital 
        administrators, laboratory technicians, assistant 
        anesthesiologists, and nursing staff as well as operating 
        theater and training nurses. Most facilities also lack 
        essential equipment and basic medicines.

  <bullet> From June 5 to 7, the USAID/DART Health Officer traveled 
        with USAID implementing partner SC-US to Habilah and Foro 
        Burunga, south of Geneina near the border with Chad, to assess 
        the health and nutritional situation of conflict-affected 
        populations. According to the USAID/DART Health Officer, the 
        major health problems afflicting the internally displaced and 
        the host communities are measles, diarrhea, acute respiratory 
        infections, and malnutrition. SC-US staff has been waiting for 
        two weeks in Foro Burunga for the agreed upon quantities of 
        food to arrive from WFP. In order to avert a nutritional crisis 
        and the need for costly center-based therapeutic care, general 
        food distributions with an adequate food basket (cereals, 
        pulses, cooking oil, salt, and corn soya blend) must be 
        distributed on time. Additionally, supplementary feeding 
        commodities must be available. WFP currently lacks pulses and 
        CSB for Darfur, and has cut CSB from general distributions in 
        order to preserve the pipeline for supplementary feeding 
        centers.

  <bullet> On June 5, the delayed measles vaccination campaign began in 
        South Darfur. The campaign is led by the Sudanese Ministry of 
        Health (MOH) with support from UNICEF and the WHO. The 10-day 
        campaign is scheduled to begin in North and West Darfur on June 
        12. The target of the campaign is 2.26 million children under 
        the age of 15 throughout the three states of Darfur; however, 
        the MOH stated that populations in opposition-controlled areas 
        will not be vaccinated.
Refugees in Eastern Chad
  <bullet> The U.N. High Commissioner for Refugees (UNHCR) reported 
        that hundreds of new refugees are arriving around the Chadian 
        border town of Adre, reportedly fleeing new fighting outside 
        Geneina in West Darfur. In response to the influx, UNHCR has 
        increased trucking capacity to relocate the refugees to camps 
        away from the insecure border areas. On June 4, UNHCR opened an 
        eighth camp in eastern Chad, Djabal, to host the refugees.

  <bullet> To accommodate the continued influx of both spontaneous and 
        facilitated refugee relocations from the border areas, UNHCR is 
        looking for an additional camp site southeast of Abeche near 
        the camp of Breidjing, where newly arrived refugees have 
        stretched UNHCR's capacity to provide for 7,809 registered 
        refugees and 5,000 spontaneous arrivals.

  <bullet> According to UNHCR, as of June 8, approximately 90,000 out 
        of 158,000 Sudanese refugees had been relocated from insecure 
        border areas to the eight official refugee camps in eastern 
        Chad. At present, UNHCR is focusing on relocating refugees 
        living in southern border areas, where the rains have already 
        begun, before the roads become impassable.
                       u.s. government assistance
  <bullet> Over the past year, USAID has deployed field staff to Sudan 
        specifically to assess the extent of the Darfur crisis. On 
        April 11, to respond to the increasing scale of humanitarian 
        needs, USAID mobilized a USAID/DART. Several USAID/DART members 
        have deployed to Darfur, and USAID continues a phased 
        deployment of humanitarian personnel as official access and 
        improved security allow for an increased presence in the 
        region. As of June 10, eight USAID/DART members have deployed 
        to newly established field offices in Al Fashir, Geneina. and 
        Nyala. USAID/DART field officers are attending humanitarian 
        meetings, monitoring the delivery and distribution of relief 
        commodities, and participating in assessments with implementing 
        partners throughout accessible areas of Darfur.

  <bullet> The DART, led by personnel from USAID's Office of U.S. 
        Foreign Disaster Assistance (OFDA), is complemented by a 
        Response Management Team (RMT) in Washington that is supporting 
        field operations and providing a point of contact for 
        coordination and information regarding the USG's humanitarian 
        response in Darfur.

  <bullet> USAID recently provided $850,000 to UNICEF for a malaria 
        campaign in the three states of Darfur.

  <bullet> To date, USAID has delivered a total of 5,160 rolls of 
        plastic sheeting, 77,500 blankets, and 600 jerry cans via 12 
        airlifts to Nyala. Based on data collected during Medecins sans 
        Frontieres' (MSF) recent nutritional survey, the average family 
        size among the conflict affected population in Darfur is seven 
        persons. In compliance with Sphere standards \1\ for 
        humanitarian assistance, each roll of plastic sheeting can 
        provide adequate shelter for nine families, and USAID's 
        contribution of 5,160 rolls of plastic sheeting will provide 
        shelter for more than 325,000 beneficiaries. The total value of 
        the commodities, including transportation costs, was more than 
        $2.3 million.
---------------------------------------------------------------------------
    \1\ The Sphere Project was launched in 1997 by ICRC, the U.N., 
NGOs, and donors to develop a set of universal minimum standards for 
humanitarian assistance and thereby improve the quality of assistance 
provided to disaster-affected persons and to enhance the accountability 
of humanitarian agencies.

  <bullet> Since February 2003, USAID has provided nearly $16.5 million 
        to U.N. agencies and NGOs, including CARE, the International 
        Rescue Committee (IRC), Medair, and Save the Children-U.K. (SC-
        UK) and SC-US for emergency health, water and sanitation, 
        agriculture, food security, shelter, logistics, and 
        coordination activities. Proposals from additional relief 
---------------------------------------------------------------------------
        organizations are under review.

  <bullet> On June 3, USAID approved a 13,000 MT contribution, 
        including 5,000 MT of pulses, 5,000 MT of corn soya blend, and 
        3,000 MT of vegetable oil, to WFP's Darfur Emergency Operation 
        (EMOP), valued at approximately $15.8 million. With this 
        contribution, USAID will have provided 48 percent of the EMOP 
        requirements.

  <bullet> Since October 2003, USAID has provided nearly $82.9 million 
        to WFP for Darfur for 86,700 MT of food commodities, including 
        cereals, cooking oil, pulses, and blended foods. USAID has also 
        contributed $4.8 million to WFP for Sudanese refugees in 
        eastern Chad, including 7,040 MT of mixed commodities already 
        in the region.

  <bullet> USAID's Office of Transition Initiatives (OTI) has provided 
        more than $96,000 to IRC for IDP assistance activities in 
        Darfur. Such initiatives may include support for peace and 
        reconciliation interventions and strengthening of Sudanese 
        civil society organizations. In addition, OTI has deployed an 
        IDP advisor as a member of the USAID/DART.

  <bullet> On May 21, the U.S. Department of State's Bureau of 
        Population, Refugees, and Migration (State/PRM) approved an 
        additional contribution of $1.2 million to UNHCR in response to 
        its emergency appeal for Sudanese refugees in eastern Chad. 
        This brings State/PRM's total contribution to date to the Chad 
        appeal to $6,912,972, including $712,972 provided during FY 
        2003.

  <bullet> In FY 2003 and FY 2004, State/PRM has provided more than 
        $12.2 million to UNHCR, WFP, the International Federation of 
        the Red Cross/Red Crescent Society (IFRC), AirServ 
        International, International Medical Corps (IMC), and IRC for 
        emergency refugee assistance activities in eastern Chad.
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
                      public donation information
  <bullet> The most effective way people can assist relief efforts is 
        by making cash contributions to humanitarian organizations that 
        are conducting relief operations. A list of humanitarian 
        organizations that are accepting cash donations for their 
        humanitarian emergency response efforts in Darfur, Sudan can be 
        found at www.interaction.org.

  <bullet> USAID encourages cash donations because they: allow aid 
        professionals to procure the exact items needed (often in the 
        affected region); reduce the burden on scarce resources (such 
        as transportation routes, staff time, warehouse space, etc); 
        can be transferred very quickly and without transportation 
        costs; support the economy of the disaster-stricken region; 
        ensure culturally, dietary, and environmentally appropriate 
        assistance.

  <bullet> More information on making donations and volunteering can be 
        found at:

          The Center for International Disaster Information: 
        www.cidi.org

          InterAction: www.interaction.org -> ``How You Can Help''

  <bullet> Information on relief activities of the humanitarian 
        community can be found at www.reliefweb.org
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
        <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
        
    Senator Alexander. Thank you, Mr. Winter and Mr. Snyder.
    Senator Feingold, we have four votes that begin at 4. What 
I could do is take 7 or 8 minutes and ask questions and then go 
vote and come right back, if you would like, and then maybe, 
depending on your schedule--will you be able to come back 
during any of those votes?
    Senator Feingold. I will go over and vote and start the 
next vote, do that one as well.
    Senator Alexander. We can swap. OK, we will do the best we 
can.
    You all will have to excuse us. We do not have an executive 
job. We have a legislative job.
    But this is very important testimony. That is a terrible 
story you have told us, and you have told us with precision and 
with candor and with specifics. When we get to the second 
panel, we are going to hear more about that. So I would like to 
focus in the next 7 or 8 minutes, and then we will go to 
Senator Feingold, first on what we can do.
    Now, how much aid are we currently giving, the United 
States, to the Khartoum government, financial aid, how many 
dollars?
    Mr. Winter. You are not talking humanitarian?
    Senator Alexander. No, I am talking about in general, all 
aid.
    Mr. Snyder. To the government, nothing. The government is 
restricted under the terrorism rules and other things.
    Senator Alexander. So nothing to the Khartoum government?
    Mr. Snyder. No. The humanitarian assistance is what goes on 
there.
    Senator Alexander. These three protocols that were signed 
on May 26, I assume that the expectation is as those protocols 
are implemented more aid--what is the expectation of aid to the 
Khartoum government or, in a separate category, how will other 
aid, how is other aid expected to come into the Sudan?
    Mr. Snyder. I think once the--assuming they finish this 
process which I outlined maybe as early as mid-August if things 
are right, there will be a two-step process. There will be 
something called the pre-interim period, in which what is 
essentially a new union government including John Garang and 
several key members of his will take seats in the parliament, 
the executive branch, et cetera, so the beginnings of the 
transformation of the government of Khartoum.
    Six months later, there will be a full installation of what 
will be the new government. There will be a 6-month interim 
period. During this interim period I think we will begin to 
look at what it is that makes sense to do, provided that they 
continue along this path and honor the agreement. There will be 
benchmarks set.
    Once they get to the new union government, hopefully by 
then, because they have met the terrorism standards and other 
things and they have stopped this Darfur business--this is the 
happy picture I am painting for you--we would then resume 
normal relations with Khartoum and take a look at specific 
categories of aid.
    Senator Alexander. So in any event there is no prospect of 
normalizing relations in the next few weeks or few months. 
There are a number of steps to be taken. So that is not an 
immediate threat. Mr. Winter was talking about 2.2 million 
people in October, according to the United Nations figures 
possibly, which is a doubling of the number of displaced people 
that we hear about today.
    Let us move to the humanitarian aid for a minute. What is 
the amount of humanitarian aid that is authorized by the United 
States in the Sudan now?
    Mr. Winter. It depends if you want numbers that relate to 
Darfur or in general. Under a normal year, because this has 
been a long war in the south, we are normally providing in the 
area for the last few years of $200 million a year. Those are 
resources that are primarily going to the people war-affected 
in the south and people who were displaced into the cities of 
the north.
    Senator Alexander. What about in Darfur?
    Mr. Winter. Darfur is of course a much more recent 
situation. We have actually committed since the beginning of 
the Darfur thing $116 million and with pledges that would rise 
up to about $300 million. But as I think Senator Biden 
mentioned, he was distinguishing between what is already 
appropriated and what is not, of that $300 million figure about 
$145 million is from current appropriations since the end of 
last fiscal year and into this fiscal year.
    Senator Alexander. What role does the Khartoum government 
have in the distribution of this humanitarian aid?
    Mr. Winter. Well, they can turn us on or turn us off in 
terms of access. But generally we do not do anything through 
the government of Khartoum.
    Senator Alexander. You do not give them the money----
    Mr. Winter. No.
    Senator Alexander [continuing]. To then give to----
    Mr. Winter. We have two sets of partners primarily. One are 
the U.N. and other international agencies and the others are 
NGOs, nongovernmental organizations.
    Senator Alexander. So the issue with the Khartoum 
government in terms of the aid that we are attempting to offer 
today are the obstacles that you described, whether they will 
get out of the way and let you do the job that you would like 
to do with food and medicine and other help.
    Mr. Winter. Correct.
    Senator Alexander. Let me ask this. We are obviously 
talking about a crisis here. Many of us remember Rwanda. 
Senator Feingold has mentioned that. Senator Biden has 
mentioned that. I remember that. In reflection, many of us 
regret that the United States could not have done more then. 
And this is rising--this reminds us of the dimensions of that 
genocide.
    Now, what can the United States do more of immediately that 
would be most likely to change the attitude of the Khartoum 
government? What further steps could we take?
    Mr. Snyder. I think on the political side, as I have 
already outlined, we have made it clear to them that 
normalization does not come with Darfur in flames, and in fact 
we are in the process--and I had this conversation actually 
with the Sudanese Vice President. I find myself in the 
ludicrous position on the one hand talking about lifting 
sanctions and on the other having to talk about trying to 
increase sanctions on you and the Janjaweed in particular if 
you do not take action immediately.
    I made the point that I am not talking a month; I am 
talking in weeks. This is too serious, and so far we are seeing 
too many bureaucratic obstacles. So on the political side we 
are actually threatening sanctions.
    Now, we are under no illusion, given that they are 
sanctioned under the terrorism act and under the IEPA and under 
a set of ten different series of sanctions, that these 
sanctions will have anything more than political and 
psychological impact. But it is one of the things we are 
prepared to do to get their attention.
    I am hoping we are not going to go there and, based on 
conversations I had with the Foreign Minister, I think he gets 
it. The question is can they reverse the bureaucracy, and what 
is in charge? Is the peace faction in charge or not? We do not 
have the answer to that question, and that goes to the heart of 
the issue. I cannot make peace in all of Sudan unless the peace 
faction is in control in Khartoum. And if they are, they should 
be able to deliver the goods in Darfur as part of that peace 
process.
    So we have already got a horrifying test, but nonetheless a 
very valid test, of whether this peace process goes anywhere, 
and they have chosen this test to be in Darfur.
    Senator Alexander. And by ``deliver the goods,'' I gather 
we mean, A, stop the killing, and B, get out of the way in 
terms of food and humanitarian help?
    Mr. Winter. We are developing a set of very specific 
benchmarks so that bureaucratic enthusiasm for the peace 
process will not overcome reality on the ground. We have not 
come to closure yet on what those benchmarks are, but they will 
be things like the actual protection of these IDP camps by the 
government against the Janjaweed, active actions against the 
Janjaweed if this process continues, cessation of any reports, 
provided we can get the cease-fire in place, of Antonov bombers 
going anywhere, cessation of use of helicopter gunships--those 
kinds of things.
    We are developing a set of benchmarks and these benchmarks 
are going to be timed over the next month. We are not done with 
it yet, but we will share that with you when we are done with 
it. But that is the level of detail we are going at this with.
    Senator Alexander. My last question would be, to the two of 
you: Is there anything else specific that the administration 
would like for the Congress to do to strengthen your hand in 
dealing with the immediate future in Darfur?
    Mr. Snyder. I think actually this hearing is quite helpful. 
It gives us a chance to say again publicly to the government 
what we have said privately in a forum in which we are laying 
down very specific benchmarks, that this has got to stop and we 
mean it. This policy is not reversible. This is not a private 
conversation. So I think the hearing itself is one of those 
things.
    The fact that you have monitored this carefully with the 
Sudan Peace Act has got their attention. The fact that we have 
received letters that name government officials, saying to us, 
are these people guilty of war crimes--all of those kinds of 
things have gotten their attention. I think that my colleague 
may have some views on the kinds of aid we are going to need. 
We are going to need more aid if we succeed. If we do not 
succeed, the questions are going to be very different and we 
will be talking to you and others about that. But our time line 
on this has not run out yet.
    Senator Alexander. Mr. Winter, do you want to answer that 
question?
    Mr. Winter. The rest of the world is not as engaged as we 
are. The Europeans have been unusually slow. They have been 
unusually parsimonious with their contributions so far. We 
really need to have the collaboration of the other major donor 
governments. That is one thing we need.
    In my view, it is also the case that we need the Secretary 
General of the U.N. personally to provide a level of leadership 
that is unmistakable. You mentioned Rwanda. He has a history in 
Rwanda. The Secretary General can help change this from 
appearing to be a problem between the United States and Sudan, 
since we are doing so much of the humanitarian thing, into the 
rest of the world also being concerned, and that would change 
the dynamics. I think the Government of Sudan would have to 
take the Arab world and the African world into account 
seriously, and the one who can bring that on line I personally 
think is the Secretary General.
    Senator Alexander. Thank you, Mr. Winter.
    Senator Feingold, I am going to go vote. I will be back 
quickly. There may be a brief recess after your questions, but 
I will go ahead and resume the hearing when I get back if that 
is all right with you.
    Senator Feingold [presiding]. Thank you, Mr. Chairman.
    Mr. Snyder, are you satisfied with the intelligence 
resources being devoted to monitoring the situation in Darfur 
relative to the intelligence resources devoted to Sudan over 
the past 5 years? Are we currently at a high mark in terms of 
intelligence resources and attention or, because of needs 
elsewhere, are we devoting somewhat less to this effort?
    Mr. Snyder. Senator, as you may know from my curriculum 
vitae, I have been in that business and I think what we are 
getting is what we need on Sudan. I am satisfied that I get the 
kind of coverage I want when I ask the specific questions and 
tell them what I need. I am satisfied that they are doing what 
they can, and they are doing enough to meet our needs.
    For instance, thanks to commercial satellites, some of the 
photos we used in Geneva to show the Europeans what we were 
talking about are commercially available. But if I ask for 
additional details and additional coverage, I get that when I 
ask for it. So I am satisfied with what is going on there. And 
as you know, there is a major counterterrorism effort there, so 
we do have adequate people on the ground in my view.
    Senator Feingold. What relationship, if any, exists, Mr. 
Snyder, between the SPLA and the forces in Darfur?
    Mr. Snyder. We know in the past, several decades back, SPLM 
elements actually trained some of these SLA and other rebels. 
We have recent indications of some supply and support 
activities as part of that continuing process, but the supply 
activity is much more recent. And we have mentioned to Dr. 
Garang that he is now a party of peace, not a party of war, and 
he needs to use these to gain influence over the rebels so that 
we stop this process and they honor the cease-fire.
    Senator Feingold. Could you describe the effect that the 
crisis in Darfur is having on Chad and also on the Central 
African Republic?
    Mr. Snyder. Clearly the bulk of the IDPs that are moving, 
as my colleague stated earlier, are moving into Chad. There 
have been incidents before, and a device we never had to use. 
Actually, there have been bombings inside Chad. We could have 
actually brought this to the Security Council as a threat to 
international peace and security because of the cross-border 
bombing activity.
    That has been brought into check as a result of a series of 
meetings the Chadian Government hosted at Abeche and elsewhere 
to try and encourage this process. There is still the 
occasional violation of the border. The Chadian Government has 
been satisfied by the responses of Khartoum on that military 
kind of activity. We have pressed them not to be shy on this 
issue.
    Nonetheless, the major influence on Chad is the presence of 
these large numbers of IDPs. It is somewhat mitigated by the 
fact that in this particular area these ethnic groups are 
contiguous across both sides of the border, the Zaghawa in 
particular, so there is some taking in of families which 
mitigates this, but does not go anywhere near close to how far 
it has to be gotten.
    The good news on the Chad side is we are getting in fairly 
decent amounts of resources. The Chadians are posing no 
obstacle to us on that side of it.
    The impact in the Central African Republic [CAR] has been 
less, less noticeable, but nonetheless of some significance, 
given the sad state of that country, frankly. They cannot 
afford to take any IDPs. But again, it is not a case of access; 
it is a case of, frankly, lack of facilities and roads and 
things to move things in, not the government obstructing us.
    Senator Feingold. Mr. Snyder, Mr. Winter made some 
interesting comments a minute ago about other countries, donor 
countries, Security Council, and others helping out with this. 
Why do you think it is that the United States is not receiving 
greater support from other donor countries and Security Council 
members in our efforts to address the Darfur crisis? Does it 
have to do with more analysis of the severity of the situation 
or does it have to do with qualms about our approach? Your 
thoughts on that?
    Mr. Snyder. I think there are two factors at work here. The 
truth is, because we have been so intimately involved in this 
process, we know more on the ground. But because we have also 
been engaged as the leading enemy of the Government of Sudan 
with the terrorism act and other things, there is a certain 
hesitation when we step out first with the facts to 
automatically accept them. There is always that sophisticated 
crowd that says there may be two motives here, let us wait a 
minute.
    I think we saw that change in Geneva. We did not see it 
change with enough money from my point of view, and Roger can 
probably talk more effectively to that than I can. But the 
rhetoric now on the European side is with us and that is a 
change and that has happened recently. Again, I just think it 
is we are closer to the problem, we know more. We went out of 
our way to get to these rebels right away and kind of shape 
them a bit so that there could be some serious discussion and a 
cease-fire could be set up.
    There was some fear, I am sure, on some of our European 
colleagues that we were supporting yet another guerrilla 
movement as opposed to driving toward a realistic peace. I 
think we have corrected that problem.
    Senator Feingold. What support is the United States 
providing to the African Union cease-fire monitors? How many 
monitors are in place and how many are expected eventually to 
be on the ground? If you could, please describe a little more 
about their capacity to collect and share information and to be 
able to move quickly to investigate reports of violations.
    Mr. Snyder. The African Union has, to use the euphemism, 
stepped up to the plate in this case. We were glad to see them 
being much more responsive than the old Organization of African 
Unity was. They have a serious plan. They are proposing to put 
120 monitors on the ground and a protection force of 270 men.
    They have made it known to the Europeans and us what they 
need to do that in terms of money and assistance. The European 
Union has put I believe it is $14.1 million into the till in 
Addis. We have supplied an emergency in-kind kind of 
assistance, taking from our CPMT which is operating in the Nuba 
Mountains a couple of planes, three or four of our logistics 
contractors, our political officer from Khartoum, who has 
become the best friend of the AU in the field in Al Fashir and 
elsewhere, to facilitate this process.
    They have now begun to deploy. The advance elements are 
down in Al Fashir and there are two forward elements. I believe 
one is in Nyala and there is another one in Kebkabiya. They are 
beginning to move out. The Nigerian commander has not yet 
arrived on the scene, but the senior people in the AU that have 
been handling this, particularly former President of Mali 
Konare, has been very aggressive in getting what he needs from 
them and very aggressive in seeking assistance from the 
Europeans and us. The AU representative, Ambassador Djinnit, 
has been very engaged in this and helpful. Sam Ibok in the AU 
has been very engaged and helpful.
    So key people have stood up to this and the question is, 
unfortunately for us, this is the AU teething on this crisis. 
They are doing what they can. We are helping them. We have got 
men on the ground and ready. They have agreed and we have 
agreed to supply several Americans. There are three Americans 
on the ground already. There is a British colonel. He will be 
joined by a couple of others. There is a couple of Belgians and 
a Frenchman. A total of eight Europeans in addition to our own 
will be in there.
    So we will participate. This will not be a case of the AU 
being out there without significant European assistance, both 
to say that we are with them, but also to provide what we can 
in a more direct way in terms of logistics to get this thing up 
and running.
    Senator Feingold. Thank you for that.
    Quickly, it is my understanding that the administration 
seeks to use some of the emergency funds that Congress provided 
for Liberia for this purpose. Is that accurate?
    Mr. Snyder. My understanding is there was some money 
earmarked in that original Iraq supplemental, not the Liberia 
money, that we could use for this. My understanding--and I will 
check--is that we are not trying to take anything from Liberia 
for this.
    Senator Feingold. Not the Liberia money?
    Mr. Snyder. That is correct.
    Senator Feingold. Thank you.
    Senator Brownback, did you want to proceed with a round of 
questions?
    Senator Brownback [presiding]. Yes, if you would not mind. 
Great. Thank you very much.
    I want to thank in absentia the chairman and the ranking 
member for holding this hearing on what I consider the grave 
situation and some have marked as the gravest humanitarian 
crisis that exists in the world today, which I think there is 
no doubt that that is the case.
    Let me ask, if I could, a couple of questions. As a 
followup, Mr. Snyder, you were saying there are 120 monitors 
from the African Union that are in and on the ground in the 
Darfur region or are moving forward? I did not quite catch 
that.
    Mr. Snyder. There will be 120. They have actually 
identified the nations and the numbers that will come. So far 
there is far less than that. There is about, by my count, about 
32 on the ground at this point, either in Al Fashir or forward. 
They will get up to that 120 number as soon as these countries 
supply the manpower. They know what countries they are coming 
from.
    We have got indications by checking in the capitals that 
the country involved is serious and has identified the men and 
is moving them. We are trying to assist in that in various 
places.
    Senator Brownback. Should not this number be substantially 
higher and not just monitors, but actual peacekeepers, if we 
are to try to stabilize this situation? It seems like that 
number is quite low to accomplish the task that is in front of 
us.
    Mr. Snyder. Again, this goes to our experience in the Nuba 
Mountains. Our experience there leads us to believe that, given 
our relationship with the rebels and the time we spent with 
them and given what we know about the government's capability, 
if it wants to honor the cease-fire, as long as we have a 
reasonable number of monitors--and 120 is, based on our Nuba 
experience, reasonable enough for at least a start of this, a 
serious start of this--we can monitor the cease-fire and hold 
those that violate it responsible.
    It will also take other forms of assistance. Senator 
Feingold alluded to our intelligence. We will not spare 
providing that when we have to if we think things are being 
missed or to target and move people in the right direction to 
see what they need to see. But if our experience in the Nuba 
Mountains instructs this experience, it is possible to do this 
with 120 and 270, at least start it.
    Clearly, Ambassador Djinnet and others that are running 
this have made it clear to us that they will not hesitate, if 
they think they need more, to come back and ask more. Again, it 
is a teething process. I doubt the AU at this point could do 
much more than this and we need to experience how they do this 
piece in order to reinforce it.
    Senator Brownback. Let me ask Mr. Winter--and I thank you 
for traveling into this region, something that I intend to do 
myself, and working with others. We have got to get this aid in 
quickly. Are we going to need to pass additional supplemental 
resources near-term before we can get to an omnibus package, 
say by the end of this year, in order to be able to meet the 
pressing humanitarian needs that exist? Or can the 
administration find the resources to meet the humanitarian 
needs on the ground now in Darfur?
    Mr. Winter. I would say, quite candidly, I think we are 
very tight. We have made significant commitments. We are 
continuing to shift around our resources within our 
international disaster assistance account. We are looking at 
everything we can to make sure we continue to be liquid. But 
Darfur at this level was unexpected and so there is some 
tightness in our situation right now.
    Do I wish that we were more liquid? Absolutely.
    Senator Brownback. It seems to me that in the Iraqi 
supplemental that is being considered now, and everybody is 
trying to keep it clean and I would love to do that as well, 
but this is really the vehicle and the timeliness that we need 
to put some additional resources to meet this greatest 
humanitarian need that we have in the world today.
    I am not asking either of you to comment on that. I 
understand the administration position, but I also understand 
the needs. If we do everything right, I believe Mr. Natsios has 
said that we are looking at 300,000 deaths if everything goes 
right. If things go wrong we could be looking at somewhere far 
exceeding that number.
    So this is a great, pressing situation. I also think, as 
you alluded to, Kofi Annan should travel to Darfur to bring 
further international pressure and focus into this region, so 
that the African countries, the rest of the world, looks at 
this horrific humanitarian situation and addresses it, not just 
the United States.
    I have spoken with Sudanese officials, expressed my 
frustration. They say: well, the United States is on the 
leading edge of this, but it should be other countries as well. 
It should be the Europeans, it should be the other African 
countries. Kofi Annan would be singularly positioned to be able 
to draw that attention to this.
    Mr. Winter. He would provide a level of legitimacy that 
would be very helpful right now. Given the battle that took 
place with respect to the U.N. Human Rights Commission and the 
fact that we were basically alone in asserting a firmer posture 
with respect to human rights in Sudan, the fact that we are so 
high profile when it comes to trying to respond to the 
situation in Darfur and everything, makes it sort of in a way 
take on a character that really it does not deserve.
    I mean, first of all, the population that is dying right 
now is a Muslim population. Where is the Muslim world fussing 
about this? It is an African population. Where is Africa 
broadly?
    I think what I am trying to suggest is Kofi Annan said the 
right things a few months ago. I think he could bring a 
legitimacy that would help depoliticize the way many people 
look at this kind of a situation right now, and that is what we 
need right now. We need the whole world to pull together.
    Senator Brownback. Yes, and I would invite him now publicly 
to go with me to that region. He really can bring an 
authenticity to it that is desperately needed, so we do not see 
hundreds of thousands more die.
    Mr. Chairman, thank you for holding this hearing. I am 
going to run over and vote.
    Senator Alexander [presiding]. Thank you, Senator 
Brownback. I wanted to thank Senator Brownback for his 
consistent bringing of this tragedy to the attention of his 
colleagues. He does it on a weekly basis, on a regular basis. 
He has been a leader in informing us and I thank him for that.
    I think we will thank Mr. Winter. Mr. Snyder, thank you for 
being here. We will now move to the second panel.
    Mr. Winter. Thank you.
    Senator Alexander. Our next two witnesses--thank you for 
waiting--I would say to the President's three ambassadorial 
nominees that we will get to your hearing yet this afternoon. 
We still have other votes, but we will do our best so as not to 
waste your time, and to speed your nominations along.
    The first witness, John Prendergast, is currently co-
director of the International Crisis Group. He has authored the 
International Crisis Group's report on Sudan and recently 
testified before the House of Representatives on this topic. 
Thank you, Mr. Prendergast, for coming.
    Julie Flint was recently contracted as a field researcher 
for Human Rights Watch and co-authored their report on the 
crisis in Darfur. She was in Darfur in March and April as I 
understand it, getting an on-the-ground view by horseback. Is 
that what I have heard correctly?
    Ms. Flint. And camel.
    Senator Alexander. And camel, horseback and camel. So we 
are going to get an eyewitness view from you and from Mr. 
Prendergast.
    I have read your testimony. You have much to say. It would 
be impossible, it would seem, to say it in 7 or 8 minutes. But 
if you will try to summarize your report that will give me and 
Senator Feingold and others who might come a chance to ask you 
questions. Let us start with you, Mr. Prendergast, then go to 
Ms. Flint.

     STATEMENT OF JOHN PRENDERGAST, SPECIAL ADVISOR TO THE 
             PRESIDENT, INTERNATIONAL CRISIS GROUP

    Mr. Prendergast. Thank you very much, Mr. Chairman. Thanks 
for the extra minute, too.
    I regret to inform you that phase one of what I think all 
of us in retrospect will call this genocide in Darfur has 
nearly been completed. This phase one has been the phase of 
ethnic cleansing. Let us tell the truth. The world did not lift 
a finger to stop it. There was not one United Nations Security 
Council resolution, there was not one permanent U.N. human 
rights monitor put on the ground, there was not any additional 
pressure applied. Rather, incentives were being offered to the 
perpetrators at the very moment of the height of the ethnic 
cleansing, including seats at the January State of the Union 
Address and the removal of Khartoum from one of the U.S. 
terrorist lists last month.
    A new phase, phase two of this potential genocide, has now 
begun. This is the phase in which the government uses a killing 
famine to finish what it started. Khartoum is calling on 15 
years of experience in creatively using starvation and disease 
as weapons of war. Khartoum is betting that the slow 
strangulation of Darfur will not draw the intervention of the 
international community, and so far that bet is paying off.
    With all due respect to the previous panel, the 
international response to this second phase, this phase of the 
strangulation through a killing famine of this likely genocide, 
is completely inadequate to prevent the onset of this killing 
famine and a vast loss of life. The current approach simply 
will not succeed. There is no overall strategic plan to deal 
with the crisis. The U.N. is scrambling and the Security 
Council is bickering. The Europeans are shrinking from the 
horror and the Africans are deferring to sovereignty. The U.S. 
is still reacting, still not putting forth a comprehensive 
strategy for confronting this disaster.
    If our actions are to have impact, we have to push the 
envelope further than it has been pushed before. First, we have 
to move quickly and boldly to prevent phase two of this 
potential genocide from succeeding. In other words, we have to 
act robustly to break the back of this killing famine.
    Preventing famine requires a number of actions. It requires 
first and foremost to shine a spotlight, most effectively 
through the U.N. Security Council, on Khartoum's policy of 
starvation as a weapon. Congress has authorized or appropriated 
billions of dollars over the last decade and a half to clean up 
the human mess created by these tactics devised in Khartoum. We 
have 15 years of empirical evidence that when this government 
is publicly challenged, consistently challenged, and 
multilaterally challenged, it moderates its behavior in 
response to that pressure.
    Preventing the famine also requires immediately creating a 
humanitarian surge capacity much greater than what has been 
envisioned and what you have just heard about in the previous 
panel, using civilian and military assets in the region to 
undertake a short-term front-loaded major increase in 
deliveries that address the deficiencies and gaps in food, in 
medicine, sanitation, water, and shelter.
    If all else fails, if all of that fails, then we have to be 
prepared to authorize chapter 7 in the Security Council to stop 
the famine and to save lives.
    Second, I think we have to move aggressively to assure that 
phase one of the potential genocide, the ethnic cleansing, 
which actually continues to this day and I think we will hear 
from Julie about that, we have to ensure that that does not 
resume more forcefully and is not allowed to stand. That is, 
these atrocities surrounding the ethnic cleansing must be 
confronted.
    Confronting ethnic cleansing requires public condemnation 
of Khartoum's support for the Janjaweed militias and strong 
pressure to ensure that the Janjaweed are neutralized. We still 
have not done that through the Security Council, in a Security 
Council resolution. As long as that does not happen, Khartoum 
understands that it can continue to do what it wants to do.
    Confronting ethnic cleansing also requires rapidly 
deploying this robust monitoring presence that is being talked 
about, but it needs to include many more cease-fire monitors 
than are being envisioned to this point and they need to have a 
protection mandate. Can you imagine, we are putting cease-fire 
monitors out there that do not have a mandate to protect 
civilians. We need U.N. human rights monitors on the ground. We 
do not have them. And we need the use of satellite imagery. 
There was a question asked about whether we have the 
intelligence assets necessary to address the problem there. I 
think we have some of those intelligence assets and they need 
to be shared with the Security Council members. We need to be 
moving that information around and demonstrating that this 
ethnic cleansing campaign continues.
    Confronting ethnic cleansing further requires the 
introduction of personal accountability for crimes against 
humanity. The resolution that Congress is working on now should 
include targeted sanctions--the House version in fact does 
now--against officials of the government who have been most 
responsible for orchestrating these atrocities and the 
companies, more importantly actually, the companies that they 
are board members of and are running, these companies need to 
be subjected to targeted sanctions.
    I really urge you not to let up on this. You will have an 
impact on the calculations of the regime in Khartoum. And you 
should urge Secretary Powell to get Ambassador Pierre-Richard 
Prosper out to the region immediately, looking at mechanisms of 
accountability. This also will have a dramatic impact on the 
calculations of the ruling party in Khartoum.
    Third, we cannot forget that all these atrocities come in 
the context of war in Sudan, and there must be a corresponding 
and comprehensive strategy for peace that deals simultaneously 
with the three interrelated conflicts in Sudan: the north-south 
conflict, the Darfur conflict, and then the conflict that has 
been spawned by the government's support for the Lord's 
Resistance Army in northern Uganda. All three of these are 
linked. All three of these need to be addressed.
    The best way to address it I think, and it is very, very 
vital that the administration move soon, to appoint a new 
special envoy now that Senator Danforth will move over to his 
new job, to empower someone as comprehensively and as at a high 
level as Senator Danforth was empowered, but also to give them 
staff and assets to be able to undertake the full-time 
diplomacy in pursuit of peace in all three of these 
interrelated conflicts.
    In closing, I think we need congressional leadership on 
this issue now. We should not forget that it was congressional 
pressure that provided the impetus for the United States to 
stop the slaughter in Bosnia, to confront apartheid in South 
Africa, and to address countless other cases that cried out for 
action. Historically, Congress has been a major force in 
helping administrations find their better angels. I think 
Congress can help ensure that this President does not have to 
hold another ceremony at the Holocaust Museum in 6 months, 
vowing ``Yet again, never again.''
    Thank you.
    [The prepared statement of Mr. Prendergast follows:]

                 Prepared Statement of John Prendergast

    Thank you for holding this urgently needed hearing on the complex 
crisis in Sudan. While precious time has been lost, it is not too late 
to put forward concrete actions that could prevent the needless deaths 
of hundreds of thousands of Sudanese, and to conceive a much more 
comprehensive diplomatic strategy that might bring peace to this long-
tortured country.
    Today, Sudan is three crises in one. This means that any response 
has to be more complex and nuanced than what might have been believed 
six months ago:

  <bullet> The first crisis is the longest running, the 21 year war 
        between the government of Sudan and the Sudan People's 
        Liberation Movement/Army (SPLM/A), which has resulted in two 
        million deaths and a structural humanitarian emergency.

  <bullet> The second crisis is that wrought by the Sudanese 
        Government's support for the Lord's Resistance Army (LRA), a 
        northern Ugandan insurgency that has wreaked havoc on both 
        southern Sudan and northern Uganda for years, resulting in the 
        highest rate of child abductions in the world, among other 
        depredations.

  <bullet> The third crisis is the most immediate and urgent human 
        rights and humanitarian disaster in the world today . . . the 
        unfolding evidence of conditions of genocide in Darfur.

    On the first crisis, a peace deal between the government and the 
SPLM/A may be imminent, but that will only signal a new phase of 
negotiations and challenges. Every step of the way in the 
implementation process will be undermined by elements in Khartoum 
opposed to the peace deal, and will be challenged by policy incoherence 
and a lack of capacity on the part of the SPLM/A. Militias--including 
the LRA--will continue to be used by elements of the ruling party to 
undermine cohesion in southern Sudan, especially around the oilfields. 
The U.S. must be ready and willing to continue its deep involvement in 
the peace implementation process. Providing funding for a peace 
observation mission is a necessary but insufficient role. Additional 
reconstruction resources must be found, diplomatic and intelligence 
capacities must be committed, and willingness to confront efforts to 
undermine the implementation process must be made clear.
    On the second crisis, after well over a decade of death and 
destruction caused by the LRA, there still remains no coherent 
international strategy to respond to this tragedy. The U.S. should work 
with the Ugandan government and other interested actors in crafting 
such a strategy, which in the first instance must seek an end to all 
Sudanese Government support and safe haven for the LRA.
    I will focus the remainder of my testimony on the third crisis: 
Darfur.
    Vague pronouncements by the G-8 and UN Security Council cannot 
obscure the fact that the existing global effort to prevent the onset 
of famine and vast loss life in Darfur is grossly inadequate. Continued 
stonewalling by key members of the UN Security Council from Europe, 
Africa and Asia has ensured that the world's highest collaborative body 
fiddles as Darfur burns.
    The current approach to preventing famine and further atrocities 
simply will not succeed.
    Although there are fancy charts and graphs that can now track the 
dying months in advance, and millions of new dollars pledged in the 
Geneva donors conference earlier this month, there is no overall 
strategic plan for preventing a killing famine and bringing a 
comprehensive peace to Sudan. The world is still reacting, still behind 
the curve of this slowly evolving disaster.
    To prevent the deaths of tens, perhaps hundreds of thousands of 
Sudanese, there needs to be an immediate humanitarian surge in the 
delivery of relief assistance in order to break the back of the 
impending famine. This surge needs to be supported by adequate numbers 
of monitors, by actions to increase U.S. and multilateral leverage, and 
by a robust diplomatic initiative to end the interrelated wars in 
Darfur, southern Sudan and northern Uganda.
                           i. is it genocide?
    It is appalling that we have been reduced to semantic debates about 
whether the situation in Darfur is ethnic cleansing or genocide. The 
Genocide Convention prohibits actions ``calculated to bring about the 
physical destruction of groups in whole or in part'', and compels 
signatory states to act to prevent them. In ICG's judgement, the 
situation in Darfur more than satisfies the Genocide Convention's 
conditions for multilateral preventive action. But even if argument 
continues about whether this is a case of actual or potential genocide, 
it cannot be contested that in Darfur a large section of Sudan's 
population is alarmingly at risk, that the Government of Sudan has so 
far failed comprehensively in its responsibility to protect them, and 
that it is time for the international community, through the Security 
Council, to assume that responsibility.
    This is not Rwanda of 1994, a country to which very little 
attention was being paid. Sudan has been at the top of the Bush 
Administration's radar screen since it came to office. It is not 
credible to say now that we did not know what was happening. Over the 
past year, Darfur has been Rwanda in painfully slow motion.
                       ii. the present situation
    The humanitarian situation is worse than is still generally 
appreciated, due to ongoing state-sponsored violence, layers of aid 
obstruction, the lack of an overall humanitarian strategic plan, and 
the weakened state of displaced Sudanese.
    There tends to be an assumption that because the Govermnent of 
Sudan has finally begun to act on promises to grant a higher level of 
access, the numbers at risk will be dramatically reduced. That is not 
accurate. The government has provided access much too late, IDPs and 
refugees have been displaced for long periods, they are in terribly 
weakened states, they are subject to sexual abuse and attack, they do 
not have shelter, their encampments lack latrines and are horrendously 
overcrowded, and it is now raining in southern and western Darfur. 
Infectious diseases and dysentery will drive up the body counts 
rapidly; And the Khartoum government, its use of food as a weapon well 
honed by years of practice in the south and Nuba Mountains, continues 
to apply layers of obstruction--for example, by instituting long delays 
in customs clearance of relief supplies, and insisting that only 
Sudanese trucks can be used in the delivery of such supplies.
    Conventional responses are simply inadequate to prevent rapidly 
increasing mortality rates, and the current response will fail unless 
buttressed by a number of bold and urgent actions.
    Compounding the problem, in our judgment, is that the numbers of 
at-risk civilians will continue to increase. The Janjaweed continue to 
undertake attacks against villages, prey on internally displaced 
persons (IDPs), and obstruct aid activities: it cannot be assumed that 
the centrally-directed ethnic cleansing campaign is over. The Janjaweed 
are being integrated into the army and police; no one has been charged 
with any crime, and their actions are not being challenged. There 
remains a state of total impunity. It is absolutely critical to demand 
that Khartoum take action to curtail the impact of the Janjaweed, to 
disarm them, to disband their headquarters, and to begin to charge 
those responsible for war crimes. All this must aim to reverse in full 
the ethnic cleansing campaign that has occurred over the last year.
                         iii. what must be done
    In order to fully confront the multifaceted crisis in Sudan, we 
need to push the envelope of response further than it has been pushed 
before. The U.S. must work multilaterally as much as possible, but be 
prepared as a last option to work unilaterally when others continue to 
bury their heads in the sand. European, African and Asian members have 
obstructed more assertive action by the UN Security Council, while the 
U.S. has been unwilling to date to expend diplomatic capital to help 
sway these countries towards a more robust posture.
    In the first instance, nothing could be more effective than working 
through the UN Security Council to immediately pass a Darfur-specific 
resolution that comprehensively responds to the present emergency and 
lays the groundwork for sustainable peace. This Security Council 
resolution should endorse actions that would prevent starvation, stop 
further fighting and atrocities and press for a negotiated peace--while 
warning of possible further coercive measures should these objectives 
be resisted.
    More broadly, the U.S. Congress and the Bush Administration should 
work through the UN Security Council and unilaterally toward the 
following urgent, interrelated objectives:
A. In Order to Prevent a Killing Famine:
  <bullet> Public Condemnation: The U.S. through the UN Security 
        Council and directly should strongly and publicly condemn the 
        various layers of obstruction that the Sudan government 
        currently employs to delay the delivery of relief assistance. 
        We need only note the Khartoum government's fifteen year track 
        record of ceasing unacceptable activity only when it becomes 
        the source of public condemnation and exposure. With this 
        amount of empirical evidence to support the need for public and 
        assertive pressure, anyone arguing for quiet diplomacy and 
        constructive engagement at this juncture would be providing 
        political cover for the government's atrocities.

  <bullet> Surge Capacity: Working with the European Union and other 
        donors, the U.S. should expand the existing capacity for 
        emergency relief deliveries to the internally displaced in 
        Darfur and refugees in Chad to meet the growing humanitarian 
        need. This will require additional resources for securing 
        urgently needed non-food items and the capacity to deliver 
        those items. There is a need to establish immediately a surge 
        capacity through the utilization of both civilian and military 
        assets in the region--recognizing the particular value of 
        European Union and U.S. military assets, especially airlift 
        capacity--that would allow for short-term, front-loaded 
        increases in deliveries that address deficiencies and gaps in 
        food, medicine, clean water, sanitation, and shelter.

  <bullet> Humanitarian Monitoring: The U.S. and EU should work with 
        the UN to support a large increase in the number of WFP, 
        UNICEF, and NGO monitors that are allowed into Darfur to 
        oversee the relief effort and should provide them adequate 
        security;

  <bullet> UN Leadership: President Bush should request the UN 
        Secretary General to take the lead personally in efforts at 
        humanitarian diplomacy.

  <bullet> Chapter VII Planning: In the event full access is denied, 
        Janjaweed attacks continue, and mortality rates escalate, the 
        U.S. should accelerate contingency planning for using military 
        assets to protect emergency aid and Sudanese civilians. The 
        U.S. should work through the UN Security Council to request a 
        UN Department of Peacekeeping Operations assessment of possible 
        scenarios and define operational plans for guaranteeing 
        humanitarian relief and protection of civilians through the 
        deployment of sufficient civilian and military forces under 
        Chapter VII authority. Such a deployment would seek to take 
        control of, stabilize and protect IDP camps in Darfur, and 
        create a logistical pipeline to deliver assistance to these 
        camps.
B. In Order to Stop Further Fighting and Atrocities:
  <bullet> Janjaweed Control: The U.S. should work through the UN 
        Security Council for multilateral condemnation of the Sudanese 
        Government's support for Janjaweed militias through direct 
        assistance, provision of barracks, supply of arms, etc. The 
        Security Council should demand that the Government of Sudan 
        arrest Janjaweed commanders who continue attacking villages and 
        IDPs, and immediately demobilize and disarm the Janjaweed 
        militia. If this does not occur, Chapter VII authority should 
        be sought to disarm and demobilize the Janjaweed.

  <bullet> Human Rights Monitoring: The U.S. should work through the UN 
        Security Council and the UN Human Rights Commission for the 
        immediate deployment of UN human rights monitors in Darfur.

  <bullet> Ceasefire Monitoring: The U.S. should support the African 
        Union and the parties to the Darfur conflict to negotiate a 
        substantial increase in the number of ceasefire monitors and 
        work with the EU and other donors to fully resource these 
        monitors.

  <bullet> Satellite Imagery: The U.S. should share its satellite 
        imagery with the UN Human Rights Commission and the UN Security 
        Council, as well as collaborate in more closely tracking the 
        activities of the Janjaweed and other government military 
        assets that are attacking villages or IDPs. Such imagery could 
        also reveal any ceasefire violations by any party to the 
        conflict.

  <bullet> Reversal of Ethnic Cleansing: The U.S. should work through 
        the UN Secretary General to initiate a process now to determine 
        the conditions which would enable the safe, secure and 
        sustainable return of the victims of ethnic cleansing under 
        international guarantees, support and control.
C. In Order to Press for Sustainable Peace:
  <bullet> Comprehensive Peace Strategy: There must be a coordinated 
        diplomatic strategy to end the three interrelated wars in 
        south/central Sudan, Darfur, and northern Uganda. This requires 
        a rapid conclusion to the comprehensive agreement between the 
        government and the SPLM/A, the construction of a credible 
        process to settle the conflict in Darfur, and the development 
        of a strategy to end the crisis created by the Lord's 
        Resistance Army in northern Uganda and southern Sudan. Leaving 
        behind any one of these will undermine the entire effort to 
        achieve peace in Sudan.

  <bullet> Peace Envoy: Now that Senator Danforth has been nominated to 
        be U.S. Ambassador to the UN, President Bush should move 
        rapidly to name another Special Envoy for peace in Sudan. Such 
        an envoy should be tasked to work full time and simultaneously 
        on all three conflicts bedeviling Sudan, and should be given 
        the necessary resources to carry out the mission.

  <bullet> Negotiations Structure: The direct negotiations between 
        Sudanese Vice President Ali Osman Taha and SPLM/A Chairman John 
        Garang were instrumental in moving that peace process forward. 
        The Darfur and LRA efforts should utilize this relationship in 
        seeking a rapid end to those crises.

    The U.S. must make clear that if Sudan does not provide full 
humanitarian access, neutralize the Janjaweed, and move forward on 
peace efforts, the imposition of targeted sanctions (travel 
restrictions and asset freezes) will be authorized against those 
officials responsible for the atrocities. Ruling party companies with 
which these officials are associated should also be targeted. Further, 
the U.S. should work through the UN Security Security to make clear 
that such intransigence would also lead to the imposition of an arms 
embargo and the deployment of an international commission of inquiry or 
a high level panel to investigate the commission of war crimes in 
Darfur, a necessary prerequisite for the establishment of a future 
mechanism of accountability.
               iv. what the united states congress can do
    All the actions outlined above may not be practical in conventional 
circumstances. But with two million already dead as a result of the 
govermnent-SPLM/A war and hundreds of thousands more at risk today in 
Darfur, circumstances in Sudan require unconventional responses.
    If the Bush administration continues to debate internally about 
what to do, certain European countries remain reserved due to tactical 
and commercial considerations, and the UN Security Council remains 
muzzled by the reservations of a few members, then the U.S. Congress 
should provide desperately needed leadership.
    We should not forget that it was Congressional pressure that 
provided the impetus for the U.S. to stop the slaughter in Bosnia, 
confront apartheid in South Africa, and countless other cases of 
Congressional leadership. Historically, Congress has been a major force 
in helping administrations find their better angels.
    The Senate should demand that the Bush administration develop a 
much more robust and comprehensive multilateral strategy to break the 
back of the emerging famine in Darfur.
    The Senate should urge President Bush to name a new Special Envoy 
whose brief is more operational than Senator Danforth's and more 
comprehensive, in order to deal with all three conflicts plaguing 
Sudan.
    The Senate should pass the House version of its Sudan resolution, 
which calls for targeted sanctions against senior Khartoum officials, 
and ensure that the resolution language on targeted sanctions is in 
forthcoming Authorization and Appropriations bills. The Senate should 
also look for other ways to introduce accountability into the 
discussion of what to do about Sudan, in order to confront the 
continuing genocidal actions of the Janjaweed and its supporters in the 
Sudan government, as outlined above
    The best way to end this tragedy is to bring home the costs of the 
atrocities in Darfur to the Sudanese officials who are directing them. 
Every day that we continue to look past this terrible record of death 
and destruction, we ensure that it will continue and intensify.

    Senator Alexander. Thank you, Mr. Prendergast.
    Ms. Flint.

STATEMENT OF JULIE FLINT, DARFUR FIELD RESEARCHER, HUMAN RIGHTS 
                 WATCH, LONDON, UNITED KINGDOM

    Ms. Flint. Thank you for the opportunity to speak today. As 
you said, I spent 25 days in Darfur and among refugees from 
Darfur in March and April, and welcome the chance to tell you 
what I found. Some of the people I met will already be dead. 
The remainder in their entirety are fighting for survival and 
have no voice of their own.
    The first and most striking thing I found in Darfur was the 
completely empty land, mile after mile of burnt and abandoned 
villages, irrefutable evidence of a scorched earth policy the 
government says does not exist. Hundreds of thousands of 
Masalit farmers lived in this area little more than 6 months 
ago. Today there is quite literally no one. Some have managed 
to flee to Chad. The others have been corralled into displaced 
camps, government-controlled camps far from the border, where 
until very recently they were at the complete mercy of the 
government and the Janjaweed, beyond the reach of any relief 
workers or any independent observers.
    It is extremely difficult to ascertain what is exactly 
happening in a place the size of Darfur, where the government 
denies access and all movement is impeded by the presence and 
above all the fear of the Janjaweed. I therefore investigated a 
sample area of 25 square miles, 60 square kilometers, where 
there were until recently 14 villages.
    I found 11 of these villages burned to the ground and 3 in 
close proximity to them abandoned for fear. Women of all ages 
had been raped, often in front of their husbands and children, 
and everything that made life possible, sustainable, had been 
systematically destroyed. Civilians who had been displaced 
insisted that there were no rebel positions anywhere near their 
villages and there certainly were not when I was there. We had 
to ride for several hours to reach all of the villages we 
visited.
    Some of the villages had had self-defense units--
``militias'' is far too grand a word for these groups--but they 
proved incapable of defending either themselves or their 
villages.
    The second thing that struck me was the consistency of the 
victims' claims. Estimates of the numbers of people killed in 
attacks varied, although usually not by much, but descriptions 
of attacks were remarkably similar and it quickly became clear 
that the burning of Masalit villages has not been haphazard, 
but absolutely systematic. Whole areas have been cleared one by 
one by Janjaweed and government forces working hand in glove, 
side by side.
    The reason the government is targeting the Masalit and the 
Fur and Zaghawa is that these three ethnic groups form the 
backbone of the rebel movement in Darfur. The government has 
deliberately chosen the Janjaweed as a counterinsurgency 
militia because it knows there are prior ethnic tensions 
between the Janjaweed and the African farmers that it can 
successfully manipulate, and that it is continuing to 
successfully manipulate.
    Death tolls are chillingly high, especially when you 
consider how small most of these villages are. I documented 
large-scale killings in 14 incidents in areas between November 
2003 and April 2004. In these 14 incidents, almost 800 
civilians died that I know of. There will be others. All 14 
involved coordinated attacks by the army and Janjaweed 
arriving, fighting, and leaving together.
    These were not the only incidents in the Masalit area in 
this period, but rather those I was able to corroborate from 
witnesses I believed were credible in the time that was 
available to me.
    Attacks like these are no longer attacks by Arab nomads 
driven onto Masalit farmlands in search of water and grazing. 
They often involve hundreds of men and are often coordinated 
across several fronts. They are carried out under the eyes of 
government soldiers by men who wear the same uniform as the 
regular army, who carry the same weapons as the army, and who 
often enjoy the support of the Sudanese Air Force. This is not 
happenstance, it is not coincidence. It is coordination.
    The Janjaweed--let me just insert here, if I may, a 
concrete example to bring this home to you in terms of people, 
because this is about people. There is a village called Tullus 
which is in the interior of the Masalit area and it was 
attacked in February, I believe, of this year by government and 
Janjaweed. The first the residents knew, most of the residents 
knew, was that they heard Antonov bombers coming, so the men 
sent the women and the children away on donkeys for their own 
safety.
    Within half an hour or so, the village was attacked by 
ground forces, government and soldiers, according to people 
from the village. They burned everything. All it takes is a box 
of matches; we are talking about straw huts. Having burned and 
killed--and I do not know how many people they killed for sure 
there--they then pursued the women and the children to the 
valley where they were hiding and they proceeded systematically 
to kill the women and the children.
    I found in Chad a child of 12 who had been shot three times 
in cold blood, closer than I am to you, by a group of people. 
He said they approached him, they sat down, they talked to him, 
they called him a rebel--he was 12 years old--and one of them, 
who he thought was unarmed, ordered his companions to shoot the 
children.
    There were four children hiding behind this tree. My 
friend, Hussein Dafa'allah, was shot three times, in the face, 
in the arm, and in the leg. The three other children hiding 
with him behind this one tree--there were many other trees--
were all shot and fell to the ground. He does not know what 
happened to them. The youngest was only seven. This is not 
unusual.
    The Janjaweed themselves increasingly are structured. 
Thousands are now organized into brigades which are the same 
size as Sudanese Army brigades. They are headed by men who call 
themselves generals and who wear the same stripes as generals 
in the regular Sudanese Army. Janjaweed leaders have one or 
even two homes in government garrison towns. Government forces 
have been seen training Janjaweed and reportedly pay some of 
them salaries. They have also been seen delivering weapons by 
helicopter and car.
    As has been said before, the Janjaweed have complete 
immunity in Darfur. Not only are they not prosecuted for any 
offenses whatsoever, but some police told me that they had 
received orders not to interfere in any operations by the 
Janjaweed and not to consider any complaints made against the 
Janjaweed.
    Unless the Janjaweed are disarmed, disbanded, and withdrawn 
from the areas they occupy and from which they prey on 
displaced civilians, there will be no possibility for civilians 
to return to their homes and plant next year's harvest in 
safety.
    The emergency we are seeing today, with 350,000 expected to 
die even if help is sent immediately, is the direct result of 
human rights abuses--scorched earth, denial of relief, denial 
of access, the same tactics the Government of Sudan used in its 
war to depopulate oil-producing areas of southern Sudan and the 
same tactics it has always used. This is nothing new.
    Recent reports indicate that groups of Arab origin have 
begun moving into some of the lands at least bordering Chad 
that have been ethnically cleansed. Just before coming here 
today, I called some people in Darfur and was told that the 
entire population of a small town called Arrara has been moved. 
They were ordered to move to a Janjaweed stronghold called 
Beida, now believed the site of a displaced camp. And Arabs 
have been settled in Arrara in their place.
    The Masalit I spoke to say they do not know where these 
settlers are from, but they are not from Sudan and they do not 
think they are from Chad either. This apparently is happening 
in a lot of the villages in the Masalit area that are empty. It 
was the exception when I was there. It almost looks as if it is 
now becoming the rule.
    Government officials and Arab groups in Darfur have accused 
the SLA and the Justice and Equality Movement, the second rebel 
group in Darfur, of targeting civilians and destroying their 
villages, and have provided a list of attacks and cease-fire 
violations to Human Rights Watch. Human Rights Watch is eager 
to investigate these cases, but so far have not received a visa 
from the government. We have not found witnesses to these 
abuses in Chad, but that does not mean that the abuses are not 
taking place.
    Winding up, the United States has taken the international 
lead in Darfur and must remain fully engaged. Several 
additional U.S. actions are needed. Firstly, a Security Council 
chapter 7 resolution. If the Sudanese Government does not 
neutralize the Janjaweed soon, the council must act to end and 
reverse ethnic cleansing in Darfur, ensure the protection of 
civilians, provide for the voluntary return in safety of all 
refugees and displaced persons, provide for effective and 
unrestricted delivery of humanitarian access.
    Second, a human rights monitoring team. The north-south 
peace agreement lacks an independent human rights monitoring 
body to hold the parties to their human rights pledges.
    Third, a U.N. accountability mechanism for past crimes 
against humanity and other grave abuses in Sudan. Again, the 
north-south peace agreement lacks any truth commission, 
reparations, or investigation into abuses by either side.
    We welcome the new emphasis on Darfur, but it comes very, 
very late in the day. This war in its present extreme form has 
been raging for the past 16 months. I myself have been writing 
about it since August 2002. There is absolutely no more time to 
be lost.
    Thank you.
    [The prepared statement of Ms. Flint follows:]

                   Prepared Statement of Julie Flint

    Thank you, Mr. Chairman, and Senators, for the opportunity to 
testify at this hearing. I spent 25 days in Darfur, and among refugees 
from Darfur, in March and April and welcome the chance to tell you what 
I found there. I am an independent journalist and conducted this 
research on behalf of Human Rights Watch. The results of the research 
are available in the report, ``Darfur Destroyed: Ethnic Cleansing by 
Government and Militia Forces in Western Sudan,'' recently published.
    The first, and most striking, thing I found in Darfur was a 
completely empty land--mile after mile of burned and abandoned villages 
that constitute irrefutable evidence of a scorched-earth policy the 
government says doesn't exist. Hundreds of thousands of Masalit 
farmers, Sudanese of African descent, were living in the rural areas I 
visited little more than six months ago. Today there is, quite 
literally, no-one. Some have managed to flee to Chad; the others have 
been driven into government-controlled camps far from the border where 
they were, until very recently, at the complete mercy of the government 
and the Janjaweed--beyond the reach of any relief workers or 
independent observers.
    The only civilians I encountered in Darfur were a handful of 
refugees who had crossed the border from Chad. They were venturing back 
to their village to dig up food stores they had buried in hope of 
preserving them in the event of attack by the army and the Janjaweed, 
militiamen drawn from some Arab tribes of Darfur and Chad. The refugees 
looked like walking dead--stick-thin, exhausted and ragged in a way 
they wouldn't have been, despite their poverty, only a few months ago.
    It is, of course, difficult to ascertain what exactly is happening 
in a place the size of Darfur, where the government denies access and 
all movement is impeded by the presence--and the fear--of the 
Janjaweed. I therefore decided to investigate a sample area: a 25-
square mile block in which there were until recently--14 villages 
inhabited by Masalit, one of the three tribes that form the backbone of 
the Sudan Liberation Army. (The other two are the Fur and the Zaghawa.) 
I found 11 of those 14 villages burned and three, in dose proximity to 
them, abandoned for fear of burning. Mosques were burned; straw huts 
torched; food stores destroyed, in their totality. Cooking pots were 
smashed. Water pumps were not smashed because there were no pumps to 
smash in the first place. We are talking about people who have never 
had electricity, running water or, for the most part, schools or 
medical clinics; people whose best bet when they are seriously wounded 
is to go to Khartoum, more than 700 miles away, for treatment.
    In these villages, everything that made life possible had been 
obliterated. Fields that had produced tomatoes, peppers, potatoes, 
cucumbers, beans and millet were dried up and strangled by weeds. 
Across the border in Chad, women went from home to home begging for 
food.
    Everyone I talked to insisted there were no rebel positions 
anywhere near their villages. There certainly weren't when I was there: 
we had to ride for several hours to reach any of the villages we 
visited. Some of the villages had had self-defense units--militias is 
far too grand a word--but this smattering of armed men proved incapable 
of defending either themselves or their villages. Many, many died.
    Women of all ages had been raped--often in front of husbands and 
relatives--in the aftermaths of attacks; in, around and on the way to 
displaced camps; and while they searched for food, water and firewood.
    I visited a number of other areas, less systematically, and found 
the same thing: no human life, and no way of sustaining life in the 
immediate future. The terrible humanitarian emergency we are seeing 
today, with 350,000 expected to die even if help is sent immediately, 
is the direct result of human rights abuses: scorched earth, denial of 
relief, denial of access--the same tactics the government of Sudan used 
most recently in its war to depopulate oil-producing areas of southern 
Sudan; the same tactics it used in the Nuba mountains; the same tactics 
it has always used.
    The second thing that struck me in Darfur was the consistency of 
the victims' stories. Estimates of the numbers of people killed in 
attacks by the government and Janjaweed varied. But descriptions of 
attacks were remarkably similar. It quickly became dear that the 
burning of Masalit villages has not been haphazard, but systematic. 
Whole areas have been cleared, one by one, by government and Janjaweed 
forces working together--sometimes coming out of garrison towns where 
they have separate barracks; sometimes advancing from joint positions 
more recently established in strategically located villages.
    Typically, the regular army will surround a village with heavy 
weapons while Janjaweed on horse- or camel-back ride in, 
indiscriminately firing Kalashnikovs and sometimes rocket-propelled 
grenades. It has been said that men are being targeted--presumably in 
the belief that they could be members, or supporters, or even potential 
supporters, of the SLA. I do not believe that the attackers are 
targeting only men. What many witnesses described to me was how 
villagers, forewarned of attacks, send the women and children away on 
donkeys, leaving men behind to try to defend their homes.
    Death tolls are chillingly high, especially when you consider how 
small most of these villages are. Our investigations uncovered large-
scale killings in 14 incidents in the Masalit area between November 
2003 and April 2004. In these 14 incidents, almost 800 civilians died. 
All 14 involved coordinated attacks by the army and Janjaweed, 
according to different eyewitnesses interviewed at different times and 
in different places.
    These are not attacks, as they were in the past, by a handful of 
``Arab nomads'' driven onto Masalit farming lands in search of water 
and grazing. They are attacks that often involve hundreds of men and 
are often coordinated across several fronts. They are carried out under 
the eyes of government soldiers, by men who wear the same uniform as 
the regular army, who carry the same light weapons as the army and who 
often enjoy the support of the Sudanese air force. Helicopter gun ships 
reconnoiter before and after attacks. Antonov bombers bomb in advance 
of attacks, especially in areas away from the international border 
where there are no independent witnesses. This is not happenstance. It 
is not coincidence. It is coordination.
    Let me give you an example that is nothing out of the ordinary. The 
village of Tullus, several days' walking away from the border with 
Chad, was attacked in February this year. Some of the attackers came 
from Mornei--a town of a few thousand inhabitants that today hosts tens 
of thousands of displaced--and a few inhabitants of Mornei rode out to 
warn neighboring villages. Some families left Tullus immediately. When 
Antonovs started bombing, women and children who had stayed behind were 
put on donkeys and sent to nearby hills. Then army Land Cruisers 
surrounded the village and Janjweed went in, killing at least 23 people 
and burning everything. All it takes in these mud-and-straw villages is 
a box of matches.
    After the attack, soldiers and Janjaweed continued on to the hills 
where the women and children were hiding and began killing again. I 
could not get a precise figure for the dead--the field of vision of the 
fugitives here was often confined to the tree or the rock behind which 
they were hiding--but I am confident that at least 15 people were 
killed including seven women and six children.
    On a hillside in Chad, where a three-month-old refugee baby had 
just died for reasons that will never be known, I met a 12-year-old 
survivor of Tullus--a boy called Hussein Dafa'allah. He ran from Tullus 
with his mother and hid behind a tree with three other children. The 
youngest of the three, a girl called Fatima, was only seven years old. 
Hussein said a group of uniformed men approached him as he hid and sat 
down beside him. These men were not behaving as if they feared attack. 
Their behavior surely suggests there were no rebels here, nothing that 
could be considered a military target. The men taunted Hussein, calling 
him a ``Tora Bora''--a rebel, in Darfur-speak. Hussein told me: ``There 
are no Tora Bora in Tullus. It's a village.''
    One of the men who cornered Hussein was apparently unarmed--a 
detail that suggests he was not a member of the Janjaweed. He ordered 
his companions to fire at the children behind the trees and Hussein was 
hit three times--in the face, a leg and an arm. The three other 
children were also hit, but no-one could tell me what became of them. 
When Hussein's father arrived after the attackers left, he strapped his 
son onto a donkey and took him across Dar Masalit--the Masalit 
``homeland''--to Chad.
    This was not the only instance I discovered of displaced Masalit 
being hunted down and killed. On August 27th last year, Antonovs bombed 
the town of Habila six times in one day. Twenty-six civilians were 
killed, induding many women and children. Habila not only had a police 
station; it had an army post. The only explanation the people of Habila 
can find for the attack is that the town was packed with people 
displaced from neighboring villages. It wasn't enough to destroy the 
villages, they said; they believed the government's intention was to 
destroy the populations too.
    Six months after this, on March 5th this year, 137 African men were 
executed in two separate but simultaneous operations in Wadi Saleh, due 
east of Dar Masalit. Most belonged to the Fur tribe. A neighbor of the 
sole survivor of one of the massacres told me that people in Wadi Saleh 
woke up on the morning of March 5th to find a large area surrounded by 
government and Janjaweed forces. These government forces entered 
villages within the cordon they had set up, apparently meeting no 
resistance, and asked men which villages they came from. More than 200 
men whose villages had been burned and who were displaced were taken to 
police stations. In early evening, they were taken by army trucks to 
valleys where they were made to kneel and bend their heads before being 
killed with a bullet in the back of the neck.
    Thus does the government's scorched-earth policy set in motion a 
new cycle of atrocities. Today's displaced are tomorrow's rebels, or so 
the government fears.
    For the past two decades, successive Sudanese governments have 
armed and supported militias recruited among groups of Arab descent in 
Darfur and Chad. But under the present government, what was essentially 
an economic conflict between African farmers and Arab pastoralists has 
evolved into an ethnic war with racial overtones between Muslims of 
African extraction and an Arab-centric Islamist government and its 
proxies. When the SLA took up arms 17 months ago, the government began 
fighting alongside its proxies.
    The exact nature of the linkage and the chain of command between 
government forces and the Janjaweed is impossible to determine given 
the restrictions on access to government-controlled areas of Darfur and 
the government's denial of any connection to a group it describes only 
as a ``militia''. But there is no doubt in the minds of the African 
farmers who have survived attacks on their villages, farms and families 
that there is an organic, organizational link now between the army and 
the Janjaweed.
    When I asked why they say this, two different people--one a village 
headman, the other an SLA commander--responded with exactly the same 
words: ``They come together, they fight together and they leave 
together.'' The army draws much of its soldiery from Darfurians of 
African origin, and the Masalit are in no doubt that the government 
trusts the Janjaweed far more than it trusts the army to fight in 
Darfur.
    In recent years, thousands of Janjaweed have been organized into 
liwa, or brigades. These brigades are the same size as regular Sudanese 
army brigades and are headed by ``generals'' who wear the same stripes 
as generals in the regular army. Rebel leaders say they have identified 
six Janjaweed brigades--among them the Liwa al-Jammous, or Buffalo 
Brigade, and the Liwa al-Nasr, or Victory Brigade. These two brigades 
are headed respectively by Musa Hillal of the Um Jalloul tribe and 
Abdul Rahim Ahmad Mohammed, known universally as Shukurtallah, of the 
Mahariya tribe. Musa Hillal has enjoyed close relations with many 
senior government officials, prime among them a governor of North 
Darfur state, and is a frequent visitor to Khartoum. The Masalit say 
that Shukurtallah served in the army in Geneina and in Juba before 
being sentenced to 10 years' imprisonment for killing Masalit 
civilians. But he was released from jail before completing his 
sentence, they say, and emerged as the leader of the Janjaweed in West 
Darfur state. Soldier to Janjaweed, via a murder conviction, in one 
easy step.
    Top Janjaweed leaders all have one, or even two, homes in 
government garrison towns and have often been seen traveling in army 
cars. Several Masalit informants claimed that in 1999 government forces 
were seen training Janjaweed in El-Daien, 60 miles from Darfur's 
southern border with Bahr el-Ghazal, alongside established government-
backed militias like the ``Peace Army'', a militia that operated in the 
Bentiu area, and the muraheleen, tribal militias from southern Darfur 
and southern Kordofan that in 1989 were incorporated into government 
militias controlled by the army, and used in the war in southern Sudan 
against Dinka and other southern peoples.
    At the end of August 2003, Janjaweed took over from police and army 
in manning checkpoints in much of Dar Masalit. This could not have 
happened, nor be continuing, without the full agreement and compliance 
of the government.
    In Geneina, capital of West Darfur state, Janjaweed are said to 
have a headquarters in the Medina al-Hujjuj, the old customs yard. Many 
Masalit reported seeing government helicopters and cars delivering 
weapons to Janjaweed positions. Others claimed knowledge of government 
payments to Janjaweed. A farmer from Gozbeddine, a village near Habila, 
said that in August 2003, as mass burnings became routine in Dar 
Masalit, local government officials promised all Arabs who came 
forward, with a horse or a camel, a gun and a monthly salary of 300,000 
Sudanese pounds--U.S. $116, the equivalent of the per capita gross 
domestic production. This figure was repeatedly cited to me as a 
typical Janjaweed salary.
    The Gozbeddine farmer said Janjaweed were recruited in Habila in an 
office that flew the Sudanese flag. ``The Arabs weren't organized 
before,'' he said. ``It was only groups of 30 or 40 attacking civilians 
for their cows.''
    A government role in recruiting Janjaweed--and by extension, 
presumably, in paying them too--is confirmed by a document obtained by 
Human Rights Watch in which the state governor of South Darfur ordered 
commissioners to recruit ``300 horsemen for Khartoum''. The letter, 
dated November 22, 2003, is from the office of the governor and is 
addressed to two commissioners in South Darfur state--one in Nyala, the 
state capital, and the other in Kas, one of the largest towns in South 
Darfur. The letter lists promised donations and projects which would 
benefit the Janjaweed community. These include the vaccination of 
camels and horses--the Janjaweed's method of transport.
    Government support for the Janjaweed is not limited to sins of 
commission; there are also sins of omission. The Janjaweed enjoy 
complete immunity in Darfur and roam around armed even though Sudan's 
penal code posits 10 to 20 years' imprisonment for carrying illegal 
weapons and ethnic Africans are regularly searched, apprehended, and 
imprisoned. Former members of the government's security forces report 
receiving specific instructions not to interfere in any actions or 
operations by the Janjaweed.
    Nureddine Abdul Ismael Abaker, a Masalit policeman from Misterei in 
West Darfur, received orders from the local army boss not to interfere 
with the Janjaweed. In his words: ``To let them do whatever they 
wanted.'' He resigned from the police force in 2003 because, he said, 
``the government took the Arab tribes and allowed them to be the law, 
over everyone else''. Policemen in Geneina said they too were ordered 
not to take action of any kind against Janjaweed and not to lodge any 
complaints against them. ``Not to interfere with them in any way,'' 
they said.
    There is no doubt that the Janjaweed feel themselves empowered. 
Time and again, Masalit civilians said Janjaweed tell them ``We are the 
government!'' when challenged about their behavior. A 32-year-old 
farmer burned out of a village near Geneina quoted a Janjaweed leader 
in Geneina as telling residents of the town: ``This place is for Arabs, 
not Africans. If you have a problem, don't go to the police. Come to 
the Janjaweed. If we say you have to pay compensation, you pay. The 
Janjaweed is the government. The Janjaweed is Omar Bashir,'' referring 
to Omar El Bashir, president of Sudan.
    The Sudanese government's extensive use of Janjaweed to fight the 
rebel movements--the SLA and the Justice and Equality Movement (JEM)--
started after the rebels attacked the town and military base of Al 
Fashir, capital of North Darfur state, in April 2003. The attack 
destroyed several Sudanese air force planes on the ground and shocked 
the Sudanese government, which was convinced that the rebels were aided 
from abroad. (An air force colonel captured by the rebels even gave an 
interview on Al Jazeera which was broadcast to the Arab world.) The 
Janjaweed, who were already inimical for economic reasons to the tribes 
from which rebels were recruited, already owned camels and horses, the 
best means of transportation in vast untarmacked Darfur. They already 
had guns, but the government provided more--along with training, 
communications equipment, and other war materiel.
    The strategy is the same as used in the twenty-one years of war in 
southern Sudan and the Nuba Mountains: 1) finding an ethnic militia 
with existing rivalries with the targeted group (the ethnic group 
related to the rebels); 2) arming and supporting that militia, and 
giving it impunity for any crimes; 3) encouraging and helping it to 
attack the civilians of the targeted group, with scorched earth tactics 
often backed up by government ground troops and air power; 4) killing, 
raping, abducting, or forcibly displacing the targeted group and 
destroying its economy; and 5) denying humanitarian access to needy 
civilians. This pattern of attack has been used, again and again, in 
southern Sudan.
    The strategy is still used in the south, despite an 18-month 
ceasefire there--in the Shilluk area, in the Upper Nile region of 
southern Sudan, in March 2004. There a southern government militia 
attacked and burned villages, forcibly displacing more than 100,000 
civilians. The reason was that the military leader of the Shilluk 
changed loyalties (again) from the government to the SPLA--which is 
permissible under the current peace agreement in the south. Although he 
went to the SPLA, the government dearly did not want him to take with 
him the Shilluk land which is near oilflelds in eastern Upper Nile.
                                 update
    Even after having fled their homes, the vast majority of the more 
than one million displaced Darfurians are today utterly unprotected 
from violent abuse--unless they are among the 110,000 who have made the 
long journey to Chad, somehow evading Janjaweed ``patrols'' that 
attempt to interdict their escape. Originally cattle nomads, the 
Janjaweed continue to attack, rape, and steal from the displaced in the 
camps in Darfur. They have grown rich on the cattle they rustle, 
leaving their victims desperately poor.
    The humanitarian crisis we are seeing today is the direct result of 
the forced displacement and violence directed at hundreds and hundreds 
of farming communities in North, West, and South Darfur. The displaced 
people are mostly farmers who have missed the May-June planting season 
because they were burned out of their homes and farms. Their seeds were 
burned or looted, and they still have no access to their land. As a 
result, U.S. AID has estimated that there are two million war-affected 
people in Darfur in need of emergency assistance--the displaced, those 
they are living with, and those who usually buy their produce.
    Unless the Janjaweed militias are disarmed, disbanded and withdrawn 
from the areas they occupy, and from which they prey on displaced 
communities, there will be no possibility for civilians to return 
voluntarily and in safety to their homes and plant next year's harvest. 
As it is, emergency relief is needed for at least sixteen months to 
save two million people from this entirely man-made famine.
    Some local authorities are reportedly trying to force displaced to 
return to their villages to present a picture of ``normalcy'' to the 
international community, but by now the spotlight on Darfur is probably 
too bright for such deception to succeed. It is disturbing that there 
are still officials who attempt such maneuvers, however, as it does not 
bode well for government transparency and cooperation in southern 
Sudan.
    The first rains have already come to Darfur. Soon the dirt tracks 
that serve as roads will be impassable, making it difficult if not 
impossible to move relief supplies overland. Mosquitoes and malaria 
will aggravate the health problems that are already killing in the 
displaced camps; measles has already started to carry away the small 
ones; cholera and other water-borne diseases pose real death threats to 
all during the rainy season. At one camp outside Nyala, deaths have 
been running at between 8-14 a day--most of them children. The camp has 
a population of 28,000--and in the last three months has sprouted five 
cemeteries.
    There are many reports of fighting and attacks on civilians, all of 
which violate a ceaseflre agreement signed by the government and two 
rebel groups in Chad on April 8, 2004. On May 22, fifty-six people were 
reportedly killed in a Janjaweed attack on a village in South Darfur--
most of them just outside their huts. That was just part of a campaign 
to assert, or restore, government presence in areas south and east of 
Nyala, the capital of South Darfur, prior to the arrival of African 
Union ceasefire monitors.
    Recent reports indicate that groups of Arab origin are moving into 
some of the lands bordering Chad that have been ``ethnically cleansed'' 
and are now under government and Janjaweed control. This trend paves 
the way for continued ethnic turmoil and threatens regional stability. 
Chad has even complained of Sudanese bombing on its soil in support of 
Janjaweed pursuing Sudanese refugees into Chad. While the Sudanese 
government trusts Chad's President Idriss Deby, whom it helped seize 
power in Chad in 1990, many Chadians of Zaghawa ethnicity are literally 
up in arms in Darfur, to defend their fellow Zaghawa.
                              rebel abuses
    The SLA began armed operations in February 2003 to protect African 
communities against a 20-year campaign by government-backed militias. 
Neither the SLA nor the JEM, the two rebel groups in western Sudan, was 
involved in the southern conflict; neither was a party to the north-
south peace agreement.
    Although the SLA won support by attacking government and military 
targets--with remarkable success initially--there is new evidence that 
even these targeted attacks took heavy civilian casualties. Recently 
received testimony indicates that the attack on Al Fashir in April 
2003, although apparently directed at military objectives, resulted in 
the deaths of numerous civilians as well as military personnel. The JEM 
has been accused by Amnesty International of incidents of torture of 
suspected informants, including using pepper in the eyes. Both groups 
have been accused of using child soldiers.
    The SLA took sixteen humanitarian aid workers captive in June, of 
whom three were expatriates and thirteen Sudanese. This is a violation 
of international humanitarian law as the sixteen, who worked for 
various agencies in Darfur, were not military. They were released 
unharmed after three days.
    Government officials and Arab groups in Darfur accuse the SLA and 
JEM of targeting civilians and destroying their villages, and have 
provided a list of ceasefire violations and attacks on villages to 
Human Rights Watch. We are eager to investigate these cases inside 
Darfur, but so far have not received a visa from the government. We 
have not found witnesses to these abuses in the Chad refugee camps, but 
that does not mean the abuses have not taken place. Only a fraction of 
the displaced has been able to reach Chad for refuge.
    Recently the director of Human Rights Watch, Kenneth Roth, and a 
Sudan researcher, Leslie Lefkow, met with representatives of the rebel 
groups and presented them with a list of alleged abuses. The rebels 
denied the allegations but we expect to have a more detailed response 
from them. Because we have not had access to the government-held areas 
of Darfur, however, we have not been able to substantiate the 
government and other allegations.
    In 25 days with SLA forces in Dar Masalit, I found a marked absence 
of many of the abuses that have sullied the SPLA's record in southern 
Sudan. There was no evidence either of the use of child soldiers--the 
youngest rebel I encountered was 19--or of forced recruitment. The 
Masalit commander, Khamis Abdullah Abaker, admitted that neither was 
needed given the number of displaced adults offering themselves to the 
SLA as combatants. My observation was that the soldiers I encountered, 
and to whom I spoke, were farmers burned out of their homes, with a 
smattering of professionals, former government soldiers, and members of 
the police force who joined the SLA after their villages were attacked 
by the government they served.
    Masalit civilians insisted that SLA positions were many miles away 
from their villages--one reason, they said, for the ease with which 
they had been displaced.
                             the u.s. role
    The U.S. has rightly taken the lead in the international community 
to insist that the Darfur crisis be addressed at the same time as the 
Naivasha peace accord is finalized, ending the twenty-one year war 
between the Sudanese government and the SPLA/M. The U.S. has 
contributed to the emergency relief fund and for other needs, and has 
encouraged its allies to act together diplomatically at the Security 
Council and elsewhere to stop the slaughter in Darfur. The U.S. has 
correctly identified this as ``ethnic cleansing.'' It has reiterated 
that its policy is to reverse the effects of this ethnic cleansing and 
enable the displaced to return home. It has stated that human rights 
abuses are causing the humanitarian emergency. The director of U.S. AID 
has said that the government must provide full humanitarian access to 
Darfur if up to a million people are not to die.
    The U.S. should continue to remain fully engaged and to give the 
Darfur emergency top priority. The fighting and human rights abuses 
have not yet stopped, despite the ceasefire agreement. The African 
Union was asked by the parties to set up a ceasefire monitoring 
commission, and some of the logistical personnel for this team of 
approximately one hundred persons have arrived in Darfur, also with 
U.S. assistance. But the ceasefire monitors are not yet deployed.
    Several additional actions are urgently needed, in which the U.S. 
must take the lead:

  <bullet> A Chapter VII resolution at the U.N. Security Council 
        whereby, if no effective measures have been taken by the 
        Sudanese government to ``neutralize'' the Janjaweed within a 
        specified time period, the Council will take further measures, 
        including through the imposition of targeted sanctions and 
        other measures, to:

          <bullet> end and reverse ``ethnic cleansing'' in Darfur,

          <bullet> ensure the protection of civilians at risk,

          <bullet> create an environment conducive to the voluntary 
        return in safety and dignity of all refugees and displaced 
        persons,

          <bullet> and provide for the effective and unrestricted 
        delivery of humanitarian assistance.

  <bullet> A U.N. human rights monitoring team for Sudan.

  <bullet> A U.N. accountability mechanism for past crimes against 
        humanity and other grave abuses in Sudan.

    On May 25, the Security Council issued a Presidential Statement on 
Darfur which contained strong condemnation of abuses, and called on the 
Sudanese government to live up to its ceasefire commitment to 
``neutralize,'' disarm, and disband the militias. On June 10 the G-8 
group called ``on the Sudanese government to disarm immediately the 
`Janjaweed' and other armed groups which are responsible for massive 
human rights violations in Darfur''.
    But the Sudanese government remains even more stubborn with regard 
to human rights, and investigation and prosecution of alleged abusers, 
than it does about relief access. No one, either military or Janjaweed, 
has been detained or prosecuted for the crimes against humanity or 
ethnic cleansing in Darfur. Only a handful has ever been prosecuted for 
individual cases of rape, murder, and looting. They have certainly not 
been disarmed.
                        human rights monitoring
    The U.S. should insist on one final ingredient for the Naivasha 
peace agreement, one which is vital for Darfur: that the peace 
agreement include a vigorous U.N. human rights monitoring team 
throughout Sudan, to periodically and publicly report on respect for 
human rights.
    The parties to the north-south peace agreement already have agreed 
in writing to abide by human rights principles. The peace agreement, 
however, lacks any mechanism for monitoring human rights performance. 
There are to be elections in three years throughout Sudan, at the 
local, state, regional, and national levels. Monitoring is necessary in 
the period leading up to the elections to ensure a level playing field 
for all parties--especially the aggrieved citizens of Darfur.
    It is not too late to insist that this monitoring be inserted into 
the peace accords. Implementation remains to be negotiated. The U.S. 
Congress should insist upon a U.N. human rights monitoring component to 
implement the human rights principles to which the parties have already 
agreed.
                      human rights accountability
    Similarly, the Naivasha peace agreement does not contain any 
provision for accountability for past abuses in the twenty-one year 
civil war in which more than two million died and four million were 
made homeless, most of them southerners. We agree with the call of the 
U.S. Congress in its concurrent resolution of May 17 urging the 
President to direct the U.S. ambassador to the U.N. to seek an official 
U.N. investigation into crimes against humanity in Darfur--but what 
about crimes against humanity committed in southern Sudan, the Nuba 
Mountains, and elsewhere during the long civil war? Should not Sudanese 
officials and others most responsible for these grave abuses also be 
investigated, and made answerable for their crimes?
    It is sad to note that, even in the south, where a ceasefire has 
been in effect since October 2002, the Sudanese government continues to 
use its ethnic militias (in this case Nuer militias under the command 
of Gabriel Tanguinya) to conduct scorched earth campaigns in the 
Shilluk land, north of Malakal. Although the U.S.-sponsored Civilian 
Protection Monitoring Team (CPMT) reported that more than 100,000 
Shilluk have been forcibly displaced, and their homes burned, the 
guilty remain at large, enjoying complete impunity for their crimes. 
They and the relevant Sudanese government officials must be 
accountable--not only the ethnic militias in Darfur.
    We urge Members of Congress to insist that accountability be an 
integral part of the Naivasha peace agreement--not only for Darfur, but 
for all of Sudan.
                      the u.s. and future response
    The political lead must be taken by the U.S. and the Security 
Council to end abuses and reverse ethnic cleansing in Darfur, which is 
the stated policy of the United States.
    It is time for the Security Council to pass a resolution under 
Chapter VII to prepare the way to take measures to relieve the massive 
human rights abuses and the famine even without the consent of the 
Sudanese government. There is no time to waste.

    Senator Alexander. Thank you very much, Ms. Flint and Mr. 
Prendergast.
    I have just been informed there are 3 minutes left in the 
second vote, so I must take a brief recess, and I assume 
Senator Feingold will get back before I do and he will begin 
with questions. So the hearing is momentarily recessed.
    [Recess from 4:42 p.m. to 5:02 p.m.]
    Senator Alexander. Our hearing on Sudan will resume. I 
thank the witnesses and others for their patience with the 
Senate schedule.
    Here is what we will do. I saw Senator Feingold. I have one 
more vote to cast and he has two, so I will ask my questions of 
Ms. Flint and Mr. Prendergast. I will then ask them to step 
aside if they have time to do that, because Senator Feingold 
would like to also have a chance to ask you questions, and then 
we will move to the three nominees. It is my hope we can do 
that today.
    Senator Feingold has a scheduling issue and I am going to 
let him go first with the questioning of the three nominees 
because I think we have a better chance of actually getting to 
you today if we do it that way. So if you will bear with us, we 
will try to get all of our work done.
    Now, we have heard some very interesting, graphic, specific 
testimony about the tragedy in Darfur in the west of Sudan. 
Just at a time when we had hoped we would be making peace in 
Sudan, we are having atrocities that make us not think very 
much about the peace.
    Our witnesses on the second panel are witnesses who have 
seen what is happening there recently and confirm that 
humanitarian aid is being denied, that the Government of Sudan 
is responsible for many killings, and is also responsible for, 
as I mentioned, obstructing the delivery of aid. What is 
interesting to me is that both of you have said that you 
believe that congressional action could make a difference. Many 
Members of Congress, both Democratic and Republican, would like 
to make a difference on this topic.
    For example, I saw Senator Corzine as I came back, who was 
not able to attend the hearing today, but who made it clear 
that, and has made clear in speeches on the floor, his feelings 
about the tragedy in Sudan and who emphasized to me that 
whatever Senator Feingold, Senator Brownback, and I and others 
were to do in the Senate, he wants to be part of. I am 
confident there will be many, many more.
    [The prepared statement of Senator Corzine follows:]

              Prepared Statement of Senator Jon S. Corzine

    Mr. Chairman, I would note that recent UN Security Council 
statements on Darfur on May 26 and June 11 were strongly worded, but 
fell short of calling for UN action; the G-8 statement on Darfur issued 
June 10 was well-meaning but also quite cautious. Time is slipping away 
from us in Darfur. I have written to President Bush, on June 4, in a 
letter co-signed by Senator Lautenberg, to go farther and urge U.S. 
pressure on the UN, on Western European governments and on Sudan, for 
immediate and effective action. I called for action, backed by UN-
authorized military intervention under Chapter VII of the UN Charter if 
necessary, to restrain and disarm ``janjaweed'' militias, guarantee 
access to Darfur for both human rights observers and humanitarian 
workers, establish a peace process to resolve underlying grievances 
between Khartoum and Darfur, and establish judicial accountability for 
human rights violations. i11In testimony June 15 before the Foreign 
Relations Committee, we heard from non-governmental experts (Human 
Rights Watch and the International Crisis Group) who had similar 
recommendations for immediate action by the U.S. and the world 
community; they noted events in Darfur have already moved from 
``Genocide Phase I--ethnic cleansing and displacement'' into ``Phase 
II: killing famine.''
    In that same Sudan hearing, Assistant Secretary of State for 
African Affairs Charles Snyder noted that European support for action 
on Darfur appears limited by the fact that the U.S. is in the lead. 
This seems to me an instance of the critical importance of nurturing 
and sustaining alliances, a duty which goes hand in hand with and is 
inseparable from the need to exhibit, when appropriate, resolute and 
bold leadership, as we now need to do with respect to Darfur.
    I believe it is feasible and absolutely necessary for there to be 
immediate U.S.-led international action, under UN authority if at all 
possible. Such action should aim at:

          (1) a Chapter VII resolution, authorizing the use of force at 
        the UN Security Council whereby, if no effective measures have 
        been taken by the Sudanese government to ``neutralize'' the 
        janjaweed within a specified time period; and

          (2) Imposition by UN and/or Western European governments of 
        targeted sanctions and other measures to:

  <bullet> end and reverse ethnic cleansing in Darfur,

  <bullet> ensure the protection of civilians at risk,

  <bullet> enable the voluntary return in safety and dignity of all 
        displaced persons,

  <bullet> ensure unrestricted delivery of humanitarian assistance,

  <bullet> Establish a U.N. human rights monitoring team for all of 
        Sudan, and

  <bullet> Establish a U.N. or other international accountability 
        mechanism for crimes against humanity in all parts of Sudan.

    Senator Alexander. Now, you have been very helpful 
witnesses in this fact, you have been very specific. I have 
read your full testimony. Let me ask the first question in this 
way. You have heard each other. Do you basically agree on what 
the Congress should do or did you hear--did one of you hear the 
other say something that you did not or that you disagreed 
with?
    How much agreement is there between the two of you on 
exactly which steps the Congress can take to do the most good?
    Mr. Prendergast. Thank you for that. That is an interesting 
question, Senator. I think we are Siamese twins on this issue. 
I think there is not a drop of light between us on this. I 
think the human rights groups, the conflict prevention groups, 
the humanitarian organizations, the NGOs in general, if they 
cannot say it publicly because they are on the ground, they 
believe essentially--agree essentially in large part with this 
agenda that we have outlined to you.
    I want to reiterate just for emphasis what the specific 
actions that the U.S. Congress can lead on, as opposed to sort 
of the general actions that the U.S. administration, the Bush 
administration, ought to be doing. I think specifically--and 
let me preface this by saying that 300,000 people do not have 
to die. It is not exactly--Senator Brownback started his 
questioning by saying that Andrew Natsios has said if things go 
right.
    Now, that is if things go right and we do things the 
conventional way, which is we nickel and dime everybody and 
argue over access for the next few weeks and do the same old 
thing we always do. Obviously, it is the most extreme situation 
we have faced in a long, long time. It argues for a much 
greater, much more robust humanitarian response.
    So at this juncture we need to go to the Security Council. 
We just had a resolution last week on the implementation of the 
peace agreement between the north and south, between the SPLM 
and the government. We need a second resolution, as Julie said, 
that has direct bearing on the humanitarian response, that 
calls for the Government of Sudan to stop with all these layers 
of bureaucracy that we heard from Roger. They need to be called 
out on it consistently and multilaterally. If it is just the 
U.S. saying these things, they know they can contain it. They 
will just give us our visas more quickly, as Roger said, but 
they will not move to change the entire edifice which is built 
for using starvation as a weapon.
    So I think we need to use the Security Council as a 
battering ram on Khartoum at this juncture to press for that 
opening of access.
    Senator Alexander. OK, so step one is a Security Council 
resolution, which would I guess have to be initiated by the 
United States.
    Mr. Prendergast. And the UK, yes.
    Senator Alexander. And the UK. Which would as its first 
step say, stop obstructing the humanitarian aid.
    Mr. Prendergast. Right, public pressure. They will tell 
you, the administration will tell you, rightly, that at this 
juncture perhaps 5, maybe more, of the 15 members of the 
Security Council do not agree and will oppose moving forward in 
the Security Council. So this requires some robust diplomacy in 
New York and in capitals at the highest levels of the U.S. 
executive branch to go to the leaderships of these governments 
that are opposed to moving for sovereignty reasons and for 
other reasons, for commercial reasons, other things that link 
them to the Sudanese Government, and urge and push and cajole 
for acquiescence for Security Council movement on this issue.
    Senator Alexander. Ms. Flint, would you have a comment on 
that?
    Ms. Flint. Well, something John said that I would pick up 
on is there are very obvious things that can be done without 
too great delay. Cross-border access. And there is a great 
parallel between today in Darfur and 1988 in Bahr El Ghazal, 
when there was again a manmade famine, and the international 
community simply could not get its act together. It was 
debating what to do, and after a quarter of a million people 
had died implemented cross-border access in the form of 
Operation Lifeline Sudan. But a quarter of a million people had 
already died.
    As I said before, we are all already moving very, very late 
on this. Darfur has been sacrificed to the north-south peace or 
the north-south truce, depending on how you see it. So I just 
think, as John said, it is very, very necessary to push ahead 
by any means possible--air drops, cross-border access. It is 
possible.
    Senator Alexander. Now, you have mentioned the Security 
Council resolution and how that would have a more dramatic 
effect on the government than simply a United States effort. 
What is second on your priority list? A Security Council 
resolution might take a little while. Is there anything that 
can be done more rapidly that would speed up the humanitarian 
aid or remove the obstructions?
    Ms. Flint. Well, the key thing I think in the short term is 
not just getting the food in there, but protecting it so people 
can actually eat it. I met people who--many people are trying 
to come out of these displaced, concentrations--I am not quite 
sure how formally they are camps; they just seem to be almost 
ad hoc settlements--because conditions were so bad there. 
Janjaweed were coming into the camps and killing and raping, 
looting in the camps. Families have been sending men across--I 
was in the Masalit area--to see if they could get to Chad and, 
if they could, going back to the camp to try to bring their 
families back to Chad.
    So it is not just a question of getting the food in. It is 
protecting the food so once it is there people can be able to 
eat it. Whether the African Union numbers are sufficient for 
that, I really do not know.
    Senator Alexander. Well, that was Mr. Prendergast's second 
major point, was to make sure phase one stops, which is the 
killing.
    Ms. Flint. Absolutely.
    Senator Alexander. But I am looking for tactically, if the 
Security Council resolution takes a while what is the second 
step that you would recommend from your perspective that our 
focus should be on?
    Ms. Flint. I think I would defer to John on that. I have 
been on the rebel side in the bush. I am not an expert at all 
in the corridors of power.
    Mr. Prendergast. That is good, you are asking the right 
question, because there are multilateral actions that can be 
taken and there are unilateral actions that can be taken. We 
have now talked to you about the multilateral, but the 
unilateral action that can be taken is for the U.S., and 
working directly with the European Union but moving forward as 
aggressively as we can, is looking at what kind of assets we 
have in the region.
    We have excess capacity, military capacity, in Djibouti. We 
have 1,200 forces there who are conducting training programs in 
the context of our counterterrorism efforts, and it is an 
underutilized capacity. The French have a larger contingent 
there, as well as throughout Central Africa. We need capacity 
to move items, relief items, from the port, which most of those 
goods are being, as Roger told you, being held up in the port. 
We need the capacity to move that rapidly in the next month 
directly to the ground.
    We are going to look back 3 months from now and say: Damn 
it, why did we not do something when we had a chance, as the 
rains were just beginning, because 3 months from now it is 
really not going to matter. It is going to be much more 
difficult.
    Senator Alexander. When does the rainy season start?
    Ms. Flint. It has started.
    Mr. Prendergast. It started a week ago, 2 weeks ago. So the 
problem is now that we have got to--it is what we call a surge 
capacity. We need to surge our assets into the region and move 
the stuff into Darfur and then, as Julie said, have people on 
the ground so they can distribute it.
    Senator Alexander. In your judgment, does the threat of 
more sanctions on a country already with sanctions matter to 
the government of Khartoum?
    Mr. Prendergast. Let me just say one more thing on that. It 
is a qualitative difference between sort of the larger 
contextual economic sanctions that have been in place now for 7 
or 8 years since the Clinton administration and picking out 
individuals in the government who are being assessed to have 
been complicit or responsible for mass atrocities, perhaps even 
genocide, and then saying to those people: You perhaps over the 
next 20, 30 years of your life are going to be unable to travel 
anywhere, your assets are going to be frozen, and some day you 
will sit in the dock like Milosevic did and some of the others 
did from the Rwandan genocide.
    I think sending those messages now, not starting the 
process because it is a long, lumbering process of actually 
establishing these mechanisms of accountability, but saying we 
are going to start doing that, getting Ambassador Prosper out 
there this week or next week, and saying, we are collecting 
evidence on individual culpability in this context, that is a 
different quality of fish and I think that really will have an 
impact.
    Senator Alexander. So immediately putting the spotlight on 
personal accountability for these crimes is something else that 
might have an immediate effect?
    Mr. Prendergast. Yes.
    Senator Alexander. Ms. Flint.
    Ms. Flint. Yes. The Government of Sudan only ever reacts, 
does anything, under pressure. It is not going to do anything 
if there is not a consistent increase in pressure. Even if 
there are already sanctions in existence, the mere fact of more 
being threatened will be effective. They will not move unless 
there is pressure.
    Senator Alexander. Well, let--excuse me; did you have 
something?
    Mr. Prendergast. No.
    Senator Alexander. Let me--first, Senator Feingold will be 
here in a moment and he will want to ask questions of both of 
you. But let me thank you for coming today and helping us do 
one of the things that you recommended, which is put the 
spotlight on this tragedy. I can assure you there are a number 
of Senators, both Democratic and Republican, who are deeply 
concerned about this. This was a subject of discussion today at 
our weekly Republican Senators luncheon, as an example, and I 
know that Senator Feingold and Senator Corzine and others, 
Senator Biden who was here today, feel the same way.
    So your testimony today has done exactly what we have 
hoped. The administration testimony has also been very 
specific, I thought, and was candid. We will take this 
information and do our best to help put the spotlight on the 
tragedy and to see if we can help do it immediately.
    So thank you for being here, and if you do not mind waiting 
for a few minutes I will invite you to come back when Senator 
Feingold comes.
    If I could then ask the President's nominees for ambassador 
to come forward, we will begin that process.
    [Whereupon, at 5:15 p.m., the hearing was recessed and the 
committee proceeded to other business, the hearing to reconvene 
at 5:45 p.m. the same day.]
    Senator Feingold [presiding]. Let me at this point recall 
the second Sudan panel.
    I want to thank both of you for your very compelling 
testimony. I will review the transcript very closely.
    Mr. Prendergast, before I go to some questions I want to 
thank you for raising in your testimony the additional issue of 
Sudan's relationship with the Lord's Resistance Army, a group 
that has terrorized the people and especially the children of 
northern Uganda for several years. I share your view that the 
United States needs to address this issue as part of a 
comprehensive Sudan policy and, joined by Chairman Alexander, I 
introduced legislation earlier this year stating plainly that 
the overall relationship between the Government of Sudan and 
the Government of the United States cannot improve until we 
have confidence that no element of the Sudanese Government is 
complicit in providing support to the LRA.
    So thank you again for calling attention to this important 
issue. And Ms. Flint, I thank you for traveling some distance 
to be here today. Despite all the interruptions, I assure you 
that this hearing will have a real influence on our thinking 
and our actions and that many of us regard this as one of the 
most, if not the most, urgent situations in the world at this 
time.
    For both of you, can either of you help the committee to 
understand the motives of the government of Khartoum as we look 
at its actions in Darfur? What is its purpose behind these 
atrocities and what is the government's ultimate intent?
    Ms. Flint.
    Ms. Flint. I think that is difficult to answer because I 
think there is probably more than one intent. The government, 
successive governments, have supported the Arab-based militias 
of Darfur for more than a decade now. When the rebellion 
started, they were taken by surprise, I think, by the successes 
that the rebel movements had. Within weeks of taking up arms, 
they had captured a state capital, including a military 
airstrip, destroyed five military aircraft, captured a bunch of 
senior air force commanders.
    The government was quite surprised and very quickly changed 
its tactics from attacking the rebels to attacking the 
civilians.
    Darfur is, as you know, 100 percent Muslim. It is solidly 
Muslim. So this is not in any way a religious war. But of 
course, this is a government which is Arab-centric. There is an 
Arabist agenda here. There is also a large degree of racism. I 
think the war in the south has been for me far more than a 
religious war, a racist war. So there are many, many, many 
different agendas going on here. And of course, the Janjaweed 
have their own agenda, which is land and loot.
    Senator Feingold. Mr. Prendergast, if you could answer that 
as well and just talk a little bit about whether you think the 
Government of Sudan is actually unified on its positions and 
policies regarding Darfur?
    Mr. Prendergast. I think that, to add to precisely what 
Julie just said, those are the first motives. They also want to 
drain the water to catch the fish. I think there is a long 
history of this government using these kinds of tactics in a 
number of parts of southern Sudan and central Sudan. Any time 
there is a rebellion or opposition, they go straight after the 
civilian population.
    They have learned and honed these tactics over the years, 
so now the use of the Antonov bombers, the use of the attack 
helicopters, the use of ethnic militias, is the principal part 
of their strategy, of their military strategy. They very rarely 
engage armed rebel elements because it is so effective to clear 
the populations out of these areas, because then it denies the 
rebels the civilian base in which it can move around.
    I think that we also have to understand that the government 
is trying to send a very clear message to every corner of Sudan 
that if anyone attempts, especially in northern Sudan, to try 
to overthrow this government, to try to challenge this 
government, this is the kind of reaction they are going to get. 
And that message has been delivered.
    The government is definitely not unified on this. There are 
military and civilian elements within the government that are 
unalterably opposed to this kind of strategy. They did not mind 
when they were doing it to the southerners, but now they are 
doing it to people in Darfur, Muslim populations, and 
populations which--of course, Darfur is heavily represented in 
the center, especially in the military, so a number of people 
have been replaced, a number of high-level military officials 
have been jailed or killed and transferred.
    So a lot has gone on internally over the last few months 
that has been highly destabilizing in the region. So you have a 
number of trends within the government over Darfur that are 
causing fissures at a time when they need unity to move forward 
on this agenda with respect to the SPLM.
    Senator Feingold. Thank you.
    Ms. Flint, to what degree has the north-south peace process 
exacerbated feelings of disenfranchisement among parts of 
Sudanese society that are neither represented by the Government 
of Sudan nor by the SPLM? And how exactly are these parts of 
Sudanese society supposed to get a seat at the table and have a 
hand in determining their own future?
    Ms. Flint. I will talk about Darfur because that is where I 
have been. There is absolutely no doubt that the beginning of 
the Naivasha process gave impetus to the rebellion. The lesson 
of Naivasha was that the only way to be listened to was to 
carry arms. I believe that was the main reason why the 
rebellion began in February 2003, that unless you carried 
weapons you had no seat at the peace table, your complaints 
were not listened to.
    I have not been there since the peace agreement was signed. 
I was there just before it was signed. But there was tremendous 
anxiety that this was an agreement being signed without them. 
Several people I spoke to on the phone after the signing of the 
agreement said the cease-fire agreement is not going to last; 
we are going to make sure that it does not, we are going to, if 
necessary, break the cease-fire to go back to have our voice 
heard. So I think in Darfur it has been extremely negative, 
both before and after the signing.
    Senator Feingold. Mr. Prendergast, we all agree that the 
situation in Darfur is urgent. What deadlines exist for action 
by the Sudanese Government that can give the international 
community a mechanism to hold them to account?
    Mr. Prendergast. Well, there really is not. It is bleeding 
on in a way that is quite disconcerting and I think the fact 
that there has not been a deadline introduced undermines the 
leverage that the international community might hold.
    The fact that the Security Council has not acted yet, and 
we just talked a bit about that with Senator Alexander, the 
fact that the Security Council has not acted on Darfur and has 
not sent the kind of message that needs to be sent to the 
Sudanese Government, is simply emboldening them to continue to 
undertake the kind of obstruction and use of food as a weapon 
that Roger Winter was talking about earlier.
    So I think there has to be this kind of urgency introduced, 
that if x does not happen then y is going to result. There has 
to be conditionality and there has to be pressures and threats 
that begin to be introduced into the discussion. In the absence 
of that, we are not going to have any leverage.
    I understand that you are looking at legislation. We heard 
from Senator Biden a little while ago that there is some 
discussion about legislation. It is urgently important that we 
do not undertake a solely incentive-based strategy to try to 
bring these, to drag these guys along. Whether or not they get 
assistance, foreign assistance, when they are getting a billion 
dollars a year in oil income is irrelevant to their 
calculations. We need to be introducing very specific measures 
of accountability that we are threatening to use, and if 
multilaterally we cannot do it we will push it unilaterally 
until others go along with us, and I think that if we simply 
rely on incentives right now, as we have for the last 9 months, 
trying to drag these guys across the finish line in Naivasha, 
it is simply going to undermine our own capacity for additional 
leverage.
    Senator Feingold. Let me thank both of you and all the 
panelists. I regret that we did not have more time, and I also 
regret how convoluted the process was. But Chairman Alexander 
and I are committed to following through on these issues and we 
admire your work in this area.
    That concludes the hearing.
    [Whereupon, at 5:55 p.m., the committee adjourned, to 
reconvene subject to the call of the Chair.]
                              ----------                              


       Responses to Additional Questions Submitted for the Record


 Responses of Charles R. Snyder to Additional Questions for the Record 
               Submitted by Senator Joseph R. Biden, Jr.

    Question 1. According to The New York Times, the administration has 
begun a review of whether or not the violence in Darfur is genocide.
    When did the genocide review begin, have you come to any 
conclusions, and what are the points of debate among lawyers as to 
whether or not what is happening in Darfur is genocide?

    Answer. The violence in Darfur must stop, regardless of the label 
applied to it. The United States is seeking an immediate end to the 
killing and other atrocities and is taking action to achieve this 
objective. The United States has been among the most vocal countries in 
the international community to speak out against the violence taking 
place in Darfur. Measures to end the violence and suffering are 
imperative.
    As the Secretary has indicated, the Department will continue to 
take firm action in connection with this crisis. We have not yet 
determined whether the violence in Darfur, which we have characterized 
as ethnic cleansing, constitutes ``genocide.'' Based on what we know 
thus far, there has been widespread atrocities and suffering. We have 
been quite clear that what is occurring has involved attacks and 
atrocities against African civilians by the government supported Arab 
militias. As the Secretary has stated, we are keeping this situation 
under intense review to determine if the situation in Darfur is now or 
becomes genocide. Let me stress that, regardless of how the situation 
in Darfur is described, we are addressing it with extreme urgency with 
a view to stopping the violence and alleviating the suffering. The 
review of the situation in Darfur is ongoing and involves both factual 
and legal components.

    Question 2. What is the administration doing to prevent genocide in 
Darfur as required by Article I of the Genocide Convention?

    Answer. The United States has been pressing the Government of Sudan 
to stop the violence in Darfur. We are seeking an immediate end to the 
killing and other atrocities, the protection of civilian populations, 
facilitation of access to all affected populations, and the creation of 
conditions permitting the safe and secure return of people to their 
homes.
    The United States helped organize three briefings on Darfur in the 
UN Security Council. Pressure from the first briefing led the 
Government of Sudan to agree to talks with the rebel groups in Chad and 
the subsequent agreement to a humanitarian ceasefire on April 8. Later 
briefings helped push the Government of Sudan to waive visa and travel 
permit requirements. The United States subsequently was instrumental in 
N'djamena, Chad in ensuring that the Government of Sudan and rebel 
leaders negotiated face-to-face. Additionally, in April of this, year 
the United States took a strong stand on Sudan at the UN Commission on 
Human Rights, supporting a condemnatory resolution to address the 
atrocities in Darfur (although a weaker decision was ultimately adopted 
by the Commission). The United States also voiced its opposition to the 
election of Sudan to the UN human rights body.
    The resulting ceasefire has given way to some improvement in the 
security situation; but serious problems remain. Credible reporting 
indicates that the Jingaweit militias are continuing to perpetrate 
violence against civilians. The Government of Sudan has not yet taken 
all the critical measures necessary to facilitate the delivery of 
adequate assistance to populations in need.
    In accordance with the ceasefire agreement, a monitoring group 
under the auspices of the African Union has begun to deploy to Darfur. 
Subsequent to the signing of the ceasefire agreement, the United States 
worked closely with the European Union and African Union to develop 
modalities for organizing the monitors and deploying the force. 
Americans will participate in this effort.
    At U.S. insistence, a statement on Darfur was brought before the 
UNSC in May. In June, the U.S. ensured that UNSC 1547, which authorizes 
the formation of a UN special political mission in Sudan, also 
specifically express concern for the situation in Darfur.
    The leaders of the G-8, at their Summit at Sea Island, declared 
their concern about the situation in Darfur.
    We have told the Government of Sudan that we will seek additional 
action in the UN Security Council and other fora, and will consider 
further unilateral actions should it not take the necessary steps on 
Darfur. We have also stated clearly that we will not normalize 
relations--in the context of a north-south peace accord--unless the 
Government of Sudan takes the necessary steps to address the situation 
in Darfur.
    To date, USAID has provided over $116 million in humanitarian 
assistance for the crisis in Darfur. USAID has mobilized a Disaster 
Assistance Response Team to go to Darfur to facilitate planning and 
delivery of assistance, but the Government of Sudan has thus far failed 
to issue all of the requested visas.
    The situation remains under careful scrutiny of very senior 
Department officials, and we are constantly reviewing possible 
additional steps that would contribute to a satisfactory end to the 
crisis in Darfur.

    Question 3. The CIA-sponsored Task Force on Political Instability 
is a group composed of academic experts and policy makers who carry out 
studies that are specifically designed to raise red flags about 
incidences of ethnic wars, disruptive regime change and genocide.
    The task force has found that, ``based on conditions that existed 
during historical incidences of genocide and politicide from 1955 to 
2002, Sudan exhibits at least five of the six risk factors identified 
by the Task Forces as statistically significant predictors of genocide 
. . .''
    Do State Department officials participate in the Task Force? Is the 
State Department aware of the above finding? How has the above finding 
influenced U.S. policy over the course of the past several months?

    Answer. The Department is aware of the Task Force on Political 
Instability. It does not participate in the Task Force. The Department 
received a report of the Task Force's finding on Sudan in early June, 
2004.
    The Department of State has carefully focused on the situation in 
Darfur for several months. The President made a strong personal 
statement in February, 2004. The United States pressed the United 
Nations Commission on Human Rights for a strong resolution on Sudan at 
its meeting in March in Geneva. We have also pushed the UNSC to engage 
on the issue of Darfur, and secured adoption of a Presidential 
Statement on May 25.
    We remain actively engaged in bilateral and multilateral efforts to 
end the violence, killing and atrocities in Darfur, to deploy an 
effective monitoring force, to ensure protection of civilian 
populations, to secure humanitarian access to all affected people, and 
to require the Government of Sudan to provide sufficient security to 
permit the safe return of all people to their homes.
    The situation remains under careful scrutiny of very senior 
Department officials, and we are constantly reviewing possible 
additional steps that would contribute to a satisfactory end to the 
crisis in Darfur.

    Question 4. State Department officials have stated that we will not 
normalize ties with Sudan until the situation in Darfur is resolved, 
and that we will not pursue peace in the south at the expense of the 
people of Darfur. It appears, however that we took the first step 
toward normalizing ties last month, when the Secretary of State 
informed us that Sudan was removed from the list of states not fully 
cooperating with U.S. anti-terrorism efforts. What specifically did 
Khartoum do over the course of the past year that they had not done 
before which merited their removal? Why, in the face of all that is 
going on in Darfur--aerial bombardment of civilians by the government, 
systematic, widespread rape of women and girls, and rampant murders and 
torture--did we decide that now was the appropriate time to remove 
Sudan from the list of states not fully cooperating with U.S. anti-
terrorism efforts? Please include a classified annex if necessary.

    Answer. Sudan has been very cooperative on matters related to the 
Global Fight against Terrorism. Details of the Sudanese government's 
cooperation may be found in the classified annex to this document.
    The timing of our decision on Sudan was controlled by the 
provisions of Section 40A to the Arms Export Control Act (the Act), 
which requires a report to the Congress by May 15 on states ``not 
cooperating fully with U.S. antiterrorism efforts.'' Genuine 
cooperation and a state's will to act are weighed along with a state's 
capabilities when making this determination.
    The change of Sudan's status was based on the facts. The Sudanese 
government is aware that this action does not affect their continued 
status as a state sponsor of terrorism, including economic sanctions.
    Our dialogue on the issue of state sponsorship continues, as do our 
concerns about the presence of HAMAS and Palestine Islamic Jihad in 
Sudan. We also continue to raise our concern regarding continued 
reports of GOS assistance to the Lord's Resistance Army.
                                 annex
    [Deleted].

    Question 5. Last week Secretary General Annan gave a report to the 
Security Council regarding the establishment of a peacekeeping mission 
to Sudan. How will the situation in Darfur affect a UN peacekeeping 
mission in support of the North-South Peace agreement? Did the 
administration's budget request for FY 2005 anticipate that such a 
mission for Sudan might be established and request contingency funding 
for it? Given the other missions which might be stood up over the 
course of the next twelve months, what sort of shape is our UN 
peacekeeping budget going to be in next year?

    Answer. We continue to monitor the situation in Sudan. Once a 
comprehensive peace agreement is reached in Sudan, we expect to support 
establishment of a UN mandated monitoring mission there to monitor the 
parties' compliance with their commitments, and will formally inform 
the Congress of our intention through a Congressional Notification.
    The Administration does not request contingency funds in the 
Contributions to International Peacekeeping Account (CIPA) budget for 
possible new UN peacekeeping missions. Out of necessity, the budget 
request for each year is put together long in advance of world events 
that may lead to a need for new UN peacekeeping missions. Regarding the 
2005 CIPA budget, the Administration requested $650 million. With the 
creation of several new UN peacekeeping missions in FY 2004, as the 
Secretary has indicated in recent hearings before the House and the 
Senate, the budget is severely strained and we will need to consider 
all alternatives including possible supplemental funding.

    Question 6. The President has appointed our current Special Envoy 
for Sudan, former Senator John Danforth, to serve as our Representative 
to the UN. Do we intend to appoint another Special Envoy for Sudan? 
When will that happen?

    Answer. The President appointed former Senator Danforth to serve as 
his Special Envoy for Sudan in order to support the Norht-South peace 
process. The USG is engaged on Sudan at the highest levels. No decision 
has been made regarding whether or not the Special Envoy position will 
be maintained.

                                 ______
                                 

   Responses of Hon. Roger P. Winter to Additional Questions for the 
            Record Submitted by Senator Joseph R. Biden, Jr.

    Question 1. Who attended the Darfur pledging conference in Geneva, 
and how much did the conference generate? Who pledged what?

    Answer. On 3 June, the United Nations and key humanitarian agencies 
met with representatives of 36 countries, including the main donor 
governments, the Government of Sudan, the African Union, the League of 
Arab States and the European Commission.

        High-Level Donor Meeting on Darfur, Geneva, 3 June 2004

              Pledges announced for Darfur (Sudan) + Chad


------------------------------------------------------------------------
                                    Pledged in US$     Pledged to date*
------------------------------------------------------------------------
Australia                         0.00                5,643,070.00
Austria                           245,098.00          245,098.00
Belgium                           1,838,235.00        2,610,166.00
Canada                            4,485,294.00        9,492,789.00
Denmark                           1,200,000.00        3,109,268.00
European Commission               0.00                33,610,720.00
ECHO                              12,254,902.00       22,649,270.00
Finland                           0.00                1,340,896.00
France                            2,818,627.00        4,098,075.00
Germany                           3,063,725.00        7,582,365.00
Greece                            245,098.00          245,098.00
Ireland                           1,838,235.00        4,025,336.00
Italy                             3,063,725.00        2,755,032.00
Japan                             2,200,000.00        3,343,438.00
Lichtenstein                      720,000.00          80,000.00
Luxembourg                        0.00                118,000.00
Netherlands                       6,127,451.00        7,979,701.00
New Zealand                       0.00                1,910,886.00
Norway                            5,500,000.00        10,423,784.00
Portugal                          306,373.00          300,000.00
Saudi Arabia                      0.00                204,490.00
Spain                             612,745.00          600,000.00
Sweden                            2,941,176.00        3,520,553.00
Switzerland                       8,000,000.00        11,011,669.00
U.K.                              0.00                61,964,879.00
USA**                             188,500,000.00      283,900,000.00
------------------------------------------------------------------------
  Total                           245,960,684.00      482,764,583.00
------------------------------------------------------------------------
*Pledged or committed since 2003 (as of June 27, 2004).
**Spread through the end of 2005.

Source: U.N. Office for the Coordination of Humanitarian Affairs (OCHA)
  CAP Section based on verbal announcements and printed statements. OCHA
  has communicated that these numbers are subject to confirmation in
  writing. These are best estimates given a rapidly changing
  environment.


    Question 2. The majority of the $188 million that Mr. Natsios 
pledged in Geneva comes from anticipated FY 2005 appropriations. How is 
the U.S. going to fulfill the pledge that Andrew Natsios made if 
Congress does not pass a 2005 foreign operations appropriations bill 
this year?

    Answer. On June 3, 2004, Andrew Natsios pledged $188.4 million to 
the Darfur crisis, $48.4 million from FY2O04 resources and $140 million 
to come from FY2005 planned resources. This amount was in addition to 
the $95.5 million that had already been committed to Darfur as of May 
27. This would bring the total USAID contribution to $283.9 million.
    Responding to the Darfur crisis is among USAID's top priorities. If 
the Congress does not pass an FY2005 foreign operations appropriations 
bill this year, the United States hopes it could still make good on its 
pledge and that the FY2005 pledge could be accommodated in a Continuing 
Resolution.

    Question 3. The World Food Program projects that assistance will be 
needed in Darfur for the next 18 months. If we assume that the security 
situation improves, which is a big if, how long can we expect emergency 
needs to exist in Darfur? How much money will we need during the 2005 
fiscal year to meet them?

    Answer. Even if security dramatically improves, the World Food 
Program's assessment, which reflects the loss of this year's 
agricultural season, represents a conservative assessment of the amount 
of time that we can expect emergency needs to exist. Eighteen months 
should be considered a minimum amount of time, with every month of 
ongoing insecurity adding to the length of time both food and other 
disaster assistance will be required.
    In FY2005, a minimum of 420,000 metric tons of food assistance will 
be required in Darfur. This calculation is based on a continuing 
caseload of 2,000,000 people, and a scenario of increasing security and 
gradual returns of displaced people to their homes. The United States 
typically meets 75 percent of the food resources in Sudan. If the 
United States is to meet only 50 percent of this need, it must plan to 
allocate approximately $200,000,000 in Title II resources for Darfur 
alone.
    Needs are also critical in other parts of the country where food 
assistance will be critically needed to support the peace agreement 
between the North and the South. If these needs are considered, an 
additional $130,000,000 in Title II assistance will be required in 
FY2005 to stabilize areas of internally displaced persons and refugee 
return and newly accessible conflict-affected areas in the South.

    Question 4. Some of the reports coming out of Darfur indicate that 
internally displaced people are subject to attack and abuse by 
government sponsored Arab militias. What are we doing to protect 
internally displaced people living in camps? What more should we be 
doing?

    Answer. Security and protection issues in Darfur are an 
overwhelming concern that the U.S. Government is attempting to address 
on a political and diplomatic level, as evidenced by Secretary Powell's 
recent visit to Khartoum and Darfur. A much larger international 
presence would have a mitigating effect on the violence. The U.S. 
Government will continue to pressure the Sudanese Government to remove 
all obstacles to humanitarian access and to allow mandated human rights 
monitors into Darfur. We should also help ensure that the African Union 
ceasefire monitors are well-equipped and deployed in large numbers.
    At the level of humanitarian assistance programs, the USAID 
Disaster Assistance Response Team (DART) has developed a draft 
protection strategy for Darfur, outlining a range of activities to 
improve protection for vulnerable communities. The goals of the program 
include reducing the risk to, and upholding basic rights of, internally 
displaced and other vulnerable civilians, as well as paving the way for 
holding perpetrators accountable for their crimes. USAID support 
includes activities in Darfur, Khartoum, neighboring Chad and the 
United States aimed at the following: (1) getting perpetrators to 
change abusive behavior by using information from incidents and trends 
as a pressure tool; (2) responding to the needs created by the abuses 
and preventing further violence through humanitarian programming; and 
(3) supporting the collection and analysis of testimonials, documentary 
evidence and physical data on incidents.
    Specific activities in Darfur include medical and psycho-social 
treatment for rape survivors; alternative fuel to reduce incidents of 
rape and violence when collecting firewood; intelligent camp design; 
safety committees; family tracing; and training other humanitarian 
staff and local authorities in protection norms and principles. In 
Chad, USAID is sponsoring, together with the State Department, the 
interviewing of 1,200 refugees on the Chadian border to provide solid 
evidence of the nature of the atrocities. Given the sensitivity of 
protection issues in Darfur, more details can be provided to the 
Committee in a private session.

                                 <all>

</pre></body></html>
